<html>
<title> - DENYING SAFE HAVENS: HOMELAND SECURITY'S EFFORTS TO COUNTER THREATS FROM PAKISTAN, YEMEN, AND SOMALIA</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
  DENYING SAFE HAVENS: HOMELAND SECURITY'S EFFORTS TO COUNTER THREATS 
                   FROM PAKISTAN, YEMEN, AND SOMALIA

=======================================================================



                                HEARING

                               before the

                       SUBCOMMITTEE ON OVERSIGHT,

                     INVESTIGATIONS, AND MANAGEMENT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 3, 2011

                               __________

                           Serial No. 112-29

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] 


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________



                  U.S. GOVERNMENT PRINTING OFFICE
72-239                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Jackie Speier, California
Joe Walsh, Illinois                  Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         Hansen Clarke, Michigan
Ben Quayle, Arizona                  William R. Keating, Massachusetts
Scott Rigell, Virginia               Kathleen C. Hochul, New York
Billy Long, Missouri                 Vacancy
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Mo Brooks, Alabama
           Michael J. Russell, Staff Director/General Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

       SUBCOMMITTEE ON OVERSIGHT, INVESTIGATIONS, AND MANAGEMENT

                   Michael T. McCaul, Texas, Chairman
Gus M. Bilirakis, Florida            William R. Keating, Massachusetts
Billy Long, Missouri, Vice Chair     Yvette D. Clarke, New York
Jeff Duncan, South Carolina          Danny K. Davis, Illinois
Tom Marino, Pennsylvania             Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex              (Ex Officio)
    Officio)
                  Dr. R. Nick Palarino, Staff Director
                   Diana Bergwin, Subcommittee Clerk
              Tamla Scott, Minority Subcommittee Director



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Subcommittee on 
  Oversight, Investigations, and Management:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable William R. Keating, a Representative in Congress 
  From the State of Massachusetts, and Ranking Member, 
  Subcommittee on Oversight, Investigations, and Management......     8
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     9

                               WITNESSES
                                Panel I

Ms. Jacquelyn L. Williams-Bridgers, Managing Director, 
  International Affairs and Trade, Government Accountability 
  Office:
  Oral Statement.................................................    11
  Prepared Statement.............................................    13
Mr. Mark Koumans, Deputy Assistant Secretary, International 
  Affairs, U.S. Department of Homeland Security:
  Oral Statement.................................................    18
  Prepared Statement.............................................    19
Ms. Shari Villarosa, Deputy Coordinator for Regional Affairs, 
  U.S. Department of State:
  Oral Statement.................................................    25
  Prepared Statement.............................................    27
Mr. James Q. Roberts, Principal Director for Special Operations 
  and Combating Terrorism, Office of Special Operations/Low-
  Intensity Conflict and Interdependent Capabilities, U.S. 
  Department of Defense:
  Oral Statement.................................................    32
  Prepared Statement.............................................    33

                                Panel II

Mr. Steve Coll, President and CEO, New America Foundation:
  Oral Statement.................................................    46
  Prepared Statement.............................................    47
Mr. Bruce Hoffman, Director, Center for Peace and Security 
  Studies, Director, Security Studies Program, Georgetown 
  University:
  Oral Statement.................................................    52
  Prepared Statement.............................................    54
Mr. Daniel L. Byman, Security Studies Program, School of Foreign 
  Service at Georgetown University, and Senior Fellow, Saban 
  Center for Middle East Policy, The Brookings Institution:
  Oral Statement.................................................    59
  Prepared Statement.............................................    60


  DENYING SAFE HAVENS: HOMELAND SECURITY'S EFFORTS TO COUNTER THREATS 
                   FROM PAKISTAN, YEMEN, AND SOMALIA

                              ----------                              


                          Friday, June 3, 2011

             U.S. House of Representatives,
    Subcommittee on Oversight, Investigations, and 
                                        Management,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 311, Cannon House Office Building, Hon. Michael T. McCaul 
[Chairman of the subcommittee] presiding.
    Present: Representatives McCaul, Bilirakis, Long, Duncan, 
Keating, and Clarke.
    Mr. McCaul. Good morning. The committee will come to order. 
I would like to welcome our witnesses to this hearing entitled 
``Denying Safe Havens: Homeland Security's Efforts to Counter 
Threats from Pakistan, Yemen, and Somalia.''
    Although Osama bin Laden is dead, al-Qaeda and its 
affiliates are not. They are hiding in safe havens, areas of 
relative security that are exploited by terrorists to recruit, 
train, raise funds, and plan operations.
    The Department of State has identified 13 countries acting 
as safe havens today. Today, we examine three that we believe 
pose the most serious threat to the United States--and that is 
Pakistan, Yemen, and Somalia--and what is the U.S. Government 
doing to deny these places as a refuge for terrorists.
    Osama bin Laden was the most-wanted terrorist. Yet he lived 
comfortably in Abbottabad, Pakistan, in a town that serves as a 
headquarters for frontier force and infantry regiments only 31 
miles from Islamabad, contrary to our belief that he was hiding 
in some cave in the FATA or the frontier. He was not hiding in 
a cave. He was not in the mountains. His compound was less than 
1 mile--or about half the distance from here to the Washington 
Monument--from the Pakistan Military Academy, or their 
equivalent of West Point, where over 2,000 cadets are trained, 
600 instructors teach, and approximately 2,000 representatives 
from other countries visit and receive training each year.
    CNN recently reported that Osama bin Laden sought a deal 
with Pakistan in which he would not attack Pakistan in exchange 
for protection. At this point, we do not know who in the 
Pakistani government was aware of Osama bin Laden's presence, 
but I am certain that some Pakistan officials knew that he was 
living in plain sight, not exactly the average house in an 
ordinary neighborhood. It stuck out like a sore thumb.
    It is difficult to determine how many terrorist groups 
operate out of Pakistan, but we do know al-Qaeda and the Afghan 
Taliban and the Pakistani Taliban and other groups use this 
country as a staging ground for attacks on U.S. troops, to kill 
American citizens, and terrorize countries throughout the 
world.
    For example, Mullah Omar, the spiritual leader of the 
Taliban, is believed to be in Pakistan. Anwar al-Awlaki is 
hiding in Yemen. He is the equivalent of the bin Laden of the 
internet. He provides spiritual guidance and recruits 
terrorists via YouTube and Facebook. He has inspired more than 
2 dozen terror plots against the United States in the past 2 
years. The Fort Hood shooter, Nidal Hasan, e-mailed al-Awlaki 
on numerous occasions before he killed 13 people, including 
soldiers, and wounding 30 others. Abdulmutallab, the Christmas 
bomber, was in contact with al-Awlaki before attempting to set 
off an explosive on board Northwest Flight 254, an 
international flight bound for Detroit.
    With the death of bin Laden, many experts believe al-Qaeda 
in the Arabian Peninsula based in Yemen will attempt to become 
the successor. Because there is no central authority in 
Somalia, al-Qaeda and other associated terrorist groups will 
also use it as a base of operations to attack Western targets.
    According to the 2009 Report on Terrorism issued by the 
National Counterterrorism Center, al-Shabaab is also considered 
by U.S. officials as one of the most deadly terrorist groups in 
the world. Not only is Somalia a base for terrorists, but 
pirates operating off the coast are a threat to international 
shipping. This has contributed to an increase in shipping costs 
and the delivery of food aid shipments. Ninety percent of the 
world's food programs' shipments into Somalia arrive by sea and 
ships and now require a military escort.
    Numerous documents have addressed the problem of terrorist 
safe havens. The 9/11 Commission's report to Congress concluded 
the safe haven of Afghanistan allowed al-Qaeda operational 
space to gather recruits and build logistical networks to 
conduct attacks against the United States.
    The Obama administration's National Security Strategy 
states: We will deny safe havens and strengthen at-risk states. 
This NSS report points out a whole-government approach that is 
needed to include information sharing, law enforcement 
cooperation, and establishing new practices to counter 
terrorists. The document also requires the United States to 
help countries build capacities for responsible governance and 
security.
    Existing U.S. law, the Intelligence Reform and Terrorism 
Prevention Act of 2004 and the National Defense Authorization 
Act for Fiscal Year 2010, requires the administration to 
produce a list of what each agency is doing to deny terrorists 
safe havens.
    The Government Accountability Office, or GAO, examined the 
U.S. Government approach and concluded, No. 1, that safe havens 
are a threat to the United States; and No. 2, a more 
comprehensive list of agency efforts is needed so Congress can 
adequately oversee and assess how the United States is denying 
safe havens to terrorists. In other words, GAO concludes that 
this administration is not complying with these requirements.
    We currently have an incomplete picture of what each of 
these countries is doing to eliminate safe havens, what they 
are doing to prevent the proliferation and tracking of weapons 
of mass destruction, and what they are doing to cooperate with 
U.S. counterterrorism officials. This knowledge is vital to 
Congress' ability to craft foreign policy that holds countries 
accountable for aiding terrorists by looking the other way.
    I applaud our Government's efforts, but more has to be 
done. Eliminating the terrorist's base of operations where they 
have the ability to recruit, train, and plan their operations 
is the key to preventing future attacks on American soil. Osama 
bin Laden orchestrated the 9/11 attacks from his safe haven in 
Afghanistan. Anwar al-Awlaki has been able to inspire more than 
2 dozen plots against the United States over the past 2 years, 
including the Fort Hood shootings and the Christmas bomber.
    This hearing will assess the role of the U.S. Government in 
denying the terrorists the ability to reconstitute.
    Before I yield my time to the Ranking Member, I do want to 
thank the brave men and women of our Armed Services, the 
civilians in the Departments of State and Homeland Security, 
and those across Government agencies who serve overseas. They 
constitute our best defense against the terrorists who want to 
kill us.
    [The statement of Chairman McCaul follows:]
            Prepared Statement of Chairman Michael T. McCaul
                              June 3, 2011
    Good morning. Welcome to this Oversight, Investigations, and 
Management Subcommittee hearing titled ``Denying Terrorist Safe Havens: 
Homeland Security's Efforts to Counter Threats From Pakistan, Yemen, 
and Somalia''.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Although Osama bin Laden is dead, al-Qaeda and its affiliates are 
not. They are hiding in safe havens--areas of relative security that 
are exploited by terrorists to recruit, train, raise funds, and plan 
operations. The Department of State has identified 13 countries acting 
as safe havens. Today we examine three that we believe pose the most 
serious threat to the United States--Pakistan, Yemen, and Somalia--and 
what the U.S. Government is doing to deny these places as a refuge for 
terrorists.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Osama bin Laden was a hunted man, yet he lived comfortably in 
Abbottabad, Pakistan, a town that serves as the headquarters for 
Frontier Force and Infantry regiments only 31 miles from Islamabad. He 
was not hiding in a cave. He was not in the mountains. His compound was 
less than 1 mile--or about half the distance from here to the 
Washington Monument--from the Pakistan Military Academy where over 
2,000 cadets are trained, 600 instructors teach, and approximately 
2,000 representatives from other countries visit and receive training 
each year.
    CNN recently reported that Osama bin Laden sought a deal with 
Pakistan in which he would not attack Pakistan in exchange for 
protection. At this point we do not know who in the Pakistani 
Government was aware of Osama bin Laden's presence, but I am convinced 
some Pakistani officials knew that he was living in plain sight. Not 
exactly the average house in an ordinary neighborhood. It stuck out 
like a sore thumb.
    It is difficult to determine how many terrorist groups operate out 
of Pakistan. But we do know al-Qaeda, the Afghan Taliban, the Pakistani 
Taliban and other groups use this country as a staging ground for 
attacks on U.S. troops, to kill American citizens, and terrorize 
countries throughout the world. For example, Mullah Omar, the spiritual 
leader of the Taliban, is believed to be in Pakistan.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Anwar al Awlaki is hiding in Yemen. He is the bin Laden of the 
internet because he provides spiritual guidance and recruits terrorists 
via YouTube and Facebook. He has inspired more than 2 dozen terror 
plots against the United States over the past 2 years. The Fort Hood 
shooter, Nidal Hasan emailed al Awalaki on numerous occasions before 
killing 13 people and wounding 30 others. Umar Farouk Abdulmuttalab, 
the Christmas bomber, was in contact with al Awalaki before attempting 
to set off an explosive on-board Northwest Flight 254, an international 
flight on approach to Detroit.
    With the death of bin Laden, many experts believe al-Qaeda in the 
Arabian Peninsula, based in Yemen, will attempt to become the successor 
to al-Qaeda.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Because there is no central authority in Somalia, al-Qaeda and 
other associated terrorist groups will use it as a base of operations 
to attack Western targets. According to the 2009 Report on Terrorism 
issued by the National Counterterrorism Center, al-Shabaab is 
considered by U.S. officials as one of the most deadly terrorists 
groups in the world.
    Not only is Somalia a base for terrorists, but pirates operating 
off its coast are a threat to international shipping. This has 
contributed to an increase in shipping costs and impeded the delivery 
of food aid shipments. Ninety percent of the World Food Program's 
shipments into Somalia arrive by sea, and ships into this area now 
require a military escort.
    Numerous documents have addressed the problem of terrorist safe 
havens.
  <bullet> The 9/11 Commission's report to Congress concluded the safe 
        haven of Afghanistan allowed al-Qaeda operational space to 
        gather recruits and build logistical networks to conduct 
        attacks against the United States.
  <bullet> The Obama administration National Security Strategy (NSS) 
        states we will ``Deny Safe Havens and Strengthen At-Risk 
        States.'' The NSS points out a whole-of-government approach 
        (interagency collaboration) is needed including information 
        sharing, law enforcement cooperation, and establishing new 
        practices to counter terrorists. The document also requires the 
        United States to help countries build capacities for 
        responsible governance and security.
  <bullet> Existing U.S. law (the Intelligence Reform and Terrorism 
        Prevention Act of 2004 and the National Defense Authorization 
        Act for Fiscal Year 2010) requires the administration to 
        produce a list of what each agency is doing to deny terrorists 
        safe havens.
  <bullet> The Government Accountability Office (GAO) examined the U.S. 
        Government approach and concluded: (1) Safe havens are a threat 
        to the United States, and (2) a more comprehensive list of 
        agency efforts is needed so Congress can adequately oversee and 
        assess how the United States is denying safe havens to 
        terrorists.
    We currently have an incomplete picture of what each of these 
countries is doing to eliminate safe havens, what they are doing to 
prevent the proliferation and tracking of weapons of mass destruction, 
and what they are doing to cooperate with U.S. counter-terrorism 
officials. This knowledge is vital to Congress's ability to craft 
foreign policy that holds countries accountable for aiding terrorists 
by looking the other way.
    I applaud our Government's efforts but more has to be done.
    Eliminating the terrorists' base of operations where they have the 
ability to recruit, train, and plan their operations is the key to 
preventing attacks on American soil. Osama bin Laden orchestrated the 
9/11 attacks from a safe haven in Afghanistan. Anwar al Awlaki has been 
able to inspire more than 2 dozen plots against the United States over 
just the past 2 years including the Fort Hood shootings and Christmas 
bomber. This hearing will assess the role of the U.S. Government in 
denying the terrorists the ability to reconstitute.
    Before I yield my time I would like to thank the brave men and 
women of our armed services, the civilians in the Departments of State 
and Homeland Security and all those from other U.S. Government agencies 
who serve overseas. They constitute our best defense against the 
terrorist who want to kill us.
    Also I want to thank our witnesses today and look forward to 
hearing their testimonies.

    Mr. McCaul. With that, I yield and recognize the Ranking 
Member of this committee, Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman; and thank you for 
convening today's hearing on U.S. efforts to deny terrorist 
safe havens and counter threats from Pakistan, Yemen, and 
Somalia.
    The terrorist attacks of 9/11 were coordinated, as we all 
know, from a safe haven in Afghanistan. The 9/11 Commissioners 
later stated that the U.S., ``strategy should include offensive 
operations to counterterrorism,'' and terrorists should no 
longer find safe havens where their organizations can grow and 
flourish.
    Terrorism in America right now is our No. 1 security 
threat. Denying safe haven to terrorists is a paramount concern 
to our homeland security and an important step in keeping our 
communities safe from terrorism.
    We know that safe havens exist in ungoverned, under-
governed, and ill-governed areas of the world. These havens 
provide terrorists with cover and allow them the space to 
operate and plan vicious terrorist attacks.
    There are multiple agencies that play a role in 
implementing U.S. counterterrorism efforts, and I thank the 
panel for taking their time today to join us as part of that 
grouping.
    The Departments of State, Homeland Security, Justice, and 
Defense are all but a few of the U.S. agencies that combine 
their efforts in countering this threat; and I am interested in 
hearing today from our witnesses the level of cooperation that 
presently exists among the various agencies and whether this 
multi-agency approach is producing positive results for our 
homeland security. I think cooperation is one of the challenges 
that we all face in a threat so complicated and serious as 
this, and it is important that coordination exist as seamlessly 
as possible.
    I am concerned that Congress receive a full and 
comprehensive listing of our Government's efforts, especially 
in light of the risk safe havens pose to the safety and 
security of U.S. interests, both at home and abroad. One hand 
needs to know what the other hand is doing, and the production 
of this report in the manner intended by Congress will allow 
that to happen.
    While today's focus is on physical safe havens, we must 
also consider the broader safe havens of the future. Electronic 
infrastructure and global communications play an important role 
in terrorist operations and allow for virtual safe havens that 
are much harder to track, disrupt, and dismantle than physical 
safe havens.
    Furthermore, the May 1 killing of Osama bin Laden, who 
escaped detection by hiding in a safe haven located in a 
heavily populated area, governed area, that indicates that the 
terms of safe haven does not always equate with remoteness, in 
scarcely populated areas, or lawless areas.
    I look forward to hearing from both panels and receive 
their recommendations on strategies on the best approach for 
addressing terrorist safe havens, and I yield back my time.
    Mr. McCaul. I thank the Ranking Member, and I couldn't 
agree with you more that the virtual safe havens are a threat 
as well. I know we have had hearings on radicalization over the 
internet, which I think poses one of the biggest threats we 
have today.
    Other Members are reminded that opening statements may be 
submitted for the record.
    [The statement of Ranking Member Thompson follows:]
        Prepared Statement of Ranking Member Bennie G. Thompson
                              June 3, 2011
    Thank you, Chairman McCaul, for convening this hearing.
    I would also like to thank our witnesses for their participation, 
and I look forward to hearing their testimony.
    Last month, the United States achieved a major milestone in our on-
going effort to secure our homeland from acts of terrorism.
    The killing of Osama bin Laden, without a doubt, made the United 
States, in particular, and the entire world, in general, a safer place 
to live.
    However, it did not remove the on-going threat from terrorist 
forces that continue to seek to do us harm.
    We know that terrorists rely on safe havens to organize, plan, 
raise funds, communicate, recruit, train, and operate in relative 
obscurity.
    They also use safe havens to plan attacks--some of which focus on 
killing innocent Americans--in an effort to further their ideological 
goals.
    These safe havens provide security for terrorists because in these 
areas they are able to operate outside of the law, in uncontrolled 
territory, with little or no government interference.
    In August 2010, the Department of State identified 13 terrorist 
safe havens, including areas in Pakistan, Somalia, and Yemen.
    These areas experience widespread terrorist activities that 
illustrate the danger in identified safe haven locations.
    According to the National Counterterrorism Center, in 2010 alone, 
there were approximately 200 terrorist attacks in Yemen, more than 580 
in Somalia, and 1,331 in Pakistan.
    Terrorists from these countries have also sought to attack United 
States interests.
    For example, al-Qaeda in the Arabian Peninsula, or AQAP, which 
operates in Yemen, claimed responsibility for the attempted 2009 
Christmas day bombing of a plane headed to the United States; in 
addition to the attempted package bombings on U.S.-bound aircraft in 
October 2010.
    Congress has mandated that the U.S. Government issue reports that 
identify where terrorist safe havens exist and assess U.S. Government 
efforts in addressing them.
    The reporting of this vital information to Congress is the first 
step in ensuring Congressional oversight of Government-wide efforts in 
denying terrorist safe havens and taking efforts to dismantle and 
disrupt their existence.
    Unless the United States identifies where safe havens are located 
and the steps being taken to protect the homeland in light of their 
existence, Congress cannot fully measure the adequacy of U.S. efforts.
    Unfortunately, GAO will release a report today that indicates that 
since 2004 Federal Government agencies have not fully complied with 
Congressional reporting requirements.
    As a result, not once has Congress received a comprehensive 
Government-wide list of U.S. efforts to deny safe haven to terrorists, 
as required by law.
    Last year, several efforts were implemented to improve the U.S. 
Government response to addressing terrorist safe havens.
    The 2010 National Security Strategy declared that ``denying safe 
haven to terrorists is an essential component of the U.S. strategy to 
defeat al-Qaeda and its affiliates.''
    Furthermore, the 2010 National Defense Authorization Act for Fiscal 
Year 2010 reiterated safe haven reporting requirements and I am pleased 
to learn that for the first time ever, a more comprehensive report is 
underway.
    I look forward to receiving testimony from our Government panel 
which should shed light on U.S. Government efforts.
    I am also interested in hearing from our panel of experts regarding 
the extent to which terrorist safe havens pose a threat to U.S. 
homeland security.
    I yield back.

    Mr. McCaul. We are pleased to have a very distinguished 
panel of witnesses before us today on this important topic, and 
I want to introduce each of you. I hope we can get through your 
testimony. We have a series of votes coming up probably in 
about 30 minutes from now. It will be two votes, and then we 
will return to the hearing.
    First, we have Ms. Jacquie Williams-Bridgers, who is the 
Managing Director of the International Affairs and Trade Team 
for the U.S. Government Accountability Office. She began her 
professional career in the GAO in 1978.
    Ms. Williams-Bridgers has also been Inspector General of 
the U.S. Department of State and the U.S. Arms Control and 
Disarmament Agency, and it is a pleasure to have you here 
today.
    Next, we have Mr. Mark Koumans, who is the Deputy Assistant 
Secretary for International Affairs at the U.S. Department of 
Homeland Security. He is responsible for coordinating the 
Department's international programs and policies.
    Prior to joining DHS, he served in the U.S. Foreign 
Service, concentrating on counterterrorism and security issues; 
and it is an honor to have you here today as well, sir.
    Next, we have Ms. Shari Villarosa, who is the Deputy 
Coordinator for Regional Affairs at the U.S. Department of 
State. Previously, she served as Chief of Mission in Burma; and 
her expansive Foreign Service career has included overseas 
assignments in Thailand, Brazil, and Ecuador, among others.
    Next, we have Mr. James Roberts. He serves as the Principal 
Director for Special Operations and Combating Terrorism in the 
Office of Secretary of Defense. Mr. Roberts began his 
Government career as a U.S. Army private in 1968 and served 24 
years on active duty as a military intelligence officer. We 
thank you for your service to our country and thank all of you 
for being here today.
    I have been informed that we are going to have votes in 
about probably 5 minutes or so. In fact, they just called it 
just now.
    I think we can proceed with some of the testimony. They 
usually keep the votes open for about 30 minutes.
    So, with that, Ms. Williams-Bridgers is recognized.

STATEMENT OF JACQUELYN L. WILLIAMS-BRIDGERS, MANAGING DIRECTOR, 
  INTERNATIONAL AFFAIRS AND TRADE, GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Ms. Williams-Bridgers. Chairman McCaul, Ranking Member 
Keating, and Members of the subcommittee, I am pleased to be 
here to discuss the report the GAO is releasing today on U.S. 
efforts to address terrorist safe havens.
    Safe havens, as we all know, allow terrorists the freedom 
to train, recruit, and plan deadly operations that constitute a 
threat to the United States. As you mentioned in your opening 
statement, Chairman McCaul, such was the case with the 
attempted airliner bombing on December 25, 2009, which was 
planned from safe havens in Yemen. Most recently, the discovery 
of Osama bin Laden in a compound near a military base in 
Pakistan makes this hearing particularly timely.
    My testimony focuses on three questions: To what extent do 
U.S. agency strategies focus on terrorist safe havens? What 
terrorist safe havens have been identified? Has the U.S. 
Government developed a comprehensive assessment of its efforts 
to deny terrorists the ability to train, recruit, plan deadly 
operations against us?
    My first point is that the U.S. Government emphasizes the 
importance of denying safe havens to terrorists in several 
strategic documents. Three National security strategies 
released since 2002 and the National Strategy for Combating 
Terrorism, which was last updated in 2006, identify safe havens 
as a National security concern.
    The National Strategy for Combating Terrorism noted that 
the elimination of terrorist safe havens requires the attention 
of all elements of National power, with a particular focus on 
information sharing, law enforcement, and foreign capacity-
building and security governance in development sectors.
    In addition to National strategies, Defense, Justice, 
State, USAID, and the Office of Director of National 
Intelligence have issued strategic plans that include language 
emphasizing the importance of addressing safe havens. However, 
other agencies such as DHS that are significantly involved in 
relevant law enforcement efforts overseas do not specify the 
need to address threats from safe havens in their strategic 
plans.
    My second point, in compliance with Congressional mandates, 
State Department annually identifies safe havens around the 
globe which threaten U.S. National security. Congress mandated 
that State perform a detailed assessment of each foreign 
country whose territory is being used as a sanctuary to 
terrorists. Since 2006, State has published this information in 
its annual country reports on terrorism. Of note, since 2007, 
only one country, Indonesia, and one region, the Afghanistan-
Pakistan border, have been removed from the list of safe 
havens. State most recently, in its Country Report issued in 
August of last year, identified 13 countries as safe havens.
    Each of the three countries that are the focus of this 
hearing today have areas that terrorists use as safe havens.
    For example, in Pakistan, several terrorist organizations 
maintain safe havens, including the core of al-Qaeda, the 
Pakistani Taliban, the LET. Each group has either attempted 
attacks against the United States or views American interests 
as legitimate targets. For example, the Pakistani Taliban 
claimed responsibility for the failed vehicle bombing in New 
York City's Times Square in 2010.
    In Yemen, the al-Qaeda in the Arabian Peninsula, AQAP, 
planned the attempted bombing of a plane headed to the United 
States on December 25, 2009, and also claimed responsibility 
for the attempted package bombing in cargo planes in late 2010. 
Also, in 2010, the United States designated Anwar al-Awlaki, a 
U.S. citizen and leader for AQAP, for supporting acts of 
terrorism on behalf of AQAP.
    In Somalia, al-Shabaab, whose core leadership is linked 
ideologically to al-Qaeda, has claimed responsibility for 
several bombings and shootings throughout Somalia, as well as 
the deadly suicide bombings in Uganda. Just last year, the FBI 
indicted 12 people, including five U.S. citizens, on charges of 
providing support to al-Shabaab.
    In addition, the FBI has expressed concerns about Americans 
trained in Somalia who might plan to conduct attacks inside the 
United States.
    My third point is that, despite the express desire of the 
Congress to receive comprehensive assessments of the United 
States' efforts to deny terrorists safe harbor, the United 
States Government has not developed such an evaluation. 
Beginning in 2004, Congress required the administration to 
submit reports outlining U.S. Government efforts to deny or 
disrupt safe havens. In response, State submitted a report to 
Congress in 2006 and subsequently updated its information in 
its annual Country Reports.
    While these reports, including the most recent update 
issues in August, 2010, identify several U.S. efforts to 
address safe havens, we found that State's report is not 
complete for two reasons.
    First, the Country Reports do not include at least 13 
programs and activities that State funds to address safe 
havens. For example, foreign military financing and State-
funded training provided through DHS to combat bulk cash 
smuggling were not included.
    Second, programs and activities funded by agencies other 
than State Department, such as Defense, Justice, Treasury, were 
not included. For example, DOD's Afghanistan and Iraqi security 
forces funds and the 1206 program that is used to train and 
equip foreign security forces were not included.
    To enhance the usefulness of State's reporting we 
recommended that State include an assessment of key U.S. agency 
programs that addressed terrorist safe havens. State concurred 
that its reporting should be more comprehensive but did not 
agree that such a list should be part of its Country Reports, 
citing another report that it issued. We examined that report, 
an anti-terrorism report, and determined that it does not 
constitute a Government-wide assessment of key U.S. efforts 
because it, too, does not include the contributions of the 
agencies, such as DOD.
    In 2010, Congress again required the President to report on 
U.S. counterterrorism efforts relating to the denial of safe 
havens. We understand that the National Security Council has 
been assigned responsibility for completing this report, but no 
report has yet been submitted to Congress. To address this 
reporting gap, we recommended that the NSC, in collaboration 
with other agencies, complete the Congressional reporting 
requirement to identify and assess Government-wide efforts 
related to denial of terrorist safe harbors.
    Chairman McCaul, Mr. Keating, that concludes my prepared 
statement. I will be happy to answer questions at the 
appropriate time.
    [The statement of Ms. Williams-Bridgers follows:]
          Prepared Statement of Jacquelyn L. Williams-Bridgers
                              June 3, 2011
                              gao-11-713t
    Chairman McCaul, Ranking Member Keating, and Members of the 
subcommittee: I am pleased to be here to discuss the report GAO is 
releasing today on U.S. efforts to address terrorist safe havens.\1\ 
Terrorist safe havens provide security for terrorists, allowing them to 
train recruits and plan operations. U.S. officials have concluded that 
various terrorist incidents demonstrate the dangers emanating from 
terrorist safe havens, such as the November 2008 attacks in Mumbai, 
India, planned, in part, from safe havens in Pakistan,\2\ and the 
attempted airliner bombing on December 25, 2009, planned from safe 
havens in Yemen. The discovery of Osama bin Laden in a compound in 
Pakistan, from which, according to U.S. officials, he played an active 
role in al-Qaeda focused on attacking the United States, makes this 
hearing particularly timely.
---------------------------------------------------------------------------
    \1\ GAO, Combating Terrorism: U.S. Government Should Improve Its 
Reporting on Terrorist Safe Havens, GAO-11-561 (Washington, DC: June 3, 
2011).
    \2\ See GAO, Combating Terrorism: The United States Lacks 
Comprehensive Plan to Destroy the Terrorist Threat and Close the Safe 
Haven in Pakistan's Federally Administered Tribal Areas, GAO-08-622 
(Washington, DC: Apr. 17, 2008).
---------------------------------------------------------------------------
    My testimony today focuses on: (1) U.S. National strategies related 
to addressing terrorist safe havens, (2) terrorist safe havens \3\ 
identified by the Department of State (State) and the threats emanating 
from these havens, and (3) the extent to which the U.S. Government has 
identified efforts to deny terrorists safe havens.
---------------------------------------------------------------------------
    \3\ The 2006 National Strategy for Combating Terrorism states that, 
in addition to physical terrorist safe havens in geographic 
territories, terrorist safe havens can also be nonphysical or virtual, 
existing within legal, cyber, and financial systems. In this statement, 
however, we focus on physical terrorist safe havens.
---------------------------------------------------------------------------
    In our report, we found that U.S. National strategies emphasize the 
importance of denying safe haven to terrorists and that, since 2006, 
State has annually identified terrorist safe havens in its Country 
Reports on Terrorism. However, we also found that, although there are 
multiple reporting requirements, the U.S. Government has not provided 
to Congress a comprehensive, Government-wide list of its efforts to 
address terrorist safe havens. We made recommendations to both State 
and the National Security Council to improve reporting on U.S. efforts 
to address terrorist safe havens. State agreed with the importance of 
comprehensive information regarding U.S. efforts to address terrorist 
safe havens, but did not agree that this information needs to be 
included in the Country Reports on Terrorism. The National Security 
Council reviewed the report but provided no comments on the 
recommendation.
   u.s. national strategies emphasize the importance of denying safe 
                          havens to terrorists
    The United States highlights the denial of safe haven to terrorists 
as a key National security concern in several U.S. Government strategic 
documents. For example, National Security Strategies released in 2002, 
2006, and 2010 emphasize the importance of denying safe haven to 
terrorists. The current National Strategy for Combating Terrorism, 
which was last updated September 2006, also stresses the importance of 
eliminating terrorist safe havens. The document identifies eliminating 
terrorist safe havens as a priority action against which all elements 
of National power--including military, diplomatic, financial, 
intelligence, and law enforcement--should be applied. According to 
National Security Staff officials, an updated National Strategy for 
Combating Terrorism is currently being drafted and its release is 
expected in the coming months. However, these officials stated that 
denying safe haven to terrorists will remain an important element of 
U.S. counterterrorism strategy.
    In addition to National strategies, plans issued by various U.S. 
agencies, such as the Departments of Defense (DOD), Justice (DOJ), and 
State/U.S. Agency for International Development (USAID), as well as the 
National Intelligence Strategy issued by the Office of the Director of 
National Intelligence, include language emphasizing the importance of 
addressing safe havens. Figure 1 shows excerpts from these documents, 
which discuss terrorist safe havens. However, other agencies that are 
involved in U.S. efforts to address terrorist safe havens do not 
include specific language on safe havens in their strategic plans. For 
example, the Department of Homeland Security (DHS)--which contributes 
to the law enforcement element of U.S. National power--does not 
specifically address safe havens in its strategic plan but does have a 
goal to ``protect the homeland from dangerous people,'' which includes 
objectives related to effective border control.
figure 1: selected u.s. government strategic documents emphasizing the 
             importance of denying safe haven to terrorists
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    State's Office of the Coordinator for Counterterrorism coordinates 
policies and programs of U.S. agencies to counter terrorism overseas. 
According to State, the Office of the Coordinator for Counterterrorism 
works with all appropriate elements of the U.S. Government to ensure 
integrated and effective counterterrorism efforts that utilize 
diplomacy, economic power, intelligence, law enforcement, and military 
power. These elements include those in the White House, DOD, DHS, DOJ, 
State, the Department of the Treasury (Treasury), USAID, and the 
intelligence community. For instance, State funds programs to build the 
capacity of U.S. foreign partners to counter terrorism financing 
implemented by agencies such as DHS, Treasury, and DOJ.
since 2006, state has annually identified terrorist safe havens posing 
                    risks to u.s. national security
    The Intelligence Reform and Terrorism Prevention Act of 2004 
(IRTPA) \4\ requires State to include a detailed assessment in its 
annual Country Reports on Terrorism with respect to each foreign 
country whose territory is being used as a terrorist sanctuary, also 
known as a terrorist safe haven.\5\ State defines terrorist safe havens 
as ``ungoverned, under-governed, or ill-governed areas of a country and 
non-physical areas where terrorists that constitute a threat to U.S. 
National security interests are able to organize, plan, raise funds, 
communicate, recruit, train, and operate in relative security because 
of inadequate governance capacity, political will, or both.'' Since 
2006, State has identified existing terrorist safe havens in a 
dedicated chapter of its Country Reports on Terrorism.\6\ As shown in 
figure 2, State identified 13 terrorist safe havens in its August 2010 
report.
---------------------------------------------------------------------------
    \4\ Pub. L. 108-458, section 7102.
    \5\ We use the term terrorist safe haven, which, according to 
State, has the same meaning as terrorist sanctuaries.
    \6\ State annually releases the Country Reports on Terrorism. 
State's August 2010 report includes a strategic overview of terrorist 
threats and country-by-country discussions of foreign government 
counterterrorism cooperation. While released by State's Office of the 
Coordinator for Counterterrorism, the Country Reports on Terrorism 
incorporates the views of the National Counterterrorism Center and 
National Security Staff, as well as key agencies involved in addressing 
international terrorism.
---------------------------------------------------------------------------
 figure 2: terrorist safe havens identified in state's country reports 
                  on terrorism released in august 2010
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Terrorist safe havens pose a threat to U.S. National security. The 
National Commission on Terrorist Attacks Upon the United States (9/11 
Commission) noted that safe havens in Afghanistan allowed al-Qaeda the 
operational space to gather recruits and build logistical networks to 
undertake planning for the attacks on September 11, 2001. State reports 
that denying safe havens is central to combating terrorism, which it 
cited as the United States' top security threat. According to U.S. 
agencies, a variety of groups that pose threats to the United States 
operate in countries identified by State as terrorist safe havens. For 
example:
  <bullet> Pakistan.--Various terrorist organizations operate in 
        Pakistan. First, al-Qaeda leader Osama bin Laden was located in 
        a compound in Pakistan from which U.S. officials have stated he 
        was actively involved in planning attacks against the United 
        States. Additionally, according to State, al-Qaeda also uses 
        the Federally Administered Tribal Areas (FATA) to launch 
        attacks in Afghanistan, train and recruit terrorists, and plan 
        global operations. State also reports that the Pakistani 
        Taliban has used the FATA to plan attacks against civilian and 
        military targets across Pakistan. The Pakistani Taliban have 
        claimed responsibility for several attacks against U.S. 
        interests, including an attack on the U.S. Consulate in 
        Peshawar in April 2010. Moreover, according to the National 
        Counterterrorism Center (NCTC), the Pakistani Taliban has 
        repeatedly threatened to attack the U.S. homeland and claimed 
        responsibility for the failed vehicle bombing in New York 
        City's Times Square in May 2010. In addition, according to 
        State, Lashkar-e-Tayyiba--the group responsible for attacks in 
        Mumbai, India, in November 2008, which killed at least 183 
        people--continues to plan operations from Pakistan and views 
        American interests as legitimate targets.
  <bullet> Yemen.--The foreign terrorist organization al-Qaeda in the 
        Arabian Peninsula (AQAP) is based in Yemen. According to the 
        NCTC, AQAP is pursuing a global agenda. For example, the group 
        attempted to bomb a plane headed to the United States on 
        December 25, 2009. AQAP also claimed responsibility for the 
        attempted package bombings of cargo planes in October 2010. 
        More recently, in response to the killing of Osama bin Laden, 
        AQAP issued a press release vowing revenge against the United 
        States. In addition, members of AQAP have been named Specially 
        Designated Nationals by the United States Government. In July 
        2010, the United States designated Anwar al-Awlaki, a U.S. 
        citizen and key leader for AQAP, for supporting acts of 
        terrorism and for acting for or on behalf of AQAP.
  <bullet> Somalia.--Al-Shabaab is a foreign terrorist organization 
        active in Somalia. Al-Shabaab has claimed responsibility for 
        several bombings and shootings throughout Somalia, as well as 
        the July 2010 suicide bomb attacks in Kampala, Uganda, which 
        killed more than 70 people. State reports that rank-and-file 
        members of al-Shabaab are predominantly interested in issues 
        within Somalia, rather than pursuing a global agenda. However, 
        NCTC and State note that al-Shabaab's core leadership is linked 
        ideologically to al-Qaeda and that some members of the group 
        previously trained and fought with al-Qaeda in Afghanistan. In 
        2009, the Deputy Director of Intelligence at the NCTC testified 
        that a number of young Somali-American men traveled to Somalia, 
        possibly to train and fight with al-Shabaab, including one who 
        conducted a suicide bombing attack. While noting there is no 
        specific evidence that the Americans previously trained in 
        Somalia planned to conduct attacks inside the United States, 
        the Federal Bureau of Investigation (FBI) has expressed concern 
        that this threat remains a possibility. In August 2010, the FBI 
        arrested two U.S. citizens and indicted 12 others, including 
        five U.S. citizens, on charges of providing support to al-
        Shabaab.
 the u.s. government has not fully addressed reporting requirements to 
             identify efforts to deny terrorists safe haven
    The U.S. Government has not fully addressed reporting requirements 
to identify U.S. efforts to deny safe haven to terrorists. Congress 
required the President to submit reports outlining U.S. Government 
efforts to deny or disrupt terrorist safe havens in two laws--the IRTPA 
and the National Defense Authorization Act (NDAA) for fiscal year 2010.
    The IRTPA required the President to submit a report to Congress 
that includes an outline of the strategies, tactics, and tools the U.S. 
Government uses to disrupt or eliminate the security provided to 
terrorists by terrorist safe havens,\7\ and recommended that State 
update the report annually, to the extent feasible, in its Country 
Reports on Terrorism.\8\ In response to these provisions, State 
submitted a report to Congress in April 2006, which it has updated 
annually as part of its Country Reports on Terrorism. These reports 
include a section on U.S. strategies, tactics, and tools that 
identifies several U.S. efforts to address terrorist safe havens. In 
the Country Reports on Terrorism released in August 2010, State 
identified several U.S. efforts for addressing terrorist safe havens, 
including programs such as State's Regional Strategic Initiative and 
Antiterrorism Assistance programs.
---------------------------------------------------------------------------
    \7\ Pub. L. 108-458, Section 7120(b).
    \8\ Pub. L. 108-458, Section 7102(d)(2)(E).
---------------------------------------------------------------------------
    However, State's August 2010 Country Reports on Terrorism does not 
fully identify U.S. efforts to deny terrorists safe haven. For example:
  <bullet> Some State-funded efforts are not included.--Selected State 
        strategic documents \9\ identify efforts funded by State that 
        may contribute to denying terrorists safe haven--such as 
        Foreign Military Financing activities and USAID development 
        assistance--that were not included in the August 2010 Country 
        Reports on Terrorism. In addition, agency officials identified 
        additional State-funded efforts that may contribute to 
        addressing terrorist safe havens--such as activities funded 
        through State's Peacekeeping Operations and State-funded DHS 
        training to combat money laundering and bulk cash smuggling--
        but were not included in the report.
---------------------------------------------------------------------------
    \9\ We reviewed the fiscal year 2012 Mission Strategic and Resource 
Plans (MSRP) for the Philippines, Somalia, and Yemen, submitted in 
April 2010, which included program funding information for goals 
related to addressing terrorist safe havens for fiscal years 2009 
through 2015.
---------------------------------------------------------------------------
  <bullet> Efforts funded by other U.S. agencies are not included.--For 
        example, according to DOD officials, the Department's 
        Afghanistan and Iraq Security Forces Funds and Section 1206 
        program efforts to train and equip the security forces abroad 
        address terrorist safe havens but are not included in State's 
        report. Additionally, according to DOJ and Treasury, their 
        training programs to build the capacity of foreign partners to 
        counter terrorism financing address terrorist safe havens, but 
        they are also not included in State's report.
    In the IRTPA, Congress noted that it should be the policy of the 
United States to implement a coordinated strategy to prevent terrorists 
from using safe havens and to assess the tools used to assist foreign 
governments in denying terrorists safe haven. State's report is 
incomplete without a comprehensive overview of its own contributions 
and those of its various interagency partners to address terrorist safe 
havens.
    To enhance the comprehensiveness of State's reporting on U.S. 
efforts to deny safe haven to terrorists, we recommended that State 
include a Government-wide list of U.S. efforts to address terrorist 
safe havens when it updates the report requested under the IRTPA.\10\ 
In response, State concurred that reporting on U.S. efforts to deny 
terrorist safe havens should be more comprehensive. However, State did 
not agree that such a list should be part of its annual Country Reports 
on Terrorism, citing the fact that they have completed other reporting 
requirements related to counterterrorism. We maintain that the 
provisions in the IRTPA recommend annual updates related to U.S. 
efforts to address terrorist safe havens be included in the Country 
Reports on Terrorism. Moreover, while it is possible that other reports 
produced by State address IRTPA provisions, the antiterrorism report 
cited by State in its comments does not constitute a Government-wide 
list of U.S. efforts to address terrorist safe havens as the report 
does not include the contributions of key agencies, such as DOD.
---------------------------------------------------------------------------
    \10\ GAO-11-561.
---------------------------------------------------------------------------
    In addition to the provisions in the IRTPA, Congress demonstrated 
an on-going interest in the identification of U.S. efforts to deny 
terrorist safe havens in the NDAA for fiscal year 2010. The conference 
report accompanying the act noted that existing Executive branch 
reporting on counterterrorism does not address the full scope of U.S. 
activities or assess overall effectiveness. The NDAA for fiscal year 
2010 requires the President to submit to Congress a report on U.S. 
counterterrorism strategy, including an assessment of the scope, 
status, and progress of U.S. counterterrorism efforts in fighting al-
Qaeda and its affiliates and a provision to create a list of U.S. 
counterterrorism efforts relating to the denial of terrorist safe 
havens. The required report is intended to help Congress in conducting 
oversight, enhance the public's understanding of how well the 
Government is combating terrorism, and assist the administration in 
identifying and overcoming related challenges. As of March 2011, no 
report had been submitted to Congress. While National Security Staff 
officials taking the lead on the report stated they were working on a 
draft, they were unsure when it would be completed.
    To address this reporting gap, we recommended that the National 
Security Council, in collaboration with relevant agencies as 
appropriate, complete the requirements of the NDAA of fiscal year 2010 
to report to Congress on a list of U.S. efforts related to the denial 
of terrorist safe havens.\11\ The National Security Council reviewed 
our report but provided no comments on the recommendation.
---------------------------------------------------------------------------
    \11\ GAO-11-561.
---------------------------------------------------------------------------
    Chairman McCaul, Ranking Member Keating, and Members of the 
subcommittee, this completes my prepared statement. I would be happy to 
respond to any questions you or other Members of the subcommittee may 
have at this time.

    Mr. McCaul. Thank you so much for your testimony.
    I have been informed we just have one vote, so I would ask 
that we take a very short break, go make our one vote, and then 
come right back to the hearing. I appreciate your patience.
    [Recess.]
    Mr. McCaul. The committee will come to order.
    I appreciate the patience from the witnesses and everybody 
in the room. Hopefully, we can now finish the hearing before 
the next series of votes.
    With that, Mr. Koumans, you are recognized for 5 minutes.

    STATEMENT OF MARK KOUMANS, DEPUTY ASSISTANT SECRETARY, 
  INTERNATIONAL AFFAIRS, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Koumans. Good morning, Chairman McCaul, Ranking Member, 
and distinguished Members of the subcommittee. Thank you for 
the opportunity to testify on the Department of Homeland 
Security's role in support of U.S. efforts to address terrorist 
safe havens.
    Protecting the United States from terrorism is the 
cornerstone of homeland security, and denying terrorists safe 
havens is one of the best ways to undermine their capacity to 
operate.
    The State Department defines terrorist safe havens as 
ungoverned, under-governed, or ill-governed areas where 
terrorists that threaten national security are able to 
organize, plan, raise funds, communicate, recruit, and train 
because of inadequate governance, political will, or both.
    Let me first clarify that DHS is concerned about threats 
from terrorists, foreign or domestic, whether or not they come 
from safe havens. DHS bases its actions, for example, in 
deciding who should be allowed entry into the United States on 
the experience of our officers in the field and the best 
available intelligence. We take the source and transit 
countries for terrorist movements into account when making our 
screening decisions and in the other work we do, but DHS does 
not base those decisions on whether a particular area is 
designated a safe haven.
    To address the problem of safe havens, to prevent threats, 
and to reduce risks, DHS works closely with the Departments of 
State and Defense and other departments and agencies to protect 
the homeland from terrorist attack and to deny terrorists the 
ability to travel and finance their activities.
    One important way the DHS conducts these efforts is to 
strengthen the capabilities of foreign partners. We believe 
that these efforts make partner countries stronger and make 
them and the United States more secure by improving governance 
and economic opportunity, fighting criminality, and supporting 
the rule of law and so decreasing the likelihood of safe 
havens.
    DHS carries out many programs around the world to provide 
training and technical assistance to strengthen our partners' 
ability to confront terrorists. DHS is generally not authorized 
to use its appropriated funds for foreign capacity building 
purposes. Therefore, when our interests and priorities overlap, 
DHS works with the U.S. agencies that hold the authority to 
fund such foreign assistance. These cooperative efforts to work 
with our international partners do not hinge exclusively on 
whether a particular area is a terrorist safe haven but instead 
are based on where our assistance can help build the partner's 
capacity to increase security, fight transnational crime, and 
combat terrorism.
    For example, in Afghanistan, DHS has led efforts that have 
significantly improved the ability of the Afghan government to 
control its borders, increase customs revenue collection, and 
facilitate legal trade, while increasingly preventing the 
movement of illegal goods, including the components for 
improvised explosive devices. This effort is based on previous 
border security efforts DHS carried out in Iraq, efforts 
Defense Department officials had supported and encouraged DHS 
to carry out in Afghanistan.
    Our work has included mentoring Afghan border and customs 
officials at border posts, tackling bulk cash smuggling through 
Kabul International Airport, and establishing a training 
academy for Afghan customs officials.
    To cite another example, following the attempted terrorist 
attacks last October after two printers rigged with explosives 
were found, TSA deployed a team to Yemen to assess air cargo 
security programs. Subsequently, TSA trained Yemeni officials 
to mitigate threats to air cargo security in Yemen.
    Also, this April, ICE and CBP provided training in Pakistan 
to counter bulk cash smuggling and identify homemade 
explosives. We trained more than 50 officers from four 
different Pakistani border control agencies, including the 
Federal Investigative Agency, Customs Force, and Airport 
Security Force.
    At the same time, DHS is strengthening coordination among 
its many components and offices operating internationally. DHS 
has established its first international strategy and is 
consolidating information about all DHS training and technical 
assistance activities worldwide, in part to ensure that our 
activities are closely aligned with our priorities. These 
advances will help us work more effectively with the 
Departments of State and Defense.
    Chairman McCaul, Ranking Member Clarke, and distinguished 
Members of the subcommittee, I look forward to working with you 
as we explore opportunities to advance our efforts and our 
cooperation with international partners to deny terrorists safe 
haven.
    Thank you again for the opportunity to testify. I have 
provided a more complete written testimony. I look forward to 
your questions.
    [The statement of Mr. Koumans follows:]
                   Prepared Statement of Mark Koumans
                              June 3, 2011
    Good Morning, Chairman McCaul, Ranking Member Keating and 
distinguished Members of the subcommittee. Thank you for the 
opportunity to testify on the Department of Homeland Security's (DHS) 
role in support of the U.S. Government's efforts to address the problem 
of terrorist safe havens. Terrorists operate without regard to national 
boundaries. Protecting the United States and its people from terrorism 
is the cornerstone of homeland security, and denying terrorists' safe 
haven is one of the best ways to undermine their capacity to operate 
effectively.
    As set forth in the Homeland Security Act of 2002, preventing 
terrorist attacks against the United States and enhancing our Nation's 
security have been and continue to be two of DHS's most important 
objectives. The Department's first Quadrennial Homeland Security Review 
(QHSR), released on February 1, 2010, reiterates that preventing 
terrorist attacks in the United States is the first of five primary 
missions for the homeland security enterprise. DHS also integrates 
preventing terrorism into the four other missions of the homeland 
security enterprise--securing and managing our borders, enforcing and 
administering our customs and immigration laws, safeguarding and 
securing cyberspace, and ensuring resilience to disasters of all kinds.
    The State Department defines terrorist safe havens as ungoverned, 
under-governed, or ill-governed areas of a country where terrorists 
that constitute a threat to U.S. National security interests are able 
to organize, plan, raise funds, communicate, recruit, train, and 
operate in relative security because of inadequate governance capacity, 
political will, or both. Safe havens provide security for terrorist 
leaders, allowing them to plan acts of terrorism around the world.
    The Intelligence Reform and Terrorism Prevention Act (IRTPA) of 
2004 requires the State Department (DOS) to include in its annual 
Country Reports on Terrorism the identification of terrorist safe 
havens. Further, the 2004 IRTPA and the National Defense Authorization 
Act (NDAA) for fiscal year 2010 requests that the President submit 
reports identifying U.S. efforts to deny terrorist safe havens. DOS 
identifies terrorist safe havens in its Country Reports on Terrorism, 
and in its most recent report, issued in August 2010, DOS identified 13 
terrorist safe havens.
    To prevent threats and reduce risk, DHS works closely with DOS and 
other departments and agencies to protect the homeland and U.S. 
citizens from terrorist attacks, to deny terrorists the ability to 
travel, to deny them the ability to finance their activities, and to 
deny them access to areas of the world where they can plot and train 
for their attacks.
    DHS directly supports these efforts--funded by DOS or other 
Government departments--to strengthen the capacity of foreign 
governments to deny terrorists safe haven.
     how dhs counterterrorism efforts affect terrorist safe havens
    DHS is concerned about threats from terrorists, foreign or 
domestic, whether they come from safe havens or not. DHS bases its 
actions--for example in deciding who should be allowed entry to the 
United States--on the experience of our officers in the field and on 
the best available intelligence collected throughout the U.S. 
Government. We take the source and transit countries for terrorist 
movements into account when making our screening decisions and in all 
the other work we do. DHS also does its part to support the work of 
other departments and agencies that are more directly focused in 
disrupting terrorist safe havens. While we base our screening decisions 
on intelligence and other factors, DHS does not base screening 
decisions on whether a particular area is designated a safe haven or 
not.
    DHS carries out significant programs around the world to provide 
training and technical assistance to build the capacity of foreign 
governments to confront terrorists and strengthen our own security. DHS 
generally is not authorized to use its appropriated funds for foreign 
capacity-building purposes;\1\ therefore, when our interests and 
priorities overlap, DHS works with the U.S. agencies that hold 
authority to fund foreign assistance, including capacity-building 
efforts. These cooperative efforts to work with our international 
partners, and often to provide training and technical assistance, do 
not hinge on whether a particular area is a terrorist safe haven, but 
instead are based on where our assistance can help build a partner's 
capacity to combat terrorism. Below are several of these key technical 
assistance programs.
---------------------------------------------------------------------------
    \1\ There are exceptions for training and the sharing of best 
practices by TSA in locations that have non-stop flights to the United 
States.
---------------------------------------------------------------------------
    cross-border financial investigations/money laundering training
    DHS's U.S. Customs and Border Protection (CBP) and U.S. Immigration 
and Customs Enforcement (ICE) conduct training on enforcement efforts 
and interdiction of bulk cash smuggling, which includes cash courier 
interdiction training for various nations. The training, conducted in 
partnership with the Department of State, encourages countries' efforts 
to comply with international standards, such as those established by 
the Financial Action Task Force (FATF). Training is scheduled based on 
a number of factors, including the status of the country's financial 
reporting laws, available resources, political will to enforce the laws 
and the current security situation. The training includes such topics 
as the host country's money laundering reporting requirements and laws, 
currency smuggling techniques, interviewing, source development, red 
flag indicators of currency smuggling, conducting investigations, and 
evidence processing.
    ICE Homeland Security Investigations (HSI), coordinated and funded 
by the State Department, routinely conducts cross-border financial 
investigations and money laundering enforcement training for key 
foreign partner nations. HSI's training provides participating 
countries with the capability to effectively implement relevant FATF 40 
Recommendations and Nine Special Recommendations (which provide the 
international standards for combating money-laundering and terrorism 
financing), with special emphasis on R8 (New Technologies), R17 
(Dissuasive Actions), R26-R32 (Competent Authorities), SR V 
(International Cooperation), SR VI (Alternative Remittance), and SR IX 
(Cash Couriers). These recommendations were developed to ensure that 
terrorist and other criminal organizations cannot easily finance their 
activities or launder the proceeds of their crimes simply by leaving 
one jurisdiction and seeking refuge in another.
    The HSI-led training and technical assistance workshops cover a 
range of topics, including money laundering, movement and smuggling of 
bulk currency, money service businesses, informal value transfer 
systems, trade-based money laundering, cross-border fraud, 
investigative techniques, kleptocracy, and asset forfeiture. The 
training includes practical exercises that exhibit how terrorist and/or 
criminal organizations collect, store, and move funds. Here are a few 
examples of training and technical assistance activities designed to 
address terrorist safe havens, as identified in the State Department's 
2010 report:
  <bullet> Over the last 6 years, HSI has conducted cross-border 
        financial investigations training in:
    <bullet> Afghanistan;
    <bullet> The Philippines;
    <bullet> Indonesia;
    <bullet> Malaysia;
    <bullet> Pakistan;
    <bullet> Algeria;
    <bullet> Mali;
    <bullet> Mauritania;
    <bullet> Iraq;
    <bullet> Argentina;
    <bullet> Brazil;
    <bullet> Paraguay.
  <bullet> ICE Attache Sana'a has provided training to counter bulk 
        cash smuggling and money laundering to Yemen's Ministry of 
        Interior (MOI) and Financial Information Unit officials.
  <bullet> ICE Attache Casablanca has regional responsibility for 
        Algeria, and provided training in Algeria on bulk cash 
        smuggling investigations and interdiction in August 2010.
  <bullet> In April 2011, ICE Attache Islamabad and CBP provided bulk 
        cash smuggling and the identification of homemade explosives 
        and bulk explosives training to 53 officers from the following 
        four Pakistan border control agencies: Federal Investigation 
        Agency, Federal Board of Revenue (FBR) Customs, FBR Customs 
        Intelligence and Investigations, and the Airport Security 
        Force.
                     fraudulent document detection
    In February 2011, ICE special agents and CBP officers shared best 
practices and techniques with their Afghan counterparts on detecting 
forged documents used by individuals and criminal organizations seeking 
to circumvent the established immigration process in Kabul, Afghanistan 
at Kabul International Airport. CBP currently has a fraudulent document 
expert detailed to Iraq, where he is providing on-going passport 
examination training to Iraqi immigration officers and police 
investigators to enhance their fraudulent document detection skills.
               export enforcement investigations and wmd
    The Export Control and Related Border Security Program (EXBS) 
program is funded through agreements with DOS. CBP and ICE are 
responsible for training foreign law enforcement counterpart agencies 
in other countries, chiefly customs and border guard officials. Foreign 
officials are taught to investigate, conduct surveillance, detect, 
enforce transfer and control laws, and interdict unauthorized transfers 
of items and technology, including dual-use technologies, which are 
covered by control lists of the multilateral nonproliferation regimes 
and arrangements. Items that may contribute to a weapon of mass 
destruction or missile program are also included.
    CBP has recently conducted or will soon conduct EXBS-funded border 
control and enforcement training for Afghanistan, Iraq, Lebanon, 
Pakistan, and Yemen.
            border, customs, and immigration police training
    CBP builds capacity to implement more effective customs operations, 
border policing, and immigration inspections through relevant training 
programs including: Border Patrol Primary, Border Patrol Checkpoint, 
Weapons of Mass Destruction, Anti-Narcotics, and Border Enforcement; as 
well as targeting and risk management seminars and short- and long-term 
advisory assistance.
    In addition to the border control and enforcement training that is 
provided directly to a number of the countries identified as safe 
havens, CBP also provides this training to neighboring countries not 
designated as safe havens to increase their capability, including: 
Kenya, Kuwait, Oman, Saudi Arabia, and Turkey. This demonstrates how 
DHS employs a number of criteria to determine which countries would 
benefit from the kinds of technical assistance we can offer to help 
disrupt terrorist groups that threaten the United States and U.S. 
interests.
    In support of the World Customs Organization's Program Global 
Shield, representatives from ICE and CBP are working with the Afghan 
Ministry of the Interior (MOI) and Customs Department (ACD) to train 
and equip border police to detect improvised explosive devices and drug 
precursors. In addition, ICE Kabul is providing training in 
investigative techniques and intelligence gathering to further exploit 
illicit shipments of precursor chemicals.
    ICE introduced the Kabul International Airport Action Plan (KIAAP) 
in response to U.S. Embassy interest in enhancing the capacity of the 
ACD, Afghan Border Police and MOI officials to increase revenue 
collection and security at Kabul International Airport (KBL). KIAAP 
focuses on capacity building while simultaneously allowing ICE access 
to KBL, which is believed to be the conduit for much of the bulk cash 
smuggling. The April 2011 approval of the Bulk Cash Flow (BCF) Action 
Plan at KBL will be the centerpiece for the successful implementation 
of KIAAP, which will improve security and revenue collection. ICE 
Attache Kabul, in conjunction with other law enforcement components, 
was instrumental in drafting the BCF Action Plan. ICE Attache Kabul 
personnel have also completed formal document fraud and bulk cash 
smuggling training for KBL Customs officers.
    In June 2011, ICE and CBP, with funding provided by the Department 
of Defense, are providing counternarcotics training tailored to the 
needs of Afghan law enforcement agencies with counternarcotics 
responsibilities. This training will highlight Program Global Shield 
initiatives, and is designed to improve Afghan and U.S. capacity to 
track shipping routes and compile and share targeting information about 
legal shipments. There will be two 1-week courses provided to students 
from the ACD, Afghan Customs Police, Border Police, and Counter 
Narcotics Police.
    In July 2011, ICE Attache Casablanca plans to provide training in 
Algeria focusing on inspectional techniques and methodologies providing 
foreign counterparts the skills and knowledge necessary to carry out 
the effective inspection, detection and interdiction of contraband and/
or illegal aliens.
           biometric data collection and information sharing
    DHS's US-VISIT and Science and Technology Directorate together 
build and leverage international partnerships to develop and promote 
the use of biometrics using standards that allow for interoperability 
with other countries' border and immigration biometric systems in order 
to share actionable data. This sharing reinforces the security and 
integrity of immigration and international travel between the United 
States and our key international partners.
    One of US-VISIT's notable projects is the Five Country Conference 
(FCC) High Value Data Sharing Protocol (HVDSP). The HVDSP allows for 
biometrically-based information sharing between the United States and 
the four other FCC member countries: Australia, Canada, New Zealand, 
and the United Kingdom. Separate bilateral memoranda of understanding 
were developed between the partner countries to facilitate the matching 
of immigration and nationality cases against each other's biometric 
databases, and to exchange relevant information on cases where 
biometric matches are made. All participating countries are using this 
biometric information exchange to aid immigration decisions. There have 
been cases where immigration or law enforcement officials of 
participating countries have received new case information or taken 
direct action as a result of sharing this biometric information. All 
information exchanges are undertaken in full compliance with all U.S. 
laws and regulations related to privacy and civil liberties.
    In 2008, the United States began signing Preventing and Combating 
Serious Crime (PCSC) agreements primarily with countries that 
participate in the Visa Waiver Program (VWP). The agreements--which in 
part satisfy a statutory information-sharing requirement to obtain or 
maintain VWP designation--formalize the sharing of biometric and 
biographic data for the purposes of preventing and combating serious 
crime and terrorism. US-VISIT is currently working with the Federal 
Bureau of Investigation's Criminal Justice Information Services 
Division to begin implementing PCSC agreements with Germany and Spain.
               maritime security and seaport interdiction
    The U.S. Coast Guard (USCG) assists partner nations in the 
development of maritime security. USCG advocates Global Maritime Domain 
Awareness as the foundation of these efforts, to enable collective 
protection of the region's maritime transportation system. USCG also 
assesses the effectiveness of anti-terrorism measures in foreign ports 
using a country's implementation of the International Ship and Port 
Facility Security (ISPS) Code as a benchmark. The USCG shares the 
results of its findings with other Federal agencies, including DOS. In 
the countries where port security is inadequate, the USCG imposes 
conditions of entry, including additional security measures, on vessels 
arriving to the United States from those countries. Conditions of entry 
are currently imposed on 16 countries. Among the USCG's most important 
capacity-building activities is the International Port Security Program 
country visit, where they work collaboratively with foreign partners to 
fully implement the ISPS Code and related requirements in their ports 
and waterways. The USCG also works Asia Pacific Economic Cooperation 
Forum and the Organization of American States in the development and 
execution of capacity-building activities in Asia and the Americas, 
respectively.
    In another example of maritime cooperation, the CBP National Marine 
Training Center is planning to conduct Maritime Law Enforcement Officer 
training for the Ecuadorian Navy during late summer 2011. Ecuador is a 
neighbor of Colombia, which has been identified as a safe haven 
country.
    USCG international training partners include Indonesia, Pakistan, 
the Philippines, and Yemen. USCG engagement in Yemen dates back to 
2002, and the creation of the Yemeni Coast Guard was under the guidance 
of the USCG. Several maritime capacity-building initiatives are planned 
for Yemen pending the resolution of the current political crisis and an 
improvement in the internal security situation. In 2011, the USCG has 
facilitated the delivery of two new coastal patrol boats to Yemen, one 
legacy high endurance cutter to the Philippines, and another high 
endurance cutter to Nigeria. Once in service, these vessels will 
substantially increase the maritime law enforcement capabilities of 
these nations.
                        civil aviation security
    The Transportation Security Administration (TSA) supports the 
efforts of other governments to prevent their territories from being 
used by terrorists, organized crime groups, or others who pose a threat 
to U.S. security by assisting with the development of transportation 
security systems, programs, and facilities. Specific assistance 
includes technical and managerial expertise to assist with developing, 
improving, and operating the civilian aviation security infrastructure, 
standards, procedures, policies, training, and equipment. The tools TSA 
uses to provide this assistance include tailored training, personnel 
exchanges, information sharing, and lessons learned/best practices. TSA 
works closely with its foreign government counterparts in these 
locations to determine the exact tools used to meet the needs of the 
host government.
    TSA's authority for assessing security standards at foreign 
airports is codified in 49 USC 44907. Specifically, the TSA shall 
conduct an assessment of each foreign airport that serves as a last 
point of departure to the United States. TSA uses the standards and 
recommended practices contained in Annex 17 to the Convention on 
International Civil Aviation as the baseline for these security 
assessments. Additionally, TSA has the authority to conduct aircraft 
operator inspections of both U.S. Aircraft Operators and Foreign Air 
Carriers at foreign locations that serve as the last point of departure 
to the United States. This authority is codified in 49 CFR 1544.3 and 
49 CFR 1546.3 respectively. Further, the authorities vested to TSA by 
the Aviation and Transportation Security Act of 2001 (Pub. L. 107-71, 
115 Stat. 587 (2001)), include the authority to issue, rescind, and 
revise TSA regulations, orders, and Security Directives/Emergency 
Authorities that affect both domestic and foreign transportation 
providers, and to enforce these authorities through civil penalties and 
denials of authorization to operate in U.S. transportation venues.
    In fiscal year 2010, 45 TSA assistance and training sessions were 
provided to 28 countries. In fiscal year 2011, TSA is scheduled to 
provide 51 sessions in 35 countries. For example, following the 
attempted terrorist attacks on cargo operations this past October, TSA 
immediately deployed a team to Yemen to assess cargo security programs. 
Subsequently, TSA provided training to mitigate threats to the cargo 
security network emanating from Yemen. TSA also works closely with the 
International Civil Aviation Organization and other foreign partners to 
eliminate duplicative efforts by coordinating training given by various 
countries to nations in need of technical assistance.
    In addition, CBP's Carrier Liaison Program (CLP) enhances border 
security by increasing commercial carrier effectiveness in identifying 
improperly documented passengers destined to the United States. In 
2010, CLP provided training to carrier and airport security personnel 
in Argentina, Venezuela, and Brazil on fraudulent document 
identification, passenger assessment, impostor identification, and 
travel document verification.
                    reconstruction and stabilization
    National Security Presidential Directive 44 on Reconstruction and 
Stabilization tasks DOS with coordinating a unified, whole-of-
government approach to help fragile and failing foreign governments 
exercise sovereignty over their own territories and prevent those 
territories from being used as a base of operations or safe haven for 
extremists, terrorists, organized crime groups, or others who pose a 
threat to U.S. security, foreign policy, or economic interests.
    Under this initiative, DHS participates by training and deploying 
ICE special agents and CBP officers to Afghanistan and other locations 
worldwide to help nations secure their borders and disrupt illicit 
travel and trade.
    In Afghanistan, CBP's primary mission is to oversee the Border 
Management Task Force (BMTF), a mixed civilian and military task force 
whose primary goal is to assist the Afghan government by providing 
subject matter expertise relating to customs and border operations. The 
BMTF initiatives are a critical part of U.S. efforts to assist the 
Afghan government to gain control over its borders, defeat the 
insurgency by attacking links to narco-trafficking, and promote 
economic growth and stability.
                          iraq and afghanistan
    Following the outbreak of war in Iraq in 2003, the Department of 
Defense requested CBP assistance in developing Iraq's border control 
agencies. In 2004-2005, CBP teams trained more than 3,700 Iraqi border 
officers in the areas of border patrol and customs and immigration 
operations at the Jordanian International Police Training Center 
outside Amman, Jordan. Since January 2005, CBP has deployed personnel 
to Iraq to provide training and advisory assistance to Iraqi border 
control officials. More recently, DHS personnel provided advanced 
mentoring in Baghdad to senior Iraqi border control officials with the 
Department of Border Enforcement and the Port of Entry Directorate 
within the Ministry of Interior.
    DHS efforts have helped strengthen the capacity of the Iraqi 
government to control its borders. While there is more to do, the Iraqi 
Ministry of Interior directorates dealing with Border Enforcement and 
Ports of Entry have improved their capabilities from what they were 
only a few years ago.
    The current Department of Defense-funded CBP assistance project in 
Iraq will terminate at the end of fiscal year 2011. Following 
negotiations between the State Department and DHS to determine the 
appropriate level of future support, DHS has committed to provide an 8-
person advisory team to support the U.S. mission in Iraq beginning in 
fiscal year 2012. Funding for the CBP presence in Iraq will be provided 
by State Department Bureau of International Narcotics and Law 
Enforcement Affairs.
    In Afghanistan, DHS efforts have significantly improved the ability 
of the Afghan government to control its borders, increase customs 
revenue collection, and facilitate legal trade, while increasingly 
preventing the movement of illegal goods, including components for 
improvised explosive devices.
    For example:
  <bullet> Working together, ICE and CBP personnel have been successful 
        in facilitating numerous changes at Kabul International Airport 
        to enhance security. Terminal controls of employees, 
        passengers, cargo, baggage, and currency have been implemented 
        in fiscal year 2011.
  <bullet> CBP officials assisted in the development of the Afghan 
        Customs Academy. The ACD and BMTF will collaborate to expand 
        the Academy, which graduated its first class of 48 in March 
        2010. The Afghan government and CBP have also broken ground on 
        a new Afghan Customs Academy in Kabul.
  <bullet> In December 2010, ICE officials established the Afghan 
        Vetted Investigative Unit, composed of 12 investigators from 
        the Afghanistan MOI Criminal Investigations Division.
  <bullet> CBP officials are assisting the Afghan government with 
        infrastructure improvements at a number of border locations, as 
        well as four international airports, which include baggage and 
        cargo scanners in addition to life support facilities for 
        civilian contract mentors and Afghan government border 
        officials.
  <bullet> CBP officials continue to provide training and mentorship to 
        the Ministry of Finance (Customs Officials), Ministry of 
        Interior (Afghan Border Police), and Afghan National Security 
        Directorate on the use of ammonium nitrate detection kits.
  <bullet> CBP officials continue to provide training and mentorship to 
        Afghan Airport Authorities on cargo/passenger enforcement 
        operations, and assist the Airport Interdiction Task Force with 
        bulk cash/capital flight operations at Kabul International 
        Airport.
  <bullet> CBP officials continue to assist senior Ministry of Finance 
        and Ministry of Interior officials in the crafting of a unified 
        Afghan national border strategy.
  <bullet> By the end of fiscal year 2011, CBP will increase its 
        presence in Afghanistan to a total of 11 permanent CBP 
        representatives utilizing DOS funding.
  <bullet> The BMTF will expand the border/customs mentoring program to 
        more than 50 contract mentors by the end of fiscal year 2011. 
        CBP representatives will manage and oversee the continued 
        operation and deployment of BMTF civilian contract mentors at 
        various border crossing points, inland customs depots and 
        international airports.
  <bullet> By the end of fiscal year 2011, CBP representatives will 
        identify requirements and oversee infrastructure improvements 
        to 14 Afghan border crossing points.
                               conclusion
    DHS is continuing to strengthen coordination and cooperation across 
all of its relevant components involved in the activities described 
above. For example, efforts to establish agreed-upon international 
priorities across all of DHS in key thematic engagement areas are well 
advanced. At the same time, significant achievements have been made in 
creating a departmental information-sharing architecture to consolidate 
information about all DHS training and technical assistance activities 
worldwide. We are now working to assemble this information and ensure 
that DHS activities are closely aligned with our priorities. These 
advances will allow us to work more effectively with those who help 
fund our efforts, mainly the State and Defense Departments.
    At the same time, we are also strengthening our outreach to DOS and 
to embassies around the world, with more frequent and robust 
interaction and information-sharing efforts to expand our partners' 
understanding of the tools and capabilities that DHS brings to the 
fight against terrorism. We are increasingly seeing the fruits of these 
efforts as our programs are sought out by other departments and by 
international partners.
    Chairman McCaul, Ranking Member Keating, and distinguished Members 
of the subcommittee, I look forward to working with you as we explore 
opportunities to advance our efforts and our cooperation with 
international partners to deny safe haven to terrorists. Thank you 
again for the opportunity to testify. I am happy to answer any 
questions.

    Mr. McCaul. All right. Thank you for the testimony.
    The Chairman now recognizes Ms. Villarosa for 5 minutes.

 STATEMENT OF SHARI VILLAROSA, DEPUTY COORDINATOR FOR REGIONAL 
               AFFAIRS, U.S. DEPARTMENT OF STATE

    Ms. Villarosa. Chairman McCaul, Ranking Member Clarke, and 
distinguished Members of the committee, thank you for the 
opportunity to discuss State Department's efforts, in 
coordination with our other agency partners, to eliminate 
terrorist safe havens.
    Our ultimate success against terrorism depends on 
eliminating these safe havens which have generally developed in 
remote areas where there is little to no effective governance, 
frequently in border regions. This requires a whole-of-
government effort and a strategic approach to address both the 
immediate security needs while building long-term governance 
and rule of law, including the capacity to counter violent 
extremism, to reduce terrorist recruitment, and delegitimize 
violence in those virtual safe havens.
    In order for our strategy to be effective, we must develop 
regional approaches with the neighboring countries to shrink 
the space in which terrorists can operate. We build this 
regional cooperation by bringing our ambassadors together with 
senior interagency officials to devise collaborative strategies 
and action plans.
    State works with Defense to build the capacity of military 
and civilian law enforcement officials. State works with 
Homeland Security to tighten border security. State works with 
Treasury to restrict the flow of funds in and out of terrorist 
safe havens. State works with Justice and FBI to improve 
investigative and prosecutorial capacity so countries can build 
effective criminal cases against terrorists. State works with 
USAID to improve governance by establishing the rule of law, 
assisting with the provision of basic services such as health 
and education, and promoting peaceful conflict resolution.
    We have achieved success with this approach. Jemaah 
Islamiya can no longer travel freely between Indonesia and the 
Philippines due to improved maritime surveillance procedures, 
Indonesia's success in prosecuting terrorists, and greater 
Philippine government control over territory formerly used by 
JI for its training camps.
    In the Trans-Sahara, the countries have a political will to 
fight terrorism but lack the capacity and have welcomed our 
assistance to build capacity and to counter violent extremists. 
The countries of the region, with our assistance, have begun to 
work together to take action against the al-Qaeda affiliates 
operating in their territories.
    The committee has asked us to address three of the toughest 
challenges we still face: Pakistan, Yemen, and Somalia. Our 
complex relationship with Pakistan is well known. It is also 
important to remember that, as a result of our cooperation, we 
have been able to strike major blows against al-Qaeda's ability 
to seek safe haven in Pakistan. The challenge remains to make 
these advances durable and sustainable.
    We are assisting the Pakistanis with delivery of basic 
services and improved governance in the federally administered 
tribal areas bordering Afghanistan. We will continue to press 
Pakistan for increased action against terrorist groups 
operating within its borders, but we must also continue to help 
Pakistan help itself to eliminate terrorist safe havens.
    Al-Qaeda in the Arabian Peninsula, operating out of Yemen, 
has tried multiple times to attack us. We had some success in 
2009 and 2010 with our strategy. We worked with the Yemenis to 
take action against imminent threats, and we also helped the 
Yemeni government deliver basic services and security to its 
people. We are hopeful that future Yemeni leaders will be solid 
counterterrorism partners once the political situation there is 
resolved.
    Somalia has not had a functioning central government for 20 
years. The main terrorist group, al-Shabaab, has links with al-
Qaeda and conducted a major attack outside of Somalia last 
July, killing 76 people in Uganda. An offense launched earlier 
this year by Somalian partner nation forces has reduced al-
Shabaab's territorial control and caused defections from al-
Shabaab. Clearly, more needs to be done to consolidate 
political control over the newly liberated areas.
    We have also begun a more incentive outreach to the Somali 
diaspora and civil society to foster peaceful reconciliation.
    In conclusion, our threat is formidable, but we are making 
progress. Our strategic approach of capacity building, 
countering violent extremism, and broader regional cooperation 
provides us with the tools to make lasting progress.
    Thank you very much, and I welcome your questions.
    [The statement of Ms. Villarosa follows:]
                 Prepared Statement of Shari Villarosa
    Chairman McCaul, Ranking Member Keating, and distinguished Members 
of the committee: Thank you for the opportunity to appear before this 
committee today. Denying terrorists safe haven plays a major role in 
undermining terrorists' capacity to operate effectively and forms a key 
element of what we're doing in the State Department on 
counterterrorism. Terrorists operate without regard to national 
boundaries. Safe havens allow terrorists to recruit, organize, plan, 
train, and claim turf as a symbol of legitimacy. Physical safe havens 
usually straddle national borders or exist in regions where ineffective 
governance allows their presence. Examples include the Pakistan/
Afghanistan border, Yemen, the Trans-Sahara region, and Somalia.
    To effectively counter safe havens, we increasingly operate in a 
regional context with the goal of shrinking the space in which 
terrorists operate. Through the Regional Strategic Initiative, we seek 
to build regional cooperation to constrain terrorist activities. Under 
Chief-of-Mission authority, we bring Embassy officials, Military, Law 
Enforcement, and Intelligence agencies together to collectively assess 
the threats, pool resources, and devise collaborative strategies and 
action plans. We have established nine RSIs covering South East Asia, 
Iraq and its neighbors, the Eastern Mediterranean, the Western 
Mediterranean, East Africa, the Trans-Sahara, South Asia, Central Asia, 
and Latin America.
    I'd like to note that there are examples of success against 
terrorist safe havens, particularly in Southeast Asia where we formed 
our first RSI. Terrorists traveled freely among the nations of the 
region by sea. So, through the U.S. military and Coast Guard we worked 
with the nations of the region to improve maritime security first in 
the Straits of Malacca, then in the Sulu Sea terrorist safe haven area. 
With combined U.S. military and development assistance, the Government 
of the Philippines now has increasing control of the island of Basilan 
and is beginning to create stability on the island of Jolo. Both areas 
are exploited by Indonesia-based terrorist group Jemaah Islamiya and 
the Philippines-based Abu Sayyaf Group.
    Improved law enforcement and criminal justice also works to shrink 
safe havens as we have seen in Indonesia. After the 2002 Bali bombings, 
Indonesia enacted new anti-terrorism laws and established a special 
police force working together with trained prosecutors. As a result, 
the police have successfully disrupted operations, such as the Aceh 
terrorist training camp in February 2010, captured terrorists, 
collected intelligence, and arrested additional suspects based on that 
intelligence. Since 2003, over 500 JI operatives have been captured. 
Since its formation in September 2006, the special prosecutor task 
force has conducted 166 prosecutions, secured 133 verdicts, including 
those responsible for the 2009 Jakarta hotel bombings, and is currently 
prosecuting 36 defendants with additional cases being prepared for 
prosecution. We also embarked on a program with the Government of 
Indonesia to diversify the curriculum of religious schools, with math 
and science, so children would develop the skills needed in a global 
economy.
                       key terrorist safe havens
    The State Department defines terrorist safe havens as ungoverned, 
under-governed, or ill-governed physical areas where terrorists are 
able to organize, plan, raise funds, communicate, recruit, train, 
transit, and operate in relative security because of inadequate 
governance capacity, political will, or both. This definition includes 
consideration of both political will and the capacity of host 
countries.
Pakistan/Afghanistan
    I'll begin our discussion of terrorist safe havens with the 
Afghanistan/Pakistan border. Al-Qaeda cannot be allowed to maintain its 
safe haven and to continue plotting attacks. After he took office, 
President Obama launched a thorough review of our policy and set out a 
clear goal: To disrupt, dismantle, and defeat AQ, and prevent it from 
threatening America and our allies in the future. In pursuit of this 
goal, the USG is following a strategy with three mutually reinforcing 
tracks--three surges: A military offensive against AQ terrorists and 
Taliban insurgents in Afghanistan; a civilian campaign to bolster the 
governments, economies, and civil societies of Afghanistan and Pakistan 
to undercut the pull of the insurgency; and an intensified diplomatic 
push to bring the Afghan conflict to an end, and a more secure future 
for the region.
    Since 2009, we have worked with the Government of Pakistan and its 
people at all levels. Secretary Clinton was there in late May. Pakistan 
has been a victim of terrorism many times in the last few years. At the 
same time, we are looking forward to Pakistan launching its own inquiry 
as to how Osama bin Ladin was able to live in Abbottabad for more than 
5 years.
    We are working closely with the Government of Pakistan on a range 
of counterterrorism-related capacity building projects. These include 
numerous training courses for Pakistani police, which are administered 
by the State Department's Diplomatic Security bureau. Our Bureau of 
International Narcotics and Law Enforcement also works closely on 
border security and other law-enforcement matters. It routinely 
provides Pakistani security and police forces with equipment to counter 
extremism. And it is truly a whole-of-government effort. For example, 
the FBI and Department of Justice work with their Pakistani 
counterparts on investigatory, prosecutorial, and training matters. 
Treasury and DHS are also interacting with Pakistan on several 
important matters relating to terrorism finance and improvised 
explosive devises, respectively. Through USAID we are assisting the 
Pakistanis with delivery of basic services and improved governance in 
the Federally Administered Tribal Areas. Even as we've endured serious 
challenges to the relationship, some of which continue to make 
headlines, we've continued civilian and military assistance throughout 
the country and solidified our cooperation.
    It is no secret that we have not always seen eye-to-eye with 
Pakistan on how to deal with its terrorist threats or on the future of 
Afghanistan. But as a result of U.S. and Pakistan counterterrorism 
cooperation and Pakistani military operations aimed at eliminating 
militant strongholds in the FATA, the AQ core has had significant 
leadership losses--including the recent demise of Osama bin Laden and 
is finding it more difficult to raise money, train recruits, and plan 
attacks outside of the region. Although the AQ core is clearly weaker, 
it retains the capability to conduct regional and transnational 
attacks. In addition, AQ has forged closer ties with other militant 
groups in the region--for example Tehrik-e Taliban Pakistan and the 
Haqqani Network providing the group with additional capabilities to 
draw on.
    While Pakistan is making some progress on the counterterrorism 
front, specifically against TTP, the challenge remains to make these 
gains durable and sustainable. To this end, Pakistan must sustain its 
efforts to deny AQ safe haven in the tribal areas of western Pakistan. 
And we must continue to press Pakistan for increased action against 
Lashkar-e-Tayyiba and terrorist groups that undermine the security of 
Pakistan, the region, and beyond. Secretary Clinton just concluded a 
trip to Islamabad and discussed in great detail our cooperation with 
Pakistan to disrupt, dismantle, and defeat AQ, and to drive them from 
Pakistan and the region. We will do our part and we look to the 
Government of Pakistan to take decisive steps in the days ahead. Joint 
action against AQ and its affiliates will make Pakistan, America, and 
the world safer and more secure.
Yemen
    While the AQ core has weakened operationally, the affiliates have 
become stronger. Consequently, the broader AQ threat has become more 
geographically diversified. At the top of the affiliates list is al-
Qaeda in the Arabian Peninsula, based in Yemen. It continues to 
demonstrate its growing ambitions and strong desire to carry out 
attacks outside of its region. AQAP is the first of the AQ affiliates 
to make attacks against the United States homeland a central goal. As 
you know, the group made its debut in this regard with its December 25, 
2009 attempt to destroy an airliner bound for Detroit. Then, in October 
2010 it sought to blow up several U.S.-bound airplanes by shipping 
bombs that were intended to detonate while in the planes' cargo holds. 
As those efforts and AQAP's failed attempt in August 2009 on the life 
of Saudi Arabia's Assistant deputy interior for security affairs 
minister demonstrated, the group is trying to evade existing detection 
capabilities.
    Obviously, we are talking here about a country in the middle of a 
political crisis, that we see in the headlines every day. But to put 
things in perspective, let me back up a bit. The gravity of the AQAP 
threat was clear to the Obama administration from Day 1, and we've been 
focused on Yemen since the outset. In the spring of 2009, the 
administration initiated a full-scale review of Yemen policy that led 
to a whole-of-government approach to Yemen. As part of that approach, 
we strengthened our engagement with the Yemeni government on 
counterterrorism. We also increased our efforts to coordinate with 
other international actors. Our strategy seeks to deal with imminent 
and developing threats at the same time that it addresses the root 
causes of instability in Yemen to improve governance. Central to this 
is building the capacity of Yemen's government to be responsive to the 
Yemeni people, delivering the security and services they require.
    Given that Yemen's political, economic, security, and governance 
challenges are interrelated and mutually reinforcing, U.S. policy must 
be holistic and flexible to be effective in both the short- and long-
term. U.S. strategy in Yemen is two-pronged: No. 1, strengthen the 
Government of Yemen's ability to promote security and minimize the 
threat from violent extremists within its borders, and, No. 2, mitigate 
Yemen's economic crisis and deficiencies in government capacity, 
provision of services, and transparency.
    To help meet immediate security concerns, we have provided training 
and equipment to particular units of the Yemeni security forces. In 
coordination with our security efforts, the USG has also increased 
development assistance to Yemen significantly. Development and 
stabilization assistance for Yemen went from roughly $9 million in 
fiscal year 2008 to $75 million in fiscal year 2010.\1\
---------------------------------------------------------------------------
    \1\ This includes funding from bilateral programs funded by DA, 
ESF, and GHCS accounts, funding from regional and global programs/
accounts that were attributed to/spent in Yemen (CCF, TI, MEPI, and 
DCHA funds), and Sec. 1207 transfer authority funds from DoD.
---------------------------------------------------------------------------
    While we are in a period of uncertainty, I'd stress that our shared 
interest with the Yemeni government in fighting terrorism, particularly 
defeating AQAP, does not rely solely on one individual; we are hopeful 
that any future Yemeni leaders will be solid counterterrorism partners.
The Trans-Sahara
    Before I talk about Somalia, I'd like to talk about West Africa, 
where no group has made a bigger name for itself in the kidnapping-for-
ransom business than al-Qaeda in the Lands of the Islamic Maghreb. AQIM 
has raised tens of millions of Euros in the past several years through 
kidnap-for-ransom operations. We believe much of this ransom money goes 
to logistically sustain the organization but there is plenty as well to 
build truck bombs, which have been used in Mauritania and Niger with 
limited success. AQIM has attacked and ambushed military forces in 
Mauritania and Algeria recently as well as others in Niger and Mali; 
the group is also working to increase its operational reach in West 
Africa.
    A moment ago I mentioned the importance of operating in a regional 
context in our efforts to counter terrorist safe havens. The United 
States created a regional partnership in North and West Africa, the 
Trans Sahara Counterterrorism Partnership in 2005 with the following 
strategic goals: To build military and law enforcement capacity; foster 
regional cooperation; and counter violent extremism. We want the region 
to lead counterterrorism efforts, rather than have those efforts be led 
by a group of Western allies. TSCTP is working to enhance a range of 
military and civilian capabilities in the Sahel and Maghreb. It is also 
facilitating cooperation between Mauritania, Mali, Chad, Niger, 
Nigeria, Senegal, and Burkina Faso and our TSCTP partners in the 
Maghreb--Morocco, Algeria, and Tunisia.
    We believe this program is beginning to pay off with partners 
taking a greater-than-ever role in counterterrorism operations in the 
region. We have also seen positive signs of greater regional 
cooperation among these countries, particularly between Algeria, 
Mauritania, and Mali. Moreover, select Allies, such as Canada and 
France, have also joined to bolster TSCTP efforts with their own 
programs that complement our own.
    Given all that is going on in Maghreb, successful democratic 
transitions in Tunisia and Libya will be the best bar to inroads by 
violent extremists in both countries and in North Africa more broadly. 
In the short term, however, the instability in Libya and the transition 
in Tunisia may provide AQIM with new openings, and we must continue to 
adjust our strategy in response to evolving conditions, work with our 
partners in the region to preserve the gains we've made through TSCTP 
and bilaterally, and ensure that we remain on track to achieve our goal 
of containing and marginalizing AQIM.
Somalia
    The chronic instability in Somalia and the fragile hold on power 
that the Somalia Transitional Federal Government exert, combined with a 
protracted state of violent insecurity, long unguarded coasts, and 
porous borders, have made Somalia an appealing location for 
exploitation by terrorists, criminals, and other nefarious actors. The 
terrorist and insurgent group al-Shabaab and other anti-TFG clan-based 
militias exercise control over strategic locations in south and central 
Somalia. Al-Shabaab is composed of a range of groups with varying 
motivations and interests. Some of al-Shabaab's senior leaders have 
links to al-Qaeda and are interested in waging a global struggle, while 
other members have a purely Somali agenda or simply are in it for the 
money. Al-Shabaab's widening scope of operations makes it a continuing 
threat to East Africa and U.S. interests in the region. Last July, we 
saw it conduct its first major attack outside of Somalia when it 
claimed responsibility for twin suicide bombings at the time of the 
soccer World Cup that killed 76 people in Kampala, Uganda. In addition, 
al-Shabaab has a cadre of Westerners, including fighters of ethnic 
Somali descent drawn from the global Somali diaspora and American 
converts, which make it a particular concern.
    The United States continues to pursue a dual track approach to 
create stability in Somalia. On track No. 1, we support the Djibouti 
Peace Process, while continuing to encourage the TFG to reach out to 
moderates that support peace and stability in Somalia. On track No. 2, 
we are broadening our outreach to include greater engagement with 
Somaliland, Puntland, and regional and local anti-al-Shabaab actors and 
groups throughout south-central Somalia in order to broaden security 
and stabilization efforts throughout the country. We are also reaching 
out to diaspora communities and civil society to foster dialogue and 
peaceful reconciliation.
    Additionally, the United States actively supports the African Union 
Mission in Somalia, AMISOM. The recent offensive by the combined AMISOM 
and TFG forces has shown some promise in fighting al-Shabaab in 
Mogadishu. Outside of Mogadishu, Ethiopia- and Kenya-supported militia 
in the western regions of south central Somalia are having some success 
in reducing al-Shabaab's territorial control. However, a great deal 
more work remains to be done to translate the success of the offensives 
into political gains through the consolidation of political control in 
these newly liberated areas.
    We are also engaging with regional partners to build and sustain 
their counterterrorism capabilities to address the threats emanating 
from Somalia. The Partnership for Regional East African 
Counterterrorism is the USG's program for long-term engagement and 
counterterrorism capacity-building in East Africa not only in Somalia, 
but also its neighbors to shrink terrorists' ability to transit the 
region. PREACT has an expanded set of strategic objectives and program 
indicators to more effectively systematize and streamline interagency 
contributors and resources to support the program's counterterrorism 
capacity-building objectives in East Africa.
              how we are addressing terrorist safe havens
    To begin with, we are working with our various interagency 
partners, such as Homeland Security, USAID, the military, and the 
intelligence community to keep Americans safe and our interests secure. 
With this whole-of-government approach, we are comprehensively 
strengthening our partnerships around the world by ensuring that all 
U.S. Government assistance providers are working from the same 
playbook, making sure that our assistance is more balanced to improve 
both immediate security and long-term governance and rule of law. 
Helping our partners more effectively confront the threat within their 
borders is both good counterterrorism and good statecraft.
    What we are doing in Pakistan, Yemen, and elsewhere is balancing 
military programs with robust civilian efforts that include rule of 
law, political and fiscal reforms; better governance through competent 
institutions, reduced corruption and civil service reform; economic 
diversification to generate employment and enhance livelihoods, and 
strengthened natural resource management. I'd like to note that many 
USG programs and activities simultaneously contribute to various 
foreign policy goals. Governance and economic reform are not 
specifically designed to counter terrorist safe havens but indirectly 
serve that function and should be considered an essential part of the 
assistance package we provide for a truly whole-of-Government approach 
to shrink terrorists' operating spaces.
    Since coming into office, the administration has been emphasizing a 
more strategic approach to counterterrorism. The United States has made 
great strides in tactical counterterrorism--taking individual 
terrorists off the street, disrupting cells, and thwarting 
conspiracies. But at the strategic level, we continue to see a strong 
flow of new recruits into many of the most dangerous terrorist 
organizations. Addressing the factors that drive radicalization--a 
mixture of local grievances and the global terrorist narrative--is 
necessary to further diminish terrorist safe havens.
    One emphasis of strategic counterterrorism is building our foreign 
partners' capacity. The heart of these efforts is to improve the rule 
of law and governance. Ultimately, counterterrorism and rule of law 
goals are closely aligned and reinforce one another. We are working to 
make the counterterrorism training of police, prosecutors, border 
officials, and members of the judiciary more systematic, more 
innovative, and more far-reaching. We are addressing the state 
weaknesses that terrorism thrives on--helping our partners to more 
effectively counter the threat that they and we both face.
    One of our most effective capacity building programs is the 
Antiterrorism Assistance Program, the primary provider of U.S. 
Government antiterrorism training and equipment to law enforcement 
agencies of partner nations. Last year, in fiscal year 2010, $215 
million in Nonproliferation, Anti-terrorism, Demining, and Related 
programs funds supported approximately 350 ATA courses, workshops, and 
technical consultations that trained almost 7,000 participants from 64 
countries. In fiscal year 2010, the ATA Program also completed 23 
capabilities assessments and program review visits. These on-site 
assessments looked at critical counterterrorism capabilities and served 
as a basis for Country Assistance Plans and the evaluation of 
subsequent progress.
    The ATA program is most effective where countries have a 
combination of political will and basic law enforcement skills to be 
most receptive to the advanced training ATA provides. This relatively 
successful formula has been especially evident in Indonesia, Colombia, 
Turkey, and parts of North Africa. Through an emphasis on train-the-
trainer courses, we are working with partner nations toward the goal of 
institutionalization and self-sustainment of capacities. We also are 
moving toward giving advising and mentoring an importance similar to 
training and equipping. Finally, we ensure that our programs are based 
on long-term strategic country and regional plans, integrated with 
other providers of security sector assistance at the State Department 
and in the interagency.
    In Colombia, ATA training of civilian and police law enforcement 
has paid particular dividends, as Colombia now uses the lessons learned 
to help train more than 20 countries, 11 of those in the Western 
Hemisphere. USAID has supported efforts enabling Colombia to establish 
an effective reconciliation and transition program for those willing to 
lay down their arms. These efforts along with the Colombian military's 
success in identifying the location of terrorist safe havens--which we 
have assisted--has resulted in significant progress in reducing the 
FARC's operating space in Colombia.
    All of this work goes on in the context of vigorous diplomatic and 
multilateral engagement. While we work in regional fora, I'd also point 
to our bilateral engagement, which remains important. We have formal 
bilateral counterterrorism consultations with numerous countries. Among 
them are Australia, Canada, China, Israel, Egypt, Japan, Pakistan, 
Algeria, Russia, and India; these consultations have strengthened our 
counterterrorism partnerships so we can complement one another's 
efforts in pursuit of a comprehensive approach to our common 
challenges.
    Before closing, I want to mention one other area of activity where 
we are innovating--namely in our program to counter violent extremism, 
a key part of our strategic counterterrorism work. Compared to 
capacity-building work, which has been going on for many years, this 
activity has a new focus. CVE focuses on three main lines of effort 
that will reduce terrorist recruitment: delegitimizing the violent 
extremist narrative in order to diminish its ``pull''; developing 
positive alternatives for youth vulnerable to radicalization to 
diminish the ``push'' effect of grievances and unmet expectations; and 
building partner capacity to carry out these activities. We are working 
with the interagency to develop programs that address the upstream 
factors of radicalization in communities particularly susceptible to 
terrorist recruitment overseas. Efforts include providing alternatives 
for at-risk youth, encouraging the use of social media to generate 
local initiatives, and enhancing the resilience of communities against 
extremism.
    Research has shown that radicalization occurs primarily at the 
local level. To be effective, CVE work needs to be driven by local 
needs, informed by local knowledge, and responsive to the immediate 
concerns of the community. Furthermore, programs owned and implemented 
by local civil society of government partners have a better chance 
succeeding and enduring. These initiatives can enable communities to 
address recruitment and radicalization, and can help deny terrorists 
avenues to create ideological safe haven in such communities.
    In conclusion, the threat is formidable but we are making progress. 
I firmly believe that countering violent extremism, multilateral 
engagement, and building local capacity--through our various programs 
and with our Department and interagency partners--provide us with the 
tools to make lasting progress in our fight against terrorism. Al-Qaeda 
is having a tougher time now more than ever, although AQ and its 
affiliates are still extremely dangerous and capable of attacking the 
United State and our allies. In the race to protect the United States 
and to stay ``one step ahead'' we should ensure that the tools of 
civilian power continue to serve National Security interests. This is 
an enduring challenge. Staying sharp, improving our offense, 
strengthening our defense, and maintaining our intellectual edge--these 
are all essential. I believe that we are on the right track. Thank you 
again for providing the opportunity to testify.

    Mr. McCaul. Thank you.
    The Chairman now recognizes Mr. Roberts for 5 minutes.

 STATEMENT OF JAMES Q. ROBERTS, PRINCIPAL DIRECTOR FOR SPECIAL 
     OPERATIONS AND COMBATING TERRORISM, OFFICE OF SPECIAL 
     OPERATIONS/LOW-INTENSITY CONFLICT AND INTERDEPENDENT 
            CAPABILITIES, U.S. DEPARTMENT OF DEFENSE

    Mr. Roberts. Good morning, Chairman McCaul, Ranking Member 
Clarke, and distinguished Members of the subcommittee. Thank 
you for inviting me to testify today and share with you the 
Department of Defense's efforts to address under- or ungoverned 
territories to preclude their use by terrorists in safe havens.
    DOD recognizes that such efforts require close interagency 
coordination, in fact, cooperation, as is reflected by our 
panel here this morning. Eliminating terrorist safe havens is a 
core element of the Defense Department's counterterrorism 
efforts.
    As Secretary Gates has written and said on numerous 
occasions, in the decades to come, the most lethal threats to 
the United States' safety and security are likely to emanate 
from states that cannot adequately govern themselves or secure 
their own territories, not from strong states or pure 
competitors. Dealing with these fractured and failing states 
is, in many ways, the main security challenge of our time.
    Your focus today on Pakistan, Yemen, and Somalia highlights 
the many and diverse challenges such states can present. 
Today's strategic calculus demands that the U.S. Government 
focus on building partner capacity, helping other countries 
develop the tools for their security and governance to defend 
themselves and to defend us by extension. We do this by 
providing them with education, equipment, training, and other 
forms of security assistance.
    America's efforts to build the capacity of our partners 
will always be defined by support for healthy civil-military 
relations, respect for human dignity and the rule of law, 
promotion of international humanitarian law, and the 
professionalization of partner military forces.
    Finally, as a long-standing member of the Special 
Operations family, I would like to take a moment to 
congratulate the special operators who killed Osama bin Laden 
early last month. Even as we work to eliminate terrorist safe 
havens, we remain grateful for the risks our Armed Forces take 
in directly eliminating threats when necessary.
    The Department is also grateful for the outstanding support 
you in the Congress provide to our Nation's military forces in 
general and, in my case, to our Special Operations Forces in 
particular.
    Mr. Chairman, this concludes my opening remarks. I ask that 
the written statement that I provided be entered in its 
entirety in the record. I will be pleased to respond to any 
questions. Thank you.
    [The statement of Mr. Roberts follows:]
                 Prepared Statement of James Q. Roberts
                              June 3, 2011
    Chairman McCaul, Ranking Member Keating, and Members of the 
subcommittee, thank you for inviting me to testify today and for the 
opportunity to share with you the Department of Defense's efforts to 
decrease under- or un-governed territories, thereby striving to 
preclude their use by terrorists as safe havens.
    Eliminating terrorist safe havens is a core element of the 
Department's counterterrorism efforts. As the Secretary of Defense has 
written and said on numerous occasions, in the decades to come, the 
most lethal threats to the United States' safety and security are 
likely to emanate from states that cannot adequately govern themselves 
or secure their own territory. Dealing with these fractured or failing 
states is, in many ways, the main security challenge of our time. Your 
focus today on Pakistan, Yemen, and Somalia highlights the challenges 
such states can present.
    What has been called the war on terror is, in grim reality, a 
prolonged, world-wide irregular campaign--a struggle between the forces 
of violent extremism and those of moderation. Direct military force 
will continue to play a role in the long-term effort against terrorists 
and other extremists. But over the long term, the United States cannot 
kill or capture its way to victory. Where possible, what the military 
refers to as kinetic operations should be subordinated to measures 
aimed at promoting better governance, economic programs that spur 
development, and efforts to address the grievances among the 
discontented, from whom the terrorists recruit. In short, we recognize 
that the elimination of safe havens is a prerequisite to winning the 
current conflict and inherently requires an interagency, whole-of-
government approach. To that end, Secretary Gates has repeatedly called 
for increased resources for the Department of State to enable the 
important work our friends across the river do in advancing U.S. 
interests through diplomacy, foreign assistance, and development.
    The recent past vividly demonstrated the consequences of failing to 
address adequately the dangers posed by insurgencies and failing 
states. Terrorist networks can find sanctuary within the borders of a 
weak nation, and recruits within the chaos of social breakdown. The 
most likely catastrophic threats to the U.S. homeland are more likely 
to emanate from these zones of instability than from aggressor states.
    This strategic calculus demands that the U.S. Government focus on 
building partner capacity: Helping other countries develop the tools 
for their security and governance, to defend themselves and us by 
extension. We do this by providing them with equipment, training, or 
other forms of security assistance. Where possible, U.S. strategy is to 
employ indirect approaches--primarily through building the capacity of 
partner governments and their security forces--to prevent festering 
problems from turning into crises that require costly and controversial 
direct U.S. military intervention. In this kind of effort, the 
capabilities of the United States' allies and partners may be as 
important as our own, and building their capacity is arguably as 
important as, if not more so than, the fighting the United States does 
itself.
    Given these realities, the Department of Defense has sought to 
enhance the tools at its disposal for dealing with the threats from 
terrorist groups that currently exploit opportunities provided by weak, 
fractured, or failing states. Notably, new train and equip programs 
allow for quicker improvements in the security capacity of partner 
nations. Training and education programs allow us to make contact with, 
and enhance the capabilities of, counterterrorism professionals in key 
states.
    We refer to these training, equipping, advising, and assisting 
activities collectively as security force assistance (SFA). SFA 
supports the professionalization and the sustainable development of the 
capacity and capability of the foreign security forces and supporting 
institutions of host countries, as well as international and regional 
security organizations. SFA can occur across the range of military 
operations and spectrum of conflict as well as during all phases of 
military operations. These efforts shall be conducted with, through, 
and by foreign security forces.
    SFA activities are conducted primarily to assist host countries to 
defend against internal and transnational threats to stability. 
However, the Department of Defense may also conduct SFA to assist host 
countries to defend effectively against external threats; contribute to 
coalition operations; or organize, train, equip, and advise another 
country's security forces or supporting institutions. The objective of 
all SFA activities is to directly increase the capacity or capability 
of a foreign security force or their supporting institutions.
    This indirect approach, working by, through, and with our partners 
also reduces the risk to--and burdens on--U.S. military personnel. We 
train partners so that they--not U.S. forces--can patrol their 
waterways and territories, take on terrorists, or undertake stability 
operations. More capable partners in these missions will lessen the 
pressure on U.S. forces. By engaging early in building a Nation's 
capacity we may be able to avoid committing troops in the future. We 
are better off helping our partners handle their own security than 
``calling in the Marines'' when a long-simmering problem ultimately 
blossoms into conflict. Furthermore, when a partner executes an 
operation it confirms its sovereignty--when we conduct an operation on 
their behalf, our mutual enemies will claim that partner has ceded its 
sovereignty to the United States.
                   dod activities to deny safe havens
    A subset of the Department of Defense's capacity-building 
activities are directly focused on combating terrorist safe havens 
around the world in places such as Yemen and the Philippines. Two 
primary tools in this regard are our Global Train and Equip authority 
(otherwise known as ``Section 1206'') and the Combating Terrorism (CbT) 
Fellowship Program. Section 1206 is one of our most important tools in 
the counterterrorism fight. This authority gives the Department the 
ability--with the concurrence of the Secretary of State--to quickly 
respond to build our partners' capabilities to confront urgent and 
emerging terrorism threats and support those fighting alongside us in 
Coalition operations. Using Section 1206 authority, the Department can 
provide training, equipment, and supplies to partner nation military 
counterterrorism forces. Both of these programs adhere to the 
requirements to accomplish ``Leahy vetting'' for human rights in 
accordance with relevant statutes on security assistance and related 
activities.
    The Combating Terrorism Fellowship Program (CTFP) was established 
to meet emergent defense requirements to build partnerships and partner 
knowledge about the struggle against terror. The program provides 
targeted, non-lethal, CbT education and training. CTFP directly 
supports DoD efforts by providing CbT education and training for mid- 
to senior-level international military officers, ministry of defense 
civilians and security officials. Education and training is a mixture 
of existing, traditional classroom and mobile programs, and innovative 
activities designed to strengthen individual, country, and regional 
combating terrorism capabilities and capacities. CTFP provides 
education and training at U.S. military educational institutions, 
regional centers, conferences, seminars, or as part of other education 
and training programs.
    I should note that this indirect approach is not without 
challenges. We focus our efforts and resources on places where the 
terrorist threat profile is high and partner nation capability--for 
whatever reason--is insufficient to meet that threat. Of course, the 
political will of the partner nation is also a crucial determinant. In 
this complex environment, our ability to conduct and sustain effective 
capacity-building programs can be challenged by many factors, including 
political instability and competing security concerns in the host 
nation. For example, in addition to terrorism, Yemeni forces have 
historically dealt with the Huthi rebellion in the north and the 
secessionist movement in the south. Although the Yemenis clearly 
recognize the threat AQAP poses to their internal security, CT is but 
one of several security concerns. Even in cases where instability or 
other security concerns do not distract our partners, factors such as 
education levels, literacy rates, technological know-how, or 
appreciation of the value of maintenance can make absorption and 
sustainment of both the equipment and the training problematic.
    We recognize the need to assess our building partner capacity 
efforts across the board, to include those targeted at eliminating 
terrorist safe havens. For example, DoD is initiating a more formal 
assessment effort to better evaluate Section 1206 train and equip 
programs. This effort will be built on information collected in the 
program proposal process, which includes baseline information, expected 
program milestones, and quantitative and qualitative metrics to measure 
the program's effectiveness. We are designing a system with the intent 
of measuring outcomes, not just outputs.
    I'll outline below how we use both Section 1206 and CTFP along with 
other authorities to build the capacity of our partners to counter 
terrorist threats in Pakistan, Yemen, Somalia, and the Philippines, by 
way of example.
In Pakistan
    The core objective of the United States in Pakistan is to disrupt, 
dismantle, and defeat al-Qaeda and its affiliates, and to prevent their 
use of safe havens in Pakistan and Afghanistan. To this end, our 
``train and equip'' programs with the Pakistan military and 
paramilitary forces are central to pursuing our near-term objective of 
eliminating terrorist sanctuary and disrupting and defeating the al-
Qaeda network.
    The Department of Defense's train and equip programs in Pakistan 
have helped the Pakistani military and paramilitary forces address 
terrorist threats in ungoverned spaces along its borders and 
particularly in the Federally Administered Tribal Area (FATA). Section 
1206 programs for the Pakistan Army Aviation helped improve its airlift 
capability to support counterterrorism operations in the border region 
between Pakistan and Afghanistan against enemies common to both 
Pakistan and the United States.
    We also provided training and equipment to the Pakistan forces to 
help improve maritime counterterrorism capabilities and 
counterterrorism efforts focused on the western border area and coast. 
More recently, the Pakistan Counterinsurgency Fund has focused training 
and equipping programs on building Pakistan's Command, Control, 
Communications, Computers, Intelligence, Surveillance, and 
Reconnaissance (C4/ISR) capability and its ability to conduct 
intelligence-driven operations; expanding its air-mobility capacity; 
and improving close air support capabilities, night operations, and its 
counter-improvised explosive device (C-IED) capability.
    The Department has also used CTFP in Pakistan to fund confidence-
building seminars with Afghanistan on border issues with the aim of 
preventing al-Qaeda from establishing safe havens. Since 2009, CTFP has 
funded a 4-day Bilateral Seminar that has engaged senior-level 
Pakistani officials focusing on the benefits of a whole-of-government 
approach to denying al-Qaeda safe havens, controlling the volatile 
border with Afghanistan and strengthening civil-military relations in a 
larger national security strategy. In 2010, the CTFP funded 10 
Pakistani Members of Parliament to spend 3 days in Washington to meet 
with representatives from the Departments of Defense, State, 
Transportation, and Justice. The goal was to strengthen their 
understanding and ability to provide good governance in Pakistan. In 
2011, CTFP funded a Pakistani Brigadier General to serve as a visiting 
professor and fellow at the College of International Security Affairs 
(CISA) at the National Defense University. He will provide first-hand 
knowledge of dealing with a terrorist organization embedded in a 
society as well as lessons learned from Pakistani efforts to execute 
counterterrorism operations.
    We find ourselves at a critical juncture in our relationship with 
Pakistan. Despite inevitable setbacks, our train-and-equip efforts 
paired with persistent diplomatic engagement have tangibly enhanced the 
Pakistani military's efforts against militants. The operations 
conducted by their forces today would have been unthinkable 2 years 
ago. Because of our enduring interests, and the fragile nature of the 
gains made by the Pakistani military, we must continue to assist 
Pakistan in dismantling militant safe havens and extending the reach of 
its government into the remote tribal areas of Pakistan.
    U.S. personnel have worked with select Pakistani military units to 
provide them with an enhanced understanding of counterinsurgency and 
counterterrorism fundamentals, inherent in which is the significance of 
adopting a population-centric approach designed to turn the populace 
away from supporting terrorists and thus, deny them established or 
prospective safe haven. However, counterinsurgency is a methodical 
process, and if the Pakistani government continues to lack adequate 
capacity to conduct all facets--clear, hold, and build--of COIN 
operations, it will be less able to transition to the follow-on phases. 
Our efforts have bolstered Pakistani capabilities and capacity, but 
much more remains to be done.
In Yemen
    In fiscal year 2011 our Combating Terrorism Fellowship Fund 
supported seminars and workshops in Sana'a, Yemen. Seminar speakers 
included Yemen's Prime Minister, the Minister of Foreign Affairs, Chief 
of the Defense Staff, a representative from the President's Office, the 
Director for the National Security Bureau (the Yemeni security, 
intelligence, and counterterrorism service), the U.S. Ambassador to 
Yemen, and U.S. Congresswoman McCollum. The events focused on the 
benefits of a whole-of-government approach to national security 
strategy. Attendees included 650 Yemeni military and civilian officials 
to include: Members of the Council of Ministers, Al-Shura Council (U.S. 
Senate equivalent), House of Representatives, members of civil society, 
Embassy representatives and students from the host High Military 
Academy, and Yemeni CTFP alumni. The program specifically discussed al-
Qaeda safe havens in the south, the spread of al-Qaeda's extremist 
ideology and influence, and how to counter it.
    Our Section 1206 train-and-equip programs in Yemen have focused on 
improving the Yemenis' ability to control its own territory and 
territorial waters to combat terrorists currently exploiting ungoverned 
and under-governed spaces. Programs have focused on improving border 
security and increasing mobility, and have provided equipment to the 
Yemeni Special Operations Forces, Air Force, Border Security Force, and 
Coast Guard to help them deter, detect, and detain terrorists along 
land borders, and at sea, though the security environment has been 
challenging of late. The programs in fiscal year 2010 centered on 
improving the operational reach and reaction time of counterterrorism 
forces so that they could confront terrorists in previously unreachable 
areas.
In Somalia
    Because Somalia lacks an internationally-recognized permanent 
government, many of our capacity-building programs are limited in their 
ability to address safe haven there. As such Somalia has not directly 
benefited from either Section 1206 funding or CTFP funding. However, we 
are working closely with the Department of State to enhance the 
capabilities of the multinational African Union Mission in Somalia 
(AMISOM) forces and the National Security Force of the Transitional 
Federal Government (TFG). These forces are currently operating in 
Somalia to stabilize the security situation and create a safe and 
secure environment in support of the Djibouti Peace Process and in 
which the TFG can function in the midst of current threats.
    Further, Somalia's lack of governance and sparse population make it 
appealing as a potential safe haven for al-Qaeda. The U.S.-designated 
Foreign Terrorist Organization al-Shabaab currently operates freely 
throughout much of south/central Somalia. While al-Shabaab is not a 
monolithic structure, its leadership has strong and increasing 
connections to al-Qaeda. As al-Qaeda undergoes changes in its central 
leadership and regroups from counterterrorism operations in Pakistan, 
we need to ensure that it does not relocate its center of operations to 
Somalia.
    It is critical that we view Somalia from a regional Horn of Africa 
perspective, not least because so many of the USG's traditional 
security cooperation tools are restricted from being used in Somalia. 
The Department of Defense is reviewing the status of its Joint Task 
Forces to determine if any should be considered for transition to a 
more permanent status, such as Joint Interagency Task Force. This 
review includes the Combined Joint Task Force--Horn of Africa (CJTF-
HOA) based at Camp Lemonnier, Djibouti, whose mission is to build 
partner nation capacity in order to promote regional security and 
stability, prevent conflict, and protect U.S. interests.
    U.S. Africa Command is concurrently undertaking a review of East 
Africa to determine how our military efforts in the region can be most 
efficiently applied to work in concert with those of our interagency 
partners to achieve our collective regional goals. This review of our 
East Africa strategy will also inform the Department's recommendations 
on basing and funding for CJTF-HOA and Camp Lemonnier. Our ultimate 
goal is a fully integrated DoD strategy under which security 
assistance, capacity building, operational collaboration with regional 
partners, and counterterrorism actions are synchronized to provide the 
regional security and stability that is in the interests of the United 
States, our regional partners, and the appropriate international 
organizations.
In the Philippines
    I will include some comments about DoD's capacity-building programs 
in the Philippines, as they have enjoyed a degree of quiet success in 
helping the central government in its efforts to expand governance. Our 
education, equipping, and training programs there have helped deny safe 
haven to a variety of malign actors. Some examples follow.
    The Combating Terrorism Fellowship Program has funded Philippine 
counterterrorism professionals to attend the Master's degree-granting 
program at both the National Defense University's College of 
International Security Affairs and the Naval Postgraduate School's 
College of International Security Affairs. Both degree programs address 
strategic security to include courses on countering the ideological 
support for terrorism and countering violent extremism. Senior level 
CTFP-funded Filipino leadership have led efforts mainly in the south 
against groups such as the Moro Islamic Liberation Front, Moro National 
Liberation Front, Abu Sayyaf, Rajah Sulaiman Movement, and Jemaah 
Islamiyah.
    Section 1206 train-and-equip programs in the Philippines have 
focused on increasing maritime border security and decreasing land and 
maritime ungoverned spaces. Although still in the stages of 
development, United States Pacific Command (USPACOM) believes 1206 
programs will be one of the highlights of the command's bilateral 
counterterrorism effort. These efforts have expanded and broadened into 
a growing maritime domain awareness network with links to command-and-
control centers in Manila that are capable of guiding air- and sea-
borne interdiction assets.
    Importantly, we also have provided maritime domain awareness assets 
to the Philippines, Malaysia, and Indonesia in an effort to build 
regional capacity to monitor waters that have historically been areas 
of ``safe transit'' for terrorist and criminal elements alike. Section 
1206 programs have also supported the development of naval special 
operations forces and key air units who engage day to day with the most 
acute terrorist threats in previously unreachable areas.
    Civil Military Operations.--Since 2002, Joint Special Operations 
Task Force--Philippines (JSOTF-P) has engaged the Government of the 
Republic of the Philippines in a Foreign Internal Defense mission with 
one of its primary objectives being to neutralize the safe haven that 
Southern Mindanao and the Sulu Archipelago afford to Jemaah Islamiyah, 
the Abu Sayaaf Group, and potentially to other regional and 
transnational terrorist groups. As part of this mission, the JSOTF's 
advisers have continued to mentor their Philippine counterparts in the 
utility and planning of targeted Civil Military Operations (CMO) as 
part of a larger counterinsurgency and counterterrorism strategy, and 
have worked shoulder-to-shoulder with them in the execution of these 
activities.
    Over the 2010 calendar year, U.S. and Filipino civilian and uniform 
personnel have worked together to plan and execute over $5.2 million in 
CMO activities, amounting to 44 civic action projects, 38 km of road 
construction, over 19,000 medical treatments, and close to 6,000 
veterinary services performed. All of this has been part of the larger 
U.S. effort to assist the Government of the Philippines in establishing 
a stable environment in the Southern Philippines, garnering local 
popular support, and increasing the legitimacy and governance of the 
Government of the Philippines in these remote areas. The goal, of 
course, is to separate terrorist group members from their local support 
base and deny access to this prospective safe haven.
               building dod's sfa toolkit for the future
    Recognizing the important role that assisting our partners plays in 
furthering our U.S. National security, and the enduring nature of this 
requirement, the 2010 Quadrennial Defense Review laid out a series of 
initiatives to support this mission area. Key themes were:
    Strengthen and institutionalize general purpose force capabilities 
for security force assistance.--Conducting missions to train, advise, 
and assist partner forces has long been the domain of U.S. Special 
Operations Forces. Our experiences in Iraq and Afghanistan, and the 
irregular nature of today's conflict, have taught us that we need all 
our forces to have these skill sets.
    Enhance linguistic, regional, and cultural ability.--Operating in 
partnership with host-nation security forces and among local 
populations puts a premium on foreign language skills and regional and 
cultural knowledge.
    Strengthen and expand capabilities for training partner aviation 
forces.--Providing training to partner aviation forces is an area that 
QDR analysis suggests will continue to grow.
    Strengthen capacities for ministerial-level training.--The 
Department recognizes that in order to ensure that enhancements 
developed among security forces are sustained, the supporting 
institutions in partner nations must also function effectively.
    Create mechanisms to facilitate more rapid transfer of critical 
materiel.--We are exploring and beginning to implement options for 
expediting the acquisition and transfer of critical capabilities to 
partner forces.
    Strengthen the capacities for training regional and international 
security organizations.--The Department will improve its capacity for 
enabling the United Nations and other multinational peacekeeping 
efforts.
                               conclusion
    Terrorist groups seek to evade security forces by exploiting 
ungoverned and under-governed areas as safe havens from which to 
recruit, indoctrinate, and train fighters, as well as to plan attacks 
on U.S. and allied interests. Where appropriate, U.S. forces will work 
with the military forces of partner nations to strengthen their 
capacity and capabilities for internal security. We will coordinate 
those activities with those of other U.S. Government agencies as they 
work to strengthen civilian capacities, thus denying terrorists the 
time, space, and resources they require. For reasons of political 
legitimacy, as well as sheer economic necessity, there is no substitute 
for professional, motivated, local security forces protecting 
populations threatened by terrorists operating in their midst.
    Efforts that use smaller numbers of U.S. forces and emphasize host-
nation leadership are generally preferable to large-scale military 
campaigns. We have seen this approach work in the Philippines where, 
over the past 8 years, U.S. forces and their Philippine counterparts 
have trained together and worked to understand the organization and 
modus operandi of the adversary. As their equipment and skills have 
improved, Philippine forces have patrolled more widely and more 
frequently, bringing security to previously contested areas.
    As we place greater emphasis on building the capacity of our 
partners, our efforts will continue to be informed by our long-term 
determination to foster human dignity. This commitment is manifested in 
human rights vetting and other controls that shape our efforts to 
educate, train, equip, advise, and assist foreign forces and partner 
security institutions. America's efforts to build the capacity of our 
partners will always be defined by support for healthy civil-military 
relations, respect for human dignity and the rule of law, promotion of 
international humanitarian law, and the professionalization of partner 
military forces.

    Mr. McCaul. Thank you, Mr. Roberts. Let me, too, associate 
myself with your remarks regarding the Navy SEAL operation to 
kill bin Laden. No one will ever know the names or the faces, 
but they are truly the unsung heroes.
    In addition, I would like to also commend and recognize the 
intelligence community and the analysts who were able to track 
down the information that led us to bin Laden. They, too--we 
will never know their names or faces--the public, at least--but 
they deserve our congratulations as well.
    With that, Ms. Williams-Bridgers, the GAO came out with 
your report, and I want to go through some of the conclusions 
with you and assess how that impacts our ability to go after 
these terrorists in the safe havens.
    But essentially, as I understand it, your report concludes 
that the State Department did not fully comply with the level 
of detail required by two laws, two statutes, one being the 
National Defense Authorization Act and the second one being the 
Intelligence Reform and Terrorism Prevention Act. These Acts 
require the President to submit to the Congress a report on the 
strategy and activities of the U.S. Government to eliminate 
terrorist sanctuaries. Can you tell me or tell this committee 
how these reports were deficient and what impact that will have 
on our ability to hunt down the terrorists in the safe havens?
    Ms. Williams-Bridgers. Thank you, Mr. Chairman, for the 
question. I would be glad to respond.
    With regard to the report that was mandated by the National 
Defense Authorization Act, that required the President to 
complete an overall assessment of U.S. Government-wide efforts 
to address terrorist safe havens. That report has not yet been 
completed. We understand the responsibility has been delegated 
to the National Security Council.
    In our conversations during the course of our review, the 
National Security Council says they are in the process of 
developing that report, so we are looking forward to receiving 
it and having an examination of it. We think it is critically 
important for there to be a high-level National statement of 
the priorities, the goals, the objectives; and, hopefully, we 
will see the level of detail in that assessment that will 
afford the Congress the opportunity to measure over time 
progress being made.
    With regard to the Intelligence Reform and Terrorist 
Prevention Act, it specifically mandated that State Department 
produce reports on an annual basis that rendered country by 
country assessments, those countries that had been identified 
as terrorist safe havens, and then to assess these countries in 
terms of the actions the countries have taken to prevent 
terrorism, actions that the countries have demonstrated as 
being cooperative with the United States, and to explain the 
level of knowledge that exists within these governments about 
terrorist activity or the presence of safe havens in their 
countries.
    The one provision that Congress recommended that we did not 
see in any of the country reports related to the provision that 
would require State Department to report on actions taken by 
countries to prevent the proliferation and trafficking of 
weapons of mass destruction. This was absent in every single 
country report.
    To State's credit, during the course of our review they 
acknowledged that that provision had not been adequately 
responded to and they intended to incorporate in their next 
report, which we expect to be issued some time this year.
    Mr. McCaul. Okay. So, in other words, your testimony 
indicates, and your report you issued, that these reports are 
incomplete----
    Ms. Williams-Bridgers. Correct.
    Mr. McCaul [continuing]. Are not in compliance with the 
requirements under these two statutes.
    Ms. Williams-Bridgers. Absolutely. Absolutely.
    In addition, sir, I would also add that in the assessment 
what we expected to see--and not what I believe Congress 
expected to see in its articulation of its need to have a full 
assessment of information on which it could provide adequate 
oversight--we expected to see a listing of all activities 
undertaken by the whole of the U.S. Government, all agencies 
that have a presence and contribute in a relevant and 
significant way toward the detection and elimination of 
terrorist safe havens. That assessment was complete. That 
listing of all other agency activities and programs was not 
clear and it was not complete.
    In the course of our own review, we identified at least 13 
programs that are funded by State Department that we consider 
to be most relevant, programs that speak to governance, 
capacity-building, security, economic development activities, 
this whole-of-government approach that was articulated in the 
most recent National strategic statement.
    We also did not see the listing of other agencies, not all 
other agencies' programs and activities, such as DHS. As I 
mentioned in my opening statement, activities that DHS advances 
with regard to cash smuggling that leads to money laundering 
that leads to financing of terrorist groups and operations, 
that, too, was not included in the State country reports.
    Mr. McCaul. So there's a lack of reporting by the National 
Security Council--which they assured you that they will be 
coming out with a report soon?
    Ms. Williams-Bridgers. Yes.
    Mr. McCaul. But, coupled with the deficiencies in this 
report by both DHS and the State Department, it is not allowing 
Congress to do its oversight responsibility; is that correct?
    Ms. Williams-Bridgers. I believe it does not provide 
Congress with sufficient detail and explanation and evaluation 
that allows you to measure over time what progress has been 
made.
    For example, the removal of Indonesia from the country 
reports. It took some digging for our team to look over time to 
see what countries were in, what countries were out. There is 
no explicit statement in any--the most current country report 
that a country had been removed or the Afghan-Pakistan border 
area had been removed. That took some concerted effort and 
examining and data mining, if you will, of each of the country 
reports over time. That kind of information needs to be 
provided in order to give you a sense of progress or lack 
thereof.
    Mr. McCaul. So, as I understand it, there are no metrics 
reported. Is that correct?
    Ms. Williams-Bridgers. That is correct.
    Mr. McCaul. So this committee, Foreign Affairs, Armed 
Services, the Intelligence Committee cannot adequately perform 
its job without this information.
    Ms. Williams-Bridgers. It cannot adequately perform the job 
without this information. This information is not currently 
available in open sources. However, it may be available in 
classified environment, and it might be most appropriate in a 
classified reporting environment.
    The Congress did allow State Department to provide it that 
type of more sensitive information in a classified report. 
State Department has chosen not to issue that type of report.
    Mr. McCaul. I would like to give, obviously, the State 
Department, Ms. Villarosa and Mr. Koumans, would like to give 
you the opportunity to respond to the allegations in this 
report. We will start with Ms. Villarosa.
    Ms. Villarosa. Thank you, Chairman.
    Again, we took to heart, we have talked with the GAO about 
the deficiencies in our Country Reports of Terrorism and are in 
the process of finalizing the 2010 version to make them more 
comprehensive, as the GAO has recommended; and this will 
include specifically addressing efforts that are done with 
regard to the proliferation of weapons of mass destruction.
    We are working with the Bureau of ISN, International 
Security and Nonproliferation Affairs, to provide that 
information so that it is as comprehensive as possible.
    Mr. McCaul. Okay. I mean, tracking the proliferation of 
weapons of mass destruction seems to be a pretty serious thing 
that we should be reporting. Why was that not included?
    Ms. Villarosa. Again, I know that this is--our Bureau of 
International Security and Nonproliferation tracks this very 
closely, and I do not know in terms of what their reporting 
requirements are. But we understand that we need to include 
this information in the Country Reports of Terrorism and are in 
the process of doing so now.
    Mr. McCaul. I certainly hope so. I mean, that seems to be a 
major oversight in the reporting requirement that is by law. I 
think it harms our ability in the Congress, as the Chairman of 
the Oversight Investigations Committee on Homeland Security, it 
does not allow us to do our job. So I would hope that this 
report would be updated as soon as possible.
    I want to commend the GAO for calling this to our 
attention. I don't think many people knew about that, 
certainly, either on this committee or in the Congress as a 
whole, and I think that is a major gap in the reporting 
requirement.
    Mr. Koumans, do you have any comments?
    Mr. Koumans. Thank you, Mr. Chairman.
    I come at this question from the point of view of having 
been a Foreign Service Officer, as you mentioned in your 
opening remarks, for 17 years before I came to Homeland 
Security and, perhaps similarly to Ms. Villarosa, was posted 
overseas during times when I had to write the first draft of 
the counterterrorism Country Reports that are then submitted 
back to Washington and further amplified by the Washington 
interagency community. I know that the State Department sends 
specific instructions with respect to legal changes that took 
place in the country at that time, significant prosecutions, et 
cetera. From our point of view, absolutely, if the training 
that ICE and CBP have done with respect to bulk cash smuggling, 
if that should be included, we report that through other 
channels, we are more than happy to include that, absolutely.
    Mr. McCaul. It is June 2011. This is a 2010 report. I would 
hope that both DHS and State can update this report so that the 
other branch of Government, that being the Congress, can do its 
job.
    So my time is way over expired. But I thank you for your 
testimony.
    I now recognize the Ranking Member, Ms. Clarke.
    Ms. Clarke. Thank you very much, Mr. Chairman; and I would 
like to associate myself with your opening comments.
    As a New Yorker, we are indebted and indeed grateful to our 
armed services, our special forces and intelligence community 
for eliminating the threat that was Osama bin Laden; and I 
would like to just state that for the record.
    Let me ask the entire panel, although terrorist safe havens 
have been identified in Pakistan, Yemen, and Somalia, they each 
are unique and present different challenges for U.S. officials. 
How do the three countries differ, especially as it relates to 
our counterterrorism strategy? How does the United States adapt 
to the differences?
    Ms. Villarosa. I guess I will start with that.
    Each of these are very unique countries. In the case of 
Somalia, there hasn't been a functioning government for over 20 
years. So we have a multi-pronged strategy in order to start 
building stability with the Transitional Federal Government 
forces. We are working with the African Union, who have 
provided troops to assist the TFG in providing security and 
stability in Mogadishu. We are also working with the nations 
that surround Somalia, because they are also very threatened by 
the threat that comes from Somalia. So we are helping 
strengthen their borders.
    We are also, because of the attraction of the turmoil in 
Somalia to members of the Somali diaspora in the West and in 
the United States and in Europe and in Australia, we are 
reaching out more broadly to the Somali diaspora to educate 
them about the situation, hopefully prevent people from 
traveling to take part in the violence. But this will be a 
long-term effort.
    We are providing training for both the AMISOM forces as 
well as the TFG forces. We are getting ready to--we are also 
working with some of the other sort of islands of stability 
that we find in Somalia. But our goal is a peaceful, stable 
Somalia; and it will take a while.
    In Pakistan, again, you have an established government 
which has its challenges that we are trying to address. There 
are some severe economic challenges. There are a lot of local 
grievances. So we have tried to address those local grievances 
through a lot of our USAID programs.
    But, at the same time, we are trying to work--we have been 
working closely with Homeland Security in terms of building up 
border security and also preventing the movement of improvised 
explosive materials into Afghanistan where they are killing our 
troops. So we need to work on that. We need to work very much 
with the security forces.
    Pakistan has 147,000 troops in the border provinces that 
they have been working to eliminate the terrorist threat there, 
so we need to continue working with them through DOD to help 
build their ability to take action. Once they clear out these 
terrorists, then we want to help them hold that and start 
providing those basic services that the people have not--that 
have not been forthcoming in the past.
    In the case of Yemen, it is on the front page of the 
newspapers today. There is a very serious political dispute 
going on. But, at the same time, there is a very real terrorist 
threat in that country. Obviously, the political uncertainty 
right now makes it difficult for us to do very much. But we had 
been working to train the Yemeni security forces again to 
exercise more control. As I mentioned earlier, we had a lot of 
success in 2009 and 2010.
    We are also working through USAID to reach out and, again, 
assist in the provision of services and promote countering 
violent extremism to delegitimize the violence. We have been 
working with--there is a lot of European partners. The Saudis, 
the Gulf states are interested in working with us to 
delegitimize violence, prevent people from being recruited.
    So we do--again, we have multi-faceted approaches to take 
on the particular challenges of each one of these very complex 
countries.
    Ms. Clarke. I want to thank you.
    My time has expired, and if time permits we will continue 
on that question.
    Thank you, Mr. Chairman.
    Mr. McCaul. Well, thank you.
    The Chairman now recognizes the gentleman from Missouri, 
Mr. Long.
    Mr. Long. Thank you, Mr. Chairman; and thank you all for 
being here today and your testimony.
    To Ms. Villarosa in particular, I would like to state that 
since I have been--I am a freshman, and since I have been here, 
January 5 I believe we were sworn in, I believe I have been to 
5,417 different events, one of which was at the State 
Department where the Secretary of State invited the freshman 
class over. I was just struck that night with the dedication of 
everyone over there. You go to these events. When you have been 
to 5,417 of them, it is kind of like, hi, how are you? Getting 
moved in? Is everything going okay in the District of Columbia 
for you?
    But at the Department of State everyone was excited about 
what they do. They were very engaging. People, some dating back 
to working in the Reagan administration, are over there. If you 
can just carry a message back to the Secretary and to your 
coworkers how much that I appreciated that and their dedication 
to what they do, I would appreciate it.
    Ms. Villarosa. I am glad to deliver that message. Thank you 
so much.
    Mr. Long. Okay. That should be an easy one for you to carry 
back.
    Mr. Koumans, in your opinion, do you think that the 
Department of Homeland Security is doing all that it should to 
deny terrorists safe havens today?
    Mr. Koumans. Thank you for the question, Mr. Congressman.
    There is an enormous amount that can be done. I am 
satisfied with the amount of work that we are doing in 
partnership with the Departments of State and Defense. There is 
always more to do, and I think it becomes a question for 
leadership in partnership with Congress, in partnership with 
the Departments of State and Defense to determine where the 
priority should be, where to direct the resources and to remain 
nimble so always to be prepared to shift resources as 
circumstances warrant.
    Mr. Long. In your testimony, you kind of reiterated or 
said, I guess, that you do work closely with the Departments of 
State and Defense. In your opinion, to what extent does the 
Department of State coordinate its efforts with DHS personnel 
overseas?
    Mr. Koumans. Mr. Congressman, I thank you for your comment, 
your question.
    I think we cooperate very closely. On the ground at the 
embassies overseas, typically DHS personnel, ICE, CBP, TSA, and 
others, are part of the ambassador's country team and partner 
with the other members of the country team, with the Department 
of Justice, Department of Defense, and others who are in the 
law enforcement and intelligence and security cooperation 
groups that get established at the post, coordinating with 
respect to assistance, with respect to visits, with respect to 
high-level engagement with the country leadership. It is an on-
going effort and one that requires a lot of work there on the 
ground.
    We try to copy that cooperation and build on it here back 
in Washington, and I think the cooperation that we have is of 
extremely high level.
    Mr. Long. Ms. Villarosa made mention a minute ago--and I am 
still on you, Mr. Koumans--made mention about Yemen. Can you 
tell us how many DHS personnel you have in Pakistan and Yemen 
and what their duties are?
    Mr. Koumans. Sure. Thank you, Mr. Congressman.
    We currently have three people in Pakistan, three ICE, 
Immigration and Customs Enforcement, officers. We normally have 
two in Yemen, also from ICE, but we currently have one there 
due to the security situation and the departure that was 
ordered. We are down to just one person there.
    To answer your question as to their responsibilities, they 
carry out the full range of ICE responsibilities with respect 
to countering smuggling and trafficking of contraband of every 
kind, partnership with local law enforcement in carrying out 
investigations that could have roots to other parts of the 
world where ICE is operating, and, of course, chiefly, of 
course, the United States, carrying out those investigations, 
partnering with the State Department with respect to travelers 
to the United States, carrying out joint investigations, and 
training and mentoring with local officials.
    Mr. Long. Okay. Ms. Villarosa, you didn't think you would 
get off that easy, so I do have a question for you.
    It has been suggested that the Pakistan government has an 
increasingly questionable partnership between known terrorist 
organizations and the Inter-Services Intelligence, ISI, if you 
will. Do you think the United States should continue to involve 
Pakistan in anti-terror training programs and provide foreign 
aid?
    Ms. Villarosa. Mr. Congressman, thank you for that 
question.
    I very much believe that we should remain very closely 
engaged with Pakistan. If we are going to succeed in our 
ultimate goal of defeating al-Qaeda, we must work with 
Pakistan. The security assistance that we are providing is 
enabling them to take action against terrorists in Pakistan.
    We have our differences with the Pakistani government, and 
we reiterate them regularly. Secretary Clinton was just there 
last week and highlighted the many concerns that we have. The 
operation of terrorist groups represent not only a threat to us 
but to Pakistanis themselves, are very serious, and I think 
Secretary Clinton found that the Pakistani officials do want to 
continue to cooperate.
    We must find--we have to do it. It may be frustrating, but 
I think it is very important that we stay engaged over the long 
term.
    Mr. Long. Okay. I know I am past my time, but if you will 
allow me, Mr. Chairman, I also want to thank DHS.
    Joplin, Missouri, is in my district, and we had a half-
mile, three-quarter mile by 11 miles wiped out by an F-5 last 
week.
    I got there at daylight the next morning. The White House 
liaison for FEMA, which is under DHS, called and said, we want 
you to know that we are coming, you will have everything you 
need, and also said we will have boots on the ground shortly. I 
said, no, you won't. They are already there. They came about an 
hour ago and made introductions. Greg Fugate came in and Rich 
Serino came in, the director and the deputy director.
    So just everybody needs to keep Joplin in their prayers, 
and I very much appreciate the attitude. The President came in 
on Sunday, and I was thrilled with that, because he got to see 
it with his own eyes.
    So, anyway, if you can take the message to FEMA, we 
appreciate what they are doing. Thank you.
    Mr. McCaul. Thank you, Mr. Long.
    Just in conclusion, let me say that proliferation of 
weapons of mass destruction has always been a central threat 
and issue for the Congress. We are talking about Pakistan, 
going back to A.Q. Kahn who proliferated his nuclear capability 
to Syria, North Korea, Iran. Pakistan has nuclear weapons. So 
the idea that the report required by law under the National 
Defense Authorization Act and the Intelligence Reform and 
Terrorism Prevention Act would not include information about 
proliferation of weapons of mass destruction to me is a 
woefully inadequate report.
    We are debating a Libya resolution today, and the issue is 
what weapons of mass destruction do they have, whether it be 
chemical weapons, 10,000 MANPADS.
    So I would ask that all three agencies represented here 
today, both DHS, Department of State, and Department of 
Defense, fully comply with the law here and update these 
reports in a more comprehensive way as soon as possible so that 
Congress can do its job for the American people. The ultimate 
job of this committee is to protect the American people, and 
without that information we can't adequately do our jobs. So I 
would ask you go back to your bosses and tell them we need that 
information as soon as possible.
    With that, we will go ahead and dismiss this panel of 
witnesses. I want to thank you for your testimony and your 
expertise and ask that the second panel take their seats as 
well.
    Our next panel, Panel II, has three distinguished 
witnesses.
    First, Mr. Steve Coll, who is President and CEO of The New 
American Foundation. Previously, he spent 20 years as a senior 
editor and foreign correspondent at the Washington Post, 
serving as the paper's managing editor from 1998 to 2004. He is 
the recipient of numerous professional awards, including two 
Pulitzer Prizes.
    On a sort of point of personal privilege, I recall reading 
your book Ghost Wars many years ago, which is, in my judgment, 
the definitive piece for the Afghan-Soviet and now the current 
situation we find ourselves in today with Afghanistan and 
Pakistan. It provides still I think the greatest insights into 
the threat that we face today. So thank you for your great 
contributions.
    Second, we have Professor Bruce Hoffman, who is currently a 
tenured professor at Georgetown University and director of both 
the Center for Peace and Security Studies Program. He was a 
scholar in residence for counterterrorism at the CIA between 
2004 and 2006. Professor Hoffman also previously held the 
Corporate Chair in Counterterrorism and Counterinsurgency at 
the Rand Corporation.
    Finally, Professor Daniel Byman, who is currently a 
professor also at Georgetown University--we have some great 
professors at Georgetown, it sounds like--and the research 
director and senior fellow at the Saban Center for Middle East 
Policy for the Brookings Institution. From 2005 to 2010, Dr. 
Byman was a director for the Center for Peace and Security 
Studies also at Georgetown. He has worked as a professional 
staff member for the National Commission on Terrorist Attacks 
on the United States and the joint 9/11 inquiry, U.S. House and 
Senate Intelligence Committees. Thank you for being here today.
    The Chairman now recognizes Mr. Coll for his statement.

    STATEMENT OF STEVE COLL, PRESIDENT AND CEO, NEW AMERICA 
                           FOUNDATION

    Mr. Coll. Chairman McCaul, thank you for the kind words. 
Ranking Member Clarke and Members of the committee, thanks for 
the opportunity to testify.
    Almost a decade after the September 11 attacks, the threat 
to the United States from al-Qaeda-related groups is 
diminishing but remains persistent.
    Most encouragingly, al-Qaeda has failed politically and by 
doing so has isolated itself. Its violence and absence of 
constructive ideas and programs has caused Muslim populations 
to turn away, limiting its potential in recruitment and fund-
raising. The death of Osama bin Laden will challenge the group 
to manage the first leadership succession crisis in al-Qaeda's 
history.
    The group's claims on the grievances and imaginations of 
disenfranchised Muslims is waning. Yet no terrorist 
organization requires a mass following to inflict substantial 
and disruptive damage. Al-Qaeda remains capable from time to 
time of killing dozens, even hundreds of American citizens at 
once, including on American soil, as evidence from recent 
plotting makes clear.
    Mention has already been made of the Najibullah Zazi case 
and the near-miss on Northwest flight 253. Both of these plots 
involved safe havens abroad, the Pakistan-Afghanistan border in 
the case of Zazi and Yemen in the case of the Christmas day 
bombing attempt.
    The State Department's Country Reports on Terrorism have 
identified 13 terrorist safe havens. Of these 13, at least six 
currently contain al-Qaeda or related groups that have 
historically displayed international ambitions. The most 
prominent areas are the Trans-Sahara, Yemen, Somalia, Pakistan, 
Afghanistan, and Iraq. In my judgment, two of these havens 
currently stand out as the places most likely to produce potent 
cross-border attacks, Yemen and Pakistan.
    In Yemen, al-Qaeda in the Arabian Peninsula, headed by bin 
Laden's personal secretary, has emerged as the organization's 
most internationally ambitious and capable franchise. Because 
of political changes and conflicts in Yemen resulting from 
anti-government protests of this Arab Spring, the political and 
territorial spaces enjoyed by al-Qaeda in the Arabian Peninsula 
are likely to expand in Yemen during the next few years. The 
country now seems to be falling into civil war. It is likely 
that al-Qaeda and historically aligned Yemeni Islamic groups 
will seek and gain advantage in the country's coming turmoil, 
as they have done in previous eras of Yemeni civil conflict.
    In Pakistan, too, the current trend lines for American 
counterterrorism goals look difficult. The discovery and 
killing of Osama bin Laden in a walled compound not far from 
the Pakistan Military Academy has brought U.S.-Pakistani 
relations, already troubled, to a low point. This deterioration 
will have an impact on American intelligence collection and 
paramilitary activity in Pakistan.
    The United States has an obvious interest in Pakistan's 
success and stability. The country possesses the world's 
fastest-growing nuclear arsenal and is adopting defense 
policies that are likely to destabilize its military balance 
with India in the years ahead. The level of violence and 
pressure within Pakistan caused primarily by the Pakistani 
Taliban is very disturbing. Ultimately, only a stable, 
economically growing, pluralistic Pakistan with much stronger 
civilian leadership, healthier civil-military relations, and a 
more sustainable defense policy can prevent the country from 
remaining a terrorist haven.
    Over the long run, a more successful Pakistan will only 
emerge if its military and civilian elites decide that it is in 
the country's national interest to increase cooperation with 
India, particularly cooperation that will lead to greater 
economic integration in South Asia. Full peace is not necessary 
to produce the economic growth that has altered similar 
patterns of internal violence, government dysfunction, 
terrorism, and failed civil-military relations in countries 
such as Indonesia, Columbia, the Philippines, and Turkey.
    Another reset in American policy toward Pakistan is on the 
horizon. In the security realm, what seems required is a 
clearer, more focused, more manageable effort to identify and 
act on shared interests against al-Qaeda and in the transition 
ahead in Afghanistan. Both countries may benefit now from a 
period of less hopeful transformative America ambition and more 
clear-eyed focus on shared interests. At the same time, it 
would be helpful for the United States to reset its longer-term 
planning to construct a pragmatic vision to promote regional 
economic integration in South Asia as well as Pakistani 
economic growth.
    Thanks again for the opportunity to participate in this 
hearing.
    [The statement of Mr. Coll follows:]
                    Prepared Statement of Steve Coll
                              June 3, 2011
    Chairman McCaul, Ranking Member Keating, distinguished Members of 
the committee, thank you for the opportunity to testify today.
    In my testimony, I will address several of the questions the 
committee is exploring, with an emphasis on those areas where my 
experience is greatest. In particular, I will review: (1) An estimate 
of the threat al-Qaeda poses today; (2) which overseas havens currently 
pose the greatest threat to the United States; (3) the struggle of the 
United States to construct a successful policy toward Pakistan; and (4) 
some opportunities for improved Government reporting on terrorism 
raised by the findings of the General Accountability Office report, 
``Combating Terrorism: U.S. Government Should Improve Its Reporting on 
Terrorist Safe Havens.''
              al-qaeda after the death of osama bin laden
    Almost a decade after the September 11 attacks, the threat to the 
United States from al-Qaeda-related groups is diminishing but 
persistent.
    Most encouragingly, al-Qaeda has failed politically, and by doing 
so, has isolated itself. Its violence and absence of constructive 
political ideas and programs has caused Muslim populations and 
important constituencies to turn away, limiting its potential in 
recruitment and fundraising. The death of Osama bin Laden will 
challenge the group to manage the first leadership succession crisis in 
its history. Al-Qaeda will likely struggle continue in the forms it has 
presented since its founding in 1988. The odds are rising that it will 
fragment into even more autonomous regional groups and that some of 
those groups will turn increasingly to criminal activity such as 
kidnapping-for-ransom. Such criminality will accelerate a positive 
trend, namely, that al-Qaeda's claim on the grievances and imaginations 
of disenfranchised Muslims is waning.
    Yet no terrorist organization requires a mass following to inflict 
substantial and disruptive damage. Al-Qaeda remains capable from time 
to time of killing dozens, even hundreds of American citizens at once, 
including on American soil, as evidence from recent plotting makes 
clear. In September 2009, an Afghan-American who had been recruited by 
al-Qaeda, Najibullah Zazi, planned an attack against subway trains in 
Manhattan; Zazi had the intent and means to succeed, but fortunately, 
intelligence and law enforcement officers intercepted him. Three months 
later, Umar Farouq Abdulmutallab, a Nigerian who was recruited by al-
Qaeda in the Arabian Peninsula, attempted to destroy Northwest Flight 
253 as it vectored to land in Detroit. He, too, had the intention and 
means to succeed, but fortunately, his bomb makers were imperfect.
    External attacks of this scale have been attempted by al-Qaeda and 
related groups at regular intervals since September 11. Attempts of 
this magnitude are certain to continue. It is also conceivable that a 
small, talented, clandestine group, probably originating from Pakistan, 
could carry out a larger-scale, even more spectacular attack, for 
example, of the media-driven type witnessed in Mumbai, India, in 
November 2008. It would be very difficult for such a group to act 
within the United States without being detected first, but the 
possibility cannot be ruled out entirely, as the capacity and intention 
of some radicals in Pakistan to attack the United States directly 
clearly remains. Some Pakistani groups with international ambitions, 
such as Lashkar-e-Taiba, draw on well-educated volunteers who include 
scientists, doctors, and other talented urban professionals who might 
have the creativity and resources required. In addition, the ability of 
dangerous, determined groups to form and plan in Yemen is likely to 
grow as that country's internal conflicts worsen.
    More recently, homegrown attacks by radicalized individuals living 
in the United States have increased in frequency and seriousness. The 
most serious of these was the attack carried out by Maj. Nidal Malik 
Hasan, who killed 13 people at Fort Hood, Texas, in 2009.
    The nature and scale of all these threats must be kept in 
perspective. Last year, the New America Foundation and the Maxwell 
School at Syracuse University surveyed and analyzed the cases of the 
180 individuals indicted or convicted in Islamist terrorism cases in 
the United States since the September 11 attacks. The research found 
that only four of the homegrown attacks caused casualties in the United 
States, and that these attacks resulted in a total of 17 deaths--13 
from the Fort Hood attack. By way of comparison, according to the FBI, 
between 2001 and 2009, 73 people were killed in hate crimes in the 
United States. About 15,000 Americans are murdered each year.
                           the safe haven map
    In August, 2010, responding to a Congressional mandate, the State 
Department's Country Reports on Terrorism identified 13 terrorist safe 
havens: The Trans-Sahara (Algeria, Mali, Maritania, and Niger); 
Venezuela; the Colombia Border Region (Brazil, Ecuador, Panama, Peru, 
and Venezuela); the Tri-Border Area (Argentina, Brazil, and Paraguay); 
Yemen; Somalia; Pakistan; the Sulu/Sulawesi Seas Littoral (the maritime 
boundaries of Indonesia, Malaysia, and the Philippines); the Southern 
Philippines; Afghanistan; Northern Iraq; Iraq; and Lebanon.
    Of these 13, at least six currently contain al-Qaeda or related 
groups that have historically displayed international ambitions. These 
most prominent areas are the Trans-Sahara, Yemen, Somalia, Pakistan, 
Afghanistan, and Iraq. Inside all of these havens violence and 
kidnapping have been regular occurrences in recent years.
    In the case of Somalia there is incipient evidence of international 
terrorism, but most of the violence is local. But of the six havens 
with an al-Qaeda presence, two currently stand out in the open sources 
for the extent to which they have recently and will likely produce 
potent attacks beyond the borders of the haven: Yemen and Pakistan.
    Before we turn to those two cases, it is worth examining what is 
not marked on the State Department map. Understandably, for reasons of 
definition and foreign policy clarity, State defines safe havens in a 
way that emphasizes the impunity that terrorists or financiers may 
enjoy when they take root in ungoverned spaces or areas where local 
authorities find it convenient to collaborate with terrorist groups, 
for ideological or financial reasons, or because they are too weak to 
oppose the terrorists. This approach to thinking about safe havens 
inevitably produces a map biased toward weak states.
    Consider, by way of contrast, what a map of the actual planning, 
travel, and transit of convicted terrorists would look like. It would 
show many individuals spending many hours in hotel rooms, dormitories, 
and residential housing in the United States, Europe, Dubai, Asia and 
elsewhere--very often undetected. It would show almost all of those 
individuals using communications technologies rooted in the United 
States and distributed globally. The point here is that in 
conceptualizing the challenge of safe havens, it would be a mistake to 
locate our thinking only in the cartoonish image of a Dr. Evil holed up 
in a cave or foggy compounds beyond the reach of the law and Special 
Forces. Modern terrorism is a media-leveraging tactic embedded in the 
structures of our prosperous, globalized economy. It cannot be 
successfully contained if it is only considered as an external threat 
from weak states.
    An implication of this argument is that in addition to the sort of 
mapping analysis mandated of State in its Country Reports, it might be 
useful to Congress, in its oversight role, to obtain analysis of the 
terrorist threat that is more reverse-engineered from actual terrorist 
activity. What does this activity show about their use of actual havens 
and transit and communications corridors, whether of the traditional 
ungoverned-territory type or the post-modern, internet-and-airport-
lounge type? What policy-relevant insights might be obtained from such 
bottom-up analysis?
    Certainly, traditional, external havens in weak states, such as 
Pakistan and Yemen, remain very important. As I have argued, 
considering the residual international threat posed by al-Qaeda, they 
remain the two most important cases.
    In Yemen, al-Qaeda in the Arabian Peninsula, headed by Bin Laden's 
former personal secretary Nasir al-Wahayshi, has emerged as the 
organization's most internationally ambitious and capable franchise. 
Because of political changes and conflicts in Yemen resulting from 
anti-government protests of this Arab Spring, the political and 
territorial spaces enjoyed by AQAP are likely to expand in Yemen during 
the next few years. The country seems now to be falling into civil war. 
In recent, earlier eras of civil conflict in Yemen, al-Qaeda has 
exploited the fighting to gain space and allies, and it is likely to 
attempt this again.
    Al-Qaeda's roots in Yemen trace back decades. The bin Laden family 
immigrated to Saudi Arabia from the Hadramawt, an interior region of 
Yemen. Osama bin Laden identified with his family's roots in Yemen, 
particularly after he was deprived of Saudi citizenship; he financed 
and otherwise participated in Islamist uprisings there during the 
country's civil conflicts between 1990 and 1992; he reportedly explored 
moving to Yemen at later points; he took a wife from the country; and 
al-Qaeda has continually funded violent activity there. The most 
significant of these attacks was the bombing of the U.S.S. Cole in 
2000. Yemen's weak strongman President, Ali Abdullah Saleh, sought to 
co-opt Islamist groups and to contain al-Qaeda, particularly to the 
extent that its activity jeopardized American aid flows. His position 
became more difficult after 2003, when a crackdown on al-Qaeda cells in 
neighboring Saudi Arabia sent dozens of terrorist refugees scurrying to 
Yemen. They regrouped, particularly in the southern Abyan Governate. In 
general, Saleh's political influence has been weakened in the south by 
a succession movement there.
    The arrival in Yemen of American-born media innovator Anwar al-
Awlaki amplified these changes. Through his on-line magazine Inspire 
and various self-produced videos, al-Awlaki has become a significant 
voice in English-medium discourse for al-Qaeda, filling an important 
gap in the group's language channels. The extent of his operational 
role is not entirely clear from the open sources, but it is plain that 
he has participated in plotting international violence and recruiting, 
and that he has both the intent and the capability to facilitate 
significant violence.
    The course of anti-government protests against Saleh and their 
implications for Yemen's political future are unclear. Civil war 
increasingly seems a possibility, although who will win the current 
military confrontation between Saleh and some of his tribal opposition 
is difficult to predict. It is all but certain, however, that Yemen's 
weak central government will weaken further and that its recent 
internal conflicts--a mostly sectarian uprising in the north, a 
secession movement in the south--will accelerate and mix in with new 
conflicts.
    On May 29, news reports indicated that armed men had seized the 
town of Zinjibar in the Abyan Governate; officials in the capital of 
Sanaa claimed the rebels had ties to al-Qaeda. Such claims by a 
besieged dictator whose legitimacy in Western eyes has derived from his 
(partial) willingness to accommodate Western counterterrorism policy 
should be taken with a shaker full of salt. Nonetheless, it is likely 
that al-Qaeda and historically aligned Islamist groups will seek and 
gain advantage in Yemen's coming turmoil. During the civil war 20 years 
ago, they played a role in the fighting and, following victory, were 
rewarded by Saleh's relatively accommodating policies. They will likely 
seek a fighting role again.
    Saleh's irrational resistance to proposals for his resignation, and 
the violence his resistance has precipitated, has already weakened the 
state that his successor will inherit. All of this will make 
intelligence collection and the pursuit of pressure on AQAP through 
collaboration with Yemeni security forces more difficult. So far as is 
apparent in the open sources, the ability of the United States to 
collect intelligence and act unilaterally against al-Qaeda in Yemen is 
considerably more limited than in Pakistan and Afghanistan. The 
collapse of the Yemeni political order, the fragmentation of its 
security forces and the prospect of sustained internal conflict will 
make this harder still. Full-on civil war or a series of concurrent, 
intensifying internal conflicts may draw AQAP into local battles for a 
time but it may also provide them more resources and freedom of 
maneuver, particularly in southern Yemen, which faces pirate-infested 
sea channels across from ungoverned and al-Qaeda-influenced Somalia.
    In Pakistan, too, the current trend lines for American 
counterterrorism policy look unfavorable. The discovery and killing of 
Osama bin Laden in a walled compound in Abbottabad, not far from the 
Pakistan Military Academy, has brought U.S.-Pakistani relations, 
already troubled, to a low point, comparable at least in the levels of 
mutual mistrust to the breach in relations in the early 1990s. This 
deterioration of relations will have an impact on American intelligence 
collection and paramilitary activity in Pakistan. For example, Pakistan 
has demanded that the United States reduce the number of American 
military, diplomatic, and administrative personnel in the country; one 
of Pakistan's motivations is to reduce American intelligence collection 
capabilities within the country, and to channel a greater share of 
American intelligence activity through joint operations, where Pakistan 
can maintain greater control.
    The discovery of bin Laden in Abbottabad has raised questions about 
how and why sections of Pakistan's Army and intelligence service, the 
I.S.I., might provide haven to al-Qaeda. Many of the specific questions 
about whom in Pakistan's security services knew what about bin Laden's 
sanctuary may never be answered satisfactorily. But a few points can be 
made with relatively high confidence.
    First, in the Pakistani political economy, it is simply not 
possible to build an expensive, heavily secured, walled compound in a 
closely-policed town such as Abbottabad without collaboration from at 
least some government officials. For example, Pakistan has one of the 
lowest rates of tax participation in the world, even among countries of 
its economic profile. The reason is that police, intelligence officers, 
and other government officials routinely extort payments from wealthy 
householders to protect them from tax raids. It seems likely that at 
least some Pakistani officials were on the payroll of bin Laden's 
compound for this reason. Whether they would have known that bin Laden 
was living there, or where the money came from, is another matter. If 
I.S.I. officers were among those extracting supplemental incomes from 
the Abbottabad compound, as would seem possible, if not likely, they 
may or may not have informed their superiors. I.S.I. is a large, 
complex organization, a state within the Pakistani state; it is also an 
organized economic or criminal enterprise with diverse, autonomous, 
self-rewarding cells scattered throughout.
    Second, the circumstances in which bin Laden was discovered were 
not by themselves unusual. Listed terrorist leaders from anti-Indian 
organizations such as Lashkar e-Taiba and Jaish-e-Mohammed have lived 
for years in similarly ambiguous walled compounds and apartment 
buildings around Pakistan. The fugitive mastermind of the 1993 bombings 
in Mumbai, the underworld figure Ibrahim Daoud, has reportedly lived 
and prospered in Karachi for many years. Sometimes the circumstances of 
these listed terrorists are described by the Pakistani government as 
``house arrest;'' other times they are described as ``fugitives in 
hiding.'' The ambiguity is deliberately constructed by I.S.I. and the 
Pakistani state to maintain the greatest degree of flexibility at home 
and in its long-running struggle against India. Afghan Taliban leaders 
known to be living in exile in Pakistan presumably enjoy the same haven 
policies. That bin Laden, too, found a place in this much larger system 
is shocking to Americans because of the scale of murderous violence he 
authored on September 11. In the local context, however, the 
circumstances of his hiding place were not unusual among terrorists 
sheltering in the country.
    In Yemen, ``safe haven'' is largely a function of weak state 
formation. In Pakistan, the state is weak but the sources of haven are 
more varied and more directly tied to state policy. Fundamentally, 
Pakistan provides safe haven for violent Islamist groups, including 
listed terrorists such as al-Qaeda, for two reasons. First, the Army 
and I.S.I. find some of these groups to be useful levers in regional 
competition with India and Afghanistan. Second, having nurtured 
Islamist groups for three decades (initially, during the anti-Soviet 
war in Afghanistan, in collaboration with the United States), Pakistan 
has been weakened by their virulence and revolutionary ambition, and 
the state now lacks the capacity to wipe out the groups without paying 
a very high price and incurring great risks; accommodation, therefore, 
seems the wiser policy, even in the face of rising evidence that this 
approach may not work.
                      american policy in pakistan
    The United States has an obvious interest in Pakistan's success and 
stability. The country possesses the world's fastest-growing nuclear 
arsenal and is adopting defense policies that are likely to destabilize 
its military balance with India in the years ahead. The Pakistani 
Taliban, influenced and perhaps aided by al-Qaeda, has mounted an 
insurgency aimed at overthrowing the country's military and civilian 
leadership. The Pakistan Army has contained the insurgency at a high 
price, but the level of violence and pressure the Taliban is producing 
within Pakistan is very disturbing.
    Ultimately, only a stable, economically growing, pluralistic 
Pakistan with much stronger civilian leadership, healthier civil-
military relations, and a more sustainable defense policy can prevent 
the country from remaining a terrorist haven. American attempts to 
construct a policy that will aid the emergence of this Pakistan--a 
``normal'' if chronically troubled country--have evidently failed to 
date. Unfortunately, it may be beyond the capacity of the United States 
to decisively influence the outlook of the Pakistan Army and the I.S.I. 
about India and Pakistani National security, and it is the Army's 
outlook on security matters, more than any other factor, that has 
created the landscape in Pakistan we see today.
    Over the long run, a more successful Pakistan will only emerge if 
its military and civilian elites decide that it is in the country's 
national interest to increase cooperation with India, particularly 
cooperation that will lead to greater economic integration in South 
Asia. Full peace is not necessary to produce the sort of incentive-
changing trade and internal growth that has altered similar patterns of 
internal violence, terrorism, and failed civil-military relations 
during the past two decades, to varying degrees, in countries such as 
Indonesia, Colombia, the Philippines, and Turkey. India's high rates of 
economic growth are proving to be transformative within that country; 
to change, Pakistan needs greater access to that regional engine of 
growth and middle class formation.
    American policy toward Pakistan has long been imprisoned by 
compelling but narrow security imperatives--the invasion of 
Afghanistan, nuclear proliferation and the rise of al-Qaeda and related 
groups, to name three--at the expense of sustained, highly prioritized 
policy to pursue regional economic integration and broadly distributed 
Pakistani economic growth. Only the latter policy offers the hope of a 
Pakistan capable of delivering on its obligations and interests in the 
international system.
    In the mean time, once again, the United States' security interests 
remains trapped by short-term security needs. These are, currently, not 
only the problem of terrorism and safe havens, but also supply lines 
that run through Pakistan to support more than 100,000 American troops 
in Afghanistan. The need to reduce troop levels without empowering the 
Taliban or touching off civil war, a project that will require some 
degree of Pakistan's cooperation.
    Another ``reset'' in American policy toward Pakistan is on the 
horizon. In the security realm, what seems required is a clearer, more 
manageable effort to identify and act on shared interests--against al-
Qaeda, and in the transition ahead in Afghanistan. Both countries will 
benefit from a period of less hopeful, transformative ambition and more 
clear-eyed focus on shared interests. At the same time, it would be 
helpful for the United States to reset its medium-term and long-term 
planning to construct a pragmatic vision to promote regional economic 
integration and Pakistani growth.
                             the gao report
    In their report, ``Combating Terrorism: U.S. Government Should 
Improve Its Reporting on Terrorist Safe Havens,'' researchers at the 
General Accounting Office raise a number of interesting question about 
Congressionally-mandated reports on safe havens and terrorism more 
generally. Although this is not my particular area of experience or 
putative expertise, as an independent analyst who often makes use of 
this Government reporting, I thought I would offer a modest idea about 
how the reporting might be improved.
    Annual reporting on terrorism by State serves a number of purposes. 
It provides Congress with a sound, specific basis for oversight. It 
informs the public. It also coerces governments and security services 
that harbor or might consider harboring terrorists by calling attention 
to their activity in an influential way.
    It should be the ambition of the United States to produce credible 
reporting about states that support terrorism that is as effective and 
impactful as the reporting the State Department publishes annually 
about human rights. The State Department's annual human rights reports 
are credible and constructive. They provide a basis for substantial 
media reporting in countries where abuses occur; they provide cover for 
international civil society activists challenging local authoritarians 
and dictators; and they coerce and influence governments that receive 
unfavorable, embarrassing notice. In my judgment, State's human rights 
reports pull the occasional punch but in comparison to other Government 
reporting of this type they are generally honest, forthright, and 
highly credible. Partly this is because civil society investigators at 
groups such as Human Rights Watch and Amnesty International produce 
their own highly credible investigations; this marketplace effect helps 
keep State's work honest.
    The GAO points out a number of ways in which State's reports on 
safe havens and the counterterrorism policies of foreign governments 
could be improved. In my reading of the reporting, one problem is the 
extent to which the published assessments are compromised by the need 
not to offend flawed foreign security and intelligence services on 
which the United States depends for cooperation. In comparison to its 
human rights reporting, that is, the United States' counterterrorism 
reporting is less forthright and convincing.
    One way to counter this problem would be to commission annual 
analytic reports by independent experts--perhaps a standing commission, 
perhaps a rotating panel. Just as American economic policy benefits 
from the diverse views and debates generated by independent Federal 
Reserve governors, so might American counterterrorism policy benefit 
from assessments of safe havens, foreign government performance, and 
U.S. policy from experts who have no bureaucratic or policy equities at 
stake, and no operational need to shave the facts in order to get along 
with a particular foreign government. Such work need not be expensive; 
it would also have the benefits of aiding Congressional oversight, 
informing the public, and putting pressure on under-performing 
governments.
    Thank you again for the opportunity to participate in this hearing.

    Mr. McCaul. Thank you, Mr. Coll.
    Now the Chairman recognizes Professor Hoffman.

  STATEMENT OF BRUCE HOFFMAN, DIRECTOR, CENTER FOR PEACE AND 
     SECURITY STUDIES, DIRECTOR, SECURITY STUDIES PROGRAM, 
                     GEORGETOWN UNIVERSITY

    Mr. Hoffman. Thank you Chairman McCaul, Ranking Member 
Clarke, and Congressman Long for the opportunity to testify.
    History has shown that al-Qaeda is nothing without a 
physical sanctuary or safe haven. Indeed, this is why al-Qaeda 
has invested so much of its energy in recent years to 
strengthening the capabilities of its affiliated and associated 
movements in Pakistan, Yemen, and Somalia.
    Al-Qaeda has thus created a networked transnational 
movement in order to ensure its survival. Accordingly, rather 
than the single, monolithic entity of a decade ago, today there 
are several al-Qaedas, not just one, each of which has 
different capabilities and presents different, often unique, 
challenges.
    This effectively negates a one-size-fits-all strategy on 
our part. Indeed, countermeasures have to be tailored to the 
specific conditions and realities in each of these places where 
al-Qaeda and its franchises have taken root and indeed 
flourished.
    Al-Qaeda's strategy of survival in recent years has been 
predicated on the expansion and consolidation of its safe 
havens and sanctuaries in both South Asia and beyond. Its 
greatest success, of course, has been in Pakistan, but 
significant strides have been made in Yemen and Somalia as 
well. Indeed, since 2004, every major terrorist attack or plot 
against the United States or our European allies has emanated 
from al-Qaeda or its affiliates and associates based in 
Pakistan, Yemen, or Somalia. The majority of these attacks and 
plots have originated from Pakistan. Sizable numbers of Arabs, 
Turks, Chechens, Chinese, and Uzbeks comprise an international 
jihadi contingent based in Pakistan that, along with their 
indigenous allies and hosts have planned local, regional, and 
international terrorist operations on an ambitious scale.
    Although fewer in number, the plots that have originated 
from Yemen by al-Qaeda in the Arabian Peninsula have been no 
less serious and, if anything, even more ambitious. Not 
surprisingly, a succession of U.S. intelligence officials have 
expressed concern at the rapidity with which AQAP has emerged 
as a potent force in international terrorism, posing perhaps an 
even greater threat to U.S. security than its parent body.
    In al-Shabaab's case as well, American and European 
intelligence officials have been alarmed by the global 
ambitions and international radicalization and recruitment 
capabilities of this relative new Somali militant organization.
    All these incidents represent the fruition of al-Qaeda's 
strategy to fight its enemies on multiple fronts and from 
multiple bases. Accordingly, it conducts local campaigns of 
subversion and destabilization in critical operational theatres 
where failed or failing states provide new opportunities for 
al-Qaeda to extend its reach and consolidate its presence. 
Countries such as Pakistan, Somalia, and especially Yemen 
figure prominently within this category.
    Al-Qaeda also deliberately seeks to seek out citizens and 
residents of enemy countries who can then be brought to these 
sanctuaries and safe havens for training. Pakistan, Yemen, and 
Somalia again figure prominently in this strategy.
    Failing to deprive al-Qaeda and its affiliates and 
associates of these safe havens and sanctuaries will almost 
certainly give al-Qaeda new momentum and greater freedom of 
action than an expanded geographical ambit facilitates. This 
will require both continued U.S. military and intelligence 
operations in South Asia, alongside a continual scanning of the 
horizon to counter al-Qaeda's presence in and prevent its 
expansion to other failed and failing states.
    An effective strategy will combine the tactical elements of 
systematically destroying and weakening enemy capabilities 
alongside the equally critical, broader strategic imperative of 
breaking the cycle of terrorist and insurgent recruitment and 
replenishment that have respectively sustained al-Qaeda and 
fueled its allies in Yemen and Somalia as well. Enhanced and 
improved and better-coordinated information operations will be 
a critical element of this approach. This will also entail the 
building of host nation capabilities to a greater and more 
sustained extent than currently exists.
    In conclusion, it would be dangerously precipitous at this 
time to declare a total victory. Al-Qaeda's hopes of renewal 
and regeneration in the aftermath of bin Laden's killing rest 
on its continued access to the geographical sanctuaries and 
safe havens that the movement has always depended on and 
historically has used as bases from which to plot and plan and 
launch international terror strikes. Only by depriving al-Qaeda 
of those sanctuaries, destroying the organization's leadership, 
and disrupting the continued resonance of its message will al-
Qaeda finally be defeated.
    Thank you very much.
    [The statement of Bruce Hoffman follows:]
                  Prepared Statement of Bruce Hoffman*
---------------------------------------------------------------------------
    * Bruce Hoffman is Director of the Center for Peace and Security 
Studies and Director of the Security Studies Program at Georgetown 
University and a Senior Fellow at the U.S. Military Academy's Combating 
Terrorism Center.
---------------------------------------------------------------------------
                              June 3, 2011
    History has shown that al-Qaeda is nothing without a physical 
sanctuary or safe haven. Indeed, this is why al-Qaeda has invested so 
much of its energy in recent years to strengthening the capabilities of 
its affiliated and associated movements in Pakistan, Yemen, and 
Somalia. Al-Qaeda has thus created a networked transnational movement 
in order to ensure its survival. Accordingly, rather than the single, 
monolithic, entity of a decade ago, today there are several al-Qaedas, 
not just one: Each of which has different capabilities and presents 
different, often unique, challenges. This effectively negates a ``one-
size-fits-all'' strategy. Instead, countermeasures have to be tailored 
to the specific conditions and realities in each of these places where 
al-Qaeda and its franchises have taken root and indeed have flourished.
     the role of safe havens and sanctuaries in al-qaeda's strategy
    Al-Qaeda's strategy of survival in recent years has been predicated 
on the expansion and consolidation of its safe havens and sanctuaries 
in both South Asia and beyond. It's greatest success has of course been 
in Pakistan but significant strides have been made in Yemen and Somalia 
as well. Indeed, since 2004 every major terrorist attack or plot 
against the United States or our European allies has emanated from al-
Qaeda or its affiliates and associates based in Pakistan, Yemen, or 
Somalia.
    The majority of these attacks and plots have originated from 
Pakistan. Arabs, Turks, Chinese, Uzbeks, and Chechens comprise an 
international jihadi contingent based in Pakistan that, along with 
their indigenous allies and hosts have planned local, regional, and 
international terrorists operations on an ambitious scale. As Dame 
Eliza Manningham-Buller, then-Director General of the British Security 
Service (MI5), explained in a November 2006 speech, upwards of 30 
terrorist plots and attacks in the United Kingdom alone had been 
``linked back to al-Qaeda in Pakistan . . . through those links al-
Qaeda gives guidance and training to its largely British foot soldiers 
here on an extensive and growing scale.''\1\ Among the 30 incidents she 
referred were:
---------------------------------------------------------------------------
    \1\ Quoted in BBC News, ``Extracts from MI5 Chief's Speech,'' 
November 10, 2006 accessed at http://newsvote.bbc.co.uk/mpapps/
pagetools/print/news.bbc.co.uk/2/hl/news/6135000.stm.
---------------------------------------------------------------------------
  <bullet> The planned bombing of a London nightclub and a shopping 
        center in April 2004;
  <bullet> The 7 July 2005 suicide attacks on London transport that 
        killed 52 persons and wounded nearly a thousand others;
  <bullet> The abortive follow-on plot against the same target set in 
        London 2 weeks later; and
  <bullet> The attempt in August 2006 to bomb seven U.S. and Canadian 
        aircraft departing from London's Heathrow Airport.
    More recently, the following additional plots and attacks emanating 
from Pakistan, including several planned to occur in the United States 
have been detected. They include:
  <bullet> The January 2008 plan to attack transportation targets in 
        Barcelona, Spain that in turn was linked to another plot by a 
        sister terrorist cell in Germany;
  <bullet> The abortive plan to bomb New York City's Pennsylvania 
        Station on Thanksgiving day 2008;
  <bullet> The plots uncovered to stage attacks in Manchester, England 
        in April 2009 and in New York City against its subway system in 
        September 2009;
  <bullet> The attempt to detonate an explosive-packed SUV in New York 
        City's Times Square; and,
  <bullet> The plan to attack transportation targets in Berlin, Germany 
        that was uncovered just days before bin Laden's killing on 2 
        May 2010.
    Although fewer in number, the plots that have originated from Yemen 
by al-Qaeda in the Arabian Peninsula (AQAP), have been no less serious 
and, if anything, even more ambitious. Among them were:
  <bullet> The September 2009 attempted assassination of Prince 
        Mohammed bin Nayef in Saudi Arabia, the Deputy Interior 
        Minister responsible for counterterrorism in that country;
  <bullet> The Christmas day 2009 plot to explode a bomb aboard a 
        Northwest Airlines flight en route From Amsterdam to Detroit; 
        and,
  <bullet> The attempt to blow up American cargo planes uncovered in 
        September 2010 involving bombs disguised as photocopier printer 
        cartridges.
    Not surprisingly, a succession of U.S. intelligence officials have 
expressed concern at the rapidity with which AQAP has emerged as a 
potent force in international terrorism posing perhaps an even greater 
threat to U.S. security than its parent body.
    And, from Somalia a January 2010 plot by members of the al-Qaeda 
affiliate in that country, al-Shabaab (``The Youth'') to kill the 
Danish cartoonist responsible for drawings of the Prophet Muhammad that 
enraged the Muslim world. In al-Shabaab's case as well, American and 
European intelligence officials have been alarmed by the global 
ambitions, and international radicalization and recruitment 
capabilities of this relatively new Somali militant organization.
                    al-qaeda's strategy of survival
    All these incidents represent the fruition of al-Qaeda's strategy 
to fight its enemies on multiple fronts and from multiple bases. 
Accordingly, it conducts local campaigns of subversion and 
destabilization in critical operational theatres where failed or 
failing states provide new opportunities for al-Qaeda to extend its 
reach and consolidate its presence. Countries such as Pakistan, 
Somalia, and especially, Yemen prominently fall within this category.
    Al-Qaeda accordingly provides guidance, assistance, and other help 
to its local affiliates and associated terrorist movements. This 
support often appreciably enhances attack capabilities and strengthens 
the resilience of these groups thus presenting more formidable 
challenges to national and local police, military forces, and 
intelligence agencies. Al-Qaeda actively works behind the scenes to 
``plus up'' the capabilities of indigenous terrorists both in terms of 
kinetic as well as essential non-kinetic operations--including 
information operations, propaganda, and psychological warfare.
    Al-Qaeda's role in each of these theaters is thus critical. It 
serves as a ``force multiplier'': providing training and advice and 
otherwise building existing capacity among indigenous insurgent groups. 
The standard basic insurgent training package of riflery and field 
craft, for instance, is augmented by al-Qaeda instruction in advanced 
ambush techniques and the use and emplacement of increasingly 
sophisticated improvised explosive devices. Al-Qaeda additionally 
provides overall strategic guidance and assists in the coordination of 
operations between a variety of terrorist and insurgent groups. It 
imparts useful non-combat skills as well: Teaching local jihadis how to 
plan and execute psychological and information operations, make use of 
the internet for radicalization and recruitment purposes, and generally 
improve and strengthen operational expertise and organizational 
resiliency.
    Al-Qaeda also deliberately seeks out citizens and residents of 
enemy countries, who can then be brought to these sanctuaries and safe 
havens for training. Pakistan, Yemen, and Somalia have figured 
prominently in this strategy.
    For example, members of each of the British terrorist cells 
involved in the aforementioned plots and attacks in the United Kingdom 
between 2004 and 2006 were trained at the same al-Qaeda camp in 
Pakistan's Malakand Agency.
    Like these British plotters, Najibullah Zazi, the Afghan-born, 
Green Card holder who lived in Queens, New York, and ring-leader of the 
2009 plot to stage suicide attacks against the New York City subway, 
was also instructed in the fabrication of powerful homemade explosives 
using ordinary commercial ingredients like hair bleach (hydrogen 
peroxide) and acetone at an al-Qaeda facility in Pakistan.
    Zazi and his two fellow conspirators told FBI agents, that they had 
been trained in bomb making at an al-Qaeda camp in Pakistan. Senior al-
Qaeda commanders had overseen and directed the operation, which was 
linked to another set of attacks planned from Pakistan to occur in 
Manchester, England in April 2009. The superseding indictment of Zazi 
and the two other men filed by the U.S. Department of Justice on 7 July 
2010 unambiguously describes how this ``American-based al-Qaeda cell'' 
was commanded by ``leaders of al-Qaeda's external operations program 
[based in Pakistan who were] dedicated to terrorist attacks in the 
United States and other Western countries.''\2\
---------------------------------------------------------------------------
    \2\ United States District Court Eastern District of New York, 
United States of America v. Adis Medunjanin, Abid Nasser, Adnan El 
Shukrijumah, Tariq Ur Rehman, and FNU LNU, 7 July 2010.
---------------------------------------------------------------------------
    Umer Farouk Abdulmuttalab, the would-be Christmas day 2009 airline 
bomber, for example, was trained and prepared for his operation in 
Yemen by AQAP. It is believed that the group may have been responsible 
for recruiting, training, and deploying at least 7 other bombers--and, 
according to some reports, as many as 20--from Europe and the United 
States.
    According to Western intelligence sources, as of 2010, al-Qaeda has 
been able to train and deploy back to their home or adopted countries 
some 100 and 150 persons from Europe and the United States, among other 
locales.
    Finally, lest there be any remaining doubts about the importance of 
physical safe haven and training facilities to terrorist organizations 
in general and those within al-Qaeda's orbit in particular, the case of 
the nearly 30 young Somali-Americans who left the United States between 
2007 and 2008 to train in terrorism and guerrilla warfare in Somalia 
provides a salutary remainder.
    The youths were radicalized and recruited in the United States and 
trained in Somalia by al-Shabaab, the local al-Qaeda ally that 
deliberately emulates its mentor organization--down to its reliance on 
training camps and use of the internet for propaganda purposes.
    Indeed, it is believed that their trainer in Somalia was Saleh Ali 
Nabhan, the longtime al-Qaeda commander implicated in both the 1998 
bombing of the American embassy in Nairobi and the 2002 attack on 
Israeli tourists at a hotel in Mombassa, who was reportedly killed in 
September 2009 by U.S. special operations forces in Somalia. Two of 
these youths have become the first-known Americans to have carried out 
suicide terrorist attacks.\3\
---------------------------------------------------------------------------
    \3\ Spencer S. Hsu, ``Concern Grows Over Recruitment of Somali 
Americans by Islamists,'' Washington Post, 4 October 2009.
---------------------------------------------------------------------------
    The Annual Report 2008\4\ of the Netherlands' General Intelligence 
and Security Service (Algemene Inlichtingen en Veiligheidsdienst, or 
AIVD), had specifically called attention to the growing threat then 
posed by al-Qaeda and its allies because of the sanctuary they had 
established in Pakistan and elsewhere. The AIVD, it should be noted, is 
among the most professional and prescient of the world's intelligence 
and security agencies. Though far smaller than many of its Western 
counterparts,\5\ the AIVD is an elite and perspicacious service that is 
impressive for its early identification and incisive analysis of 
emerging trends.
---------------------------------------------------------------------------
    \4\ General Intelligence and Security Service, Annual Report 2008 
(The Hague: Ministry of the Interior and Kingdom Relations, 2009). The 
report can be accessed at: http://www.fas.org/irp/world/netherlands/
aivd-2008.pdf.
    \5\ The AIVD reportedly employs some 1,100 people. See DutchNews LG 
accessed at: http://www.dutchnews.nl/dictionary/2006/11/aivd.php.
---------------------------------------------------------------------------
    ``Al Qaeda's ability to commit and direct terrorist attacks has 
increased in recent years,'' the report, which was released in April 
2009, unequivocally states. ``The AIVD received a growing number of 
indications that individuals from Europe are receiving military 
training at camps in the Pakistan-Afghanistan border region.''\6\ 
Further elucidating this key point, the report goes on to explain how
---------------------------------------------------------------------------
    \6\ General Intelligence and Security Service, Annual Report 2008, 
p. 17.

``An analysis conducted in 2008 by the AIVD and verified by fellow 
services indicates that core Al Qaeda's ability to carry out terrorist 
attacks has increased in recent years. To a great extent, this is 
explained by the many alliances Al Qaeda has forged with other networks 
and groups, both in the Pakistan-Afghanistan border region itself and 
---------------------------------------------------------------------------
elsewhere in the Islamic world . . . 

``One development of particular concern is the growing evidence that 
people from Europe are undergoing military training at camps in the 
border region.''\7\
---------------------------------------------------------------------------
    \7\ Ibid., p. 19.

    The report's conclusion was as disquieting as it was sobering: 
``This could increase the ability of (core) al-Qaeda and its allies to 
commit or direct attacks in Europe.''\8\
---------------------------------------------------------------------------
    \8\ Ibid., p. 17.
---------------------------------------------------------------------------
    Earlier in 2008, Spanish authorities had uncovered a terrorist cell 
in Barcelona, that was planning terrorist attacks against 
transportation targets in that city. It was directed by the late 
Pakistani Taliban leader Beituallah Meshud (who was killed in a 
predator airstrike in 2009). In addition, terrorist cells of other 
Pakistanis in Belgium, the Netherlands, and Germany, among other places 
that were subsequently uncovered had similar plans and were also 
directed by Meshud's Taliban faction from Pakistan. Further, the German 
terrorists who in September 2008 were arrested and charged with 
plotting to bomb U.S. military targets in that country had also been 
trained in Pakistan at a camp run by the IJU (Union of Islamic Jihad), 
an Uzbek jihadi group closely allied to al-Qaeda.
             sanctuaries and safe havens matter to al-qaeda
    Despite the evidence to the contrary, the centrality of sanctuaries 
and safe havens to al-Qaeda and its allies and affiliates is often 
dismissed or discounted. This willful ignoring of recent history may be 
found in arguments claiming that al-Qaeda ``requires apartments and not 
acres''\9\ and therefore that the risk of al-Qaeda sanctuaries in 
failed or failing states is distorted and over-blown. It has been most 
cogently articulated by Paul R. Pillar, a former senior CIA officer, 
who maintains that planning for the 9/11 attacks did not take place in 
Afghanistan but in ``apartments in Germany, hotel rooms in Spain and 
flight schools in the United States.''\10\ Harvard University professor 
Stephen M. Walt made the same point on his Foreign Policy.com blog in 
2008 arguing that, ``The 9/11 plot was organized out of Hamburg, not 
Kabul or Kandahar, but nobody is proposing that we send troops to 
Germany to make sure there aren't `safe havens' operating there.''\11\
---------------------------------------------------------------------------
    \9\ Dr. Austin Long of Columbia University coined this phrase in an 
exchange on the foreign policy list-serve managed by Professor Robert 
Art, 8 September 2009.
    \10\ Paul R. Pillar, ``Who's Afraid of A Terrorist Haven?'' 
Washington Post, 16 September 2009.
    \11\ Stephen M. Walt, ``The `safe haven' myth,'' Foreign 
Policy.com, 18 August 2009 accessed at: http://walt.foreignpolicy.com/
posts/2009/08/18/the_safe_haven_myth.
---------------------------------------------------------------------------
    However, while it is true that follow-on, tactical planning did 
indeed occur in those places; according to the authoritative 9/11 
Commission Report,\12\ among other sources, the location and strategic 
genesis of the 9/11 attacks, however, indisputably came from al-Qaeda's 
physical sanctuary in Afghanistan. In late 1998/early 1999, for 
instance, the operation's mastermind, Khaled Sheik Mohammed (KSM), 
moved to Afghanistan at bin Laden's invitation precisely for this 
purpose.\13\ KSM had admittedly been mulling over such an operation 
ever since his nephew, Ramzi Ahmed Yousef, had returned to Pakistan 
following the 1993 Trade Center bombing--but the concrete steps towards 
the plot's execution did not take shape until KSM accepted bin Laden's 
invitation.\14\ Bin Laden subsequently took the idea forward in 
discussions with his military chief, Mohammed Atef, and KSM at al-
Qaeda's al Matar complex near Kandahar in the spring of 1999.\15\ An 
``elite'' training course was then organized for the four operatives 
originally selected to pilot the hijacked aircraft at al-Qaeda's Mes 
Aynak camp--also in Afghanistan.\16\
---------------------------------------------------------------------------
    \12\ Report of the National Commission on Terrorist Attacks Upon 
the United States, The 
9/11 Commission Report: Authorized Edition (New York & London, W.W. 
Norton & Company, 2004).
    \13\ Ibid., pp. 149-150.
    \14\ Ibid., p. 153.
    \15\ Ibid., p. 155.
    \16\ Ibid., pp. 156-159.
---------------------------------------------------------------------------
    It was only later, towards the end of 1999, that Mohammed Atta and 
the three other Hamburg operatives entered the picture when they came 
to Afghanistan to undergo training at al-Qaeda camps pursuant to 
fulfilling their desire to fight (and die) in Chechnya. It was at these 
al-Qaeda camps in Afghanistan that they were then recruited for the 9/
11 operation.\17\ KSM confirmed all this when he was interviewed by 
Pakistani journalist Yosri Fouda in 2002.\18\ And bin Ladin himself, in 
the famous ``Kandahar Tape,'' captured by U.S. forces in that city in 
November 2001 that was broadcast the following month, detailed his own 
intimate involvement in the planning of the 9/11 attacks--from exactly 
where he was sitting in Khandahar.
---------------------------------------------------------------------------
    \17\ Ibid., pp. 160-166.
    \18\ Yosri Fouda and Nick Fielding, Masterminds of Terror: The 
Truth Behind the Most Devastating Terrorist Attack Ever Seen (NY: 
Arcade, 2003), pp. 123-128.
---------------------------------------------------------------------------
    Additional al-Qaeda operations also were planned in Afghanistan. 
The 1999 ``Millennium Bomber,'' Ahmad Ressam, was trained by KSM at al-
Qaeda's al Farouk facility in Afghanistan.\19\ And, the 2003 Istanbul 
suicide bombings were originally conceived at al-Qaeda's camp outside 
of Kandahar immediately following the 9/11 attacks.\20\
---------------------------------------------------------------------------
    \19\ Report of the National Commission on Terrorist Attacks Upon 
the United States, The 
9/11 Commission Report, pp. 177, 261 & fn. 5, p. 500.
    \20\ Karl Vick, ``Al Qaeda's Hand In Istanbul Plot: Turks Met With 
Bin Laden,'' Washington Post, 13 February 2007, accessed at http://
www.washingtonpost.com/wp-dyn/content/article/2007/02/12/
AR2007021201715_pf.html.
---------------------------------------------------------------------------
                               conclusion
    To sum up, al-Qaeda's sanctuaries in Pakistan, Yemen, and Somalia 
largely account for the movement's survival. These three safe havens 
figure prominently in the threat that al-Qaeda continues to present to 
the United States and the West but also to stability and security of 
each of those countries today. Failing to deprive al-Qaeda and its 
affiliates and associates of these safe havens and sanctuaries will 
almost certainly give al-Qaeda new momentum and the greater freedom of 
action that an expanded geographical ambit facilitates. Accordingly 
sanctuary--and in the form of something larger than an apartment's 
confines and in the kind of permissive environment that the border 
straddling Afghanistan and Pakistan and parts of Yemen and Somalia 
afford--appears to be extremely important to, and highly valued by, al-
Qaeda and its allies.
    Al-Qaeda has been compared to the archetypal shark in the water 
that must keep moving forward--no matter how slowly or incrementally--
or die. Whether al-Qaeda can in fact do so--and thereby prove that it 
can survive following its founder and leader's killing last month--is 
surely the most pressing question of the moment.
    In these circumstances, the United States must remain vigilant and 
avoid complacency and the temptation to lower our guard. Al-Qaeda has 
always regarded this as a generational struggle that goes beyond the 
purview or interests of any one individual. The loss of Osama bin Laden 
will not affect that calculus.
    Accordingly, the United States should continue to kill and capture 
al-Qaeda leaders and operatives as it has so effectively done, 
especially during the past 3 years of stepped-up aerial drone attacks. 
At the same time, the United States must also continue to deprive al-
Qaeda and its leaders of the sanctuaries and safe havens that it 
depends on.
    Thus, the highest priority for the United States must be to 
concentrate our attention on al-Qaeda as a networked global 
phenomenon--not as in the past as one enemy, in one place, at one time. 
Today, there are several al-Qaedas in a variety of places, each with 
different capabilities. This will require both continued U.S. military 
and intelligence operations in South Asia alongside a continual 
scanning of the horizon to counter al-Qaeda's presence in, and prevent 
its expansion to, failing and failed states.
    At the foundation of the type of dynamic and adaptive strategy 
needed to defeat terrorists and insurgents alike in these variegated 
locales is the ineluctable axiom that successfully countering these 
threats is not exclusively a military endeavor but also involves 
fundamental parallel political, social, economic, and ideological 
activities.
    The predominantly tactical ``kill or capture'' approach and metric 
encapsulated by the targeted assassination-focused drone program is too 
narrow and does not sufficiently address the complexities of these 
unique operational environments. The adversaries and the threats that 
the United States faces today in Pakistan, Yemen, Somalia and elsewhere 
are much more elusive and complicated to be vanquished by mere 
decapitation. What is required to ensure success is a more integrated 
approach to a threat that is at once operationally durable, 
evolutionary, and elusive in character.
    An effective strategy will thus combine the tactical elements of 
systematically destroying and weakening enemy capabilities alongside 
the equally critical, broader strategic imperative of breaking the 
cycle of terrorist and insurgent recruitment and replenishment that 
have respectively sustained al-Qaeda and fueled and its allies in Yemen 
and Somalia as well.\21\ Enhanced, improved and better-coordinated 
information operations will be a critical element of this approach.\22\ 
These also will entail the building of host-nation capabilities to a 
greater and more sustained extent than currently exists.
---------------------------------------------------------------------------
    \21\ Secretary Gates made exactly this point in his September 2008 
speech at the National Defense University. ``In the long-term effort 
against terrorist networks and other extremists, we know that direct 
military force will continue to have a role. But we also understand 
that over the long term, we cannot kill or capture our way to victory. 
Where possible, kinetic operations should be subordinate to measures to 
promote better governance, economic programs to spur development, and 
efforts to address the grievances among the discontented from which the 
terrorists recruit.'' See U.S. Department of Defense, Office of the 
Assistant Secretary of Defense (Public Affairs), Speech: National 
Defense University (Washington, DC), As Delivered by Secretary of 
Defense Robert M. Gates, Washington, DC, Monday, September 29, 2008 
accessed at: http://www.defenselink.mil/utility/
printitem.aspx?print=http://www.defenselink.mil/speeches/
speech.aspx?speechid=1279.
    \22\ Secretary Gates was explicit on this point as well. ``Retired 
Marine Colonel T.X. Hammes has noted that where past insurgencies 
consisted of military campaigns supported by information operations, 
they now often consist of strategic communications campaigns supported 
by military operations. In Iraq and Afghanistan, extremists have made 
deft use of the internet and propaganda to misinform and intimidate 
local populations. See Ibid.
---------------------------------------------------------------------------
    In conclusion, it would be dangerously precipitous at this time to 
declare total victory. Al-Qaeda's hopes of renewal and re-generation in 
the aftermath of bin Laden's killing rest on its continued access to 
the geographical sanctuaries and safe havens that the movement has 
always depended on and historically have used as bases from which to 
plot and plan and launch international terrorist strikes. Only by 
depriving al-Qaeda of those sanctuaries, destroying the organization's 
leadership, and disrupting the continued resonance of its message will 
al-Qaeda finally be defeated.

    Mr. McCaul. Thank you.
    The Chairman now recognizes Professor Byman for his 
statement.

STATEMENT OF DANIEL L. BYMAN, SECURITY STUDIES PROGRAM, SCHOOL 
OF FOREIGN SERVICE AT GEORGETOWN UNIVERSITY, AND SENIOR FELLOW, 
 SABAN CENTER FOR MIDDLE EAST POLICY, THE BROOKINGS INSTITUTION

    Mr. Byman. Thank you.
    Chairman McCaul, Ranking Member Clarke, Members of the 
subcommittee, thank you for this opportunity to present my 
views today. Let me briefly summarize some of the points in my 
written testimony.
    As I think we all agree on this panel, the al-Qaeda core 
has an active operational as well as strategic role and has 
helped inspire and direct jihadists around the globe. The core 
has recovered from its low point in 2002 and now has a base in 
Pakistan from which it can plan and train. Maintaining pressure 
on the core is vital to keep it off-balance.
    Core operators also try to attract and direct the 
attentions and the actions of affiliate groups. These 
affiliated groups pose a range of dangers to the United States. 
Al-Qaeda in the Arabian Peninsula, which is based in Yemen, is 
increasingly important, given its record of near successes 
against the United States.
    The Shabaab in Somalia is another concern, given the 
radicalization of small numbers of Somali Americans.
    Affiliate groups, however, have different relations with 
the core and often do not fully embrace its objectives.
    The death of bin Laden is a serious blow to al-Qaeda. It is 
a blow to its image of strength. Bin Laden was a charismatic 
and capable leader, and in-fighting may occur now. In addition, 
recruitment and fund-raising may suffer. These problems in turn 
may make al-Qaeda less able to influence affiliate groups. The 
core, however, is likely to survive, even if it is less 
capable. It will be eager to conduct attacks to prove its 
relevance.
    The drone campaign is extremely important for striking the 
al-Qaeda core. The United States has few alternatives to acting 
in remote parts of Pakistan. Al-Qaeda has a finite number of 
skilled leaders, and their loss is a tremendous blow to it. The 
drone attacks also force the organization to communicate less, 
forces leaders to reduce the number of associates, and these 
leaders must also spend much of their time in hiding. This is 
difficult for any organization, but it is especially difficult 
for an organization that is having to deal with a major 
leadership transition.
    The Arab Spring also requires fundamental changes in U.S. 
counterterrorism policy. The change sweeping the Arab world 
undermines the al-Qaeda message, but, at the same time, it 
offers terrorists far more operational freedom. The United 
States must exploit the threat to al-Qaeda's message and 
encourage a smooth transition to democracy in countries like 
Egypt and Tunisia, while continuing counterterrorism 
partnerships and building new ones.
    In addition to aggressive efforts abroad, U.S. officials 
must consider how American foreign policy can lead to domestic 
radicalization. The case of the radicalization of Somalia 
Americans is instructive, as a relatively minor 
counterterrorism operation overseas helped create a potentially 
dangerous problem at home. Also at home, the FBI and State 
officials should redouble their efforts to know Muslim 
communities and to gain their trust.
    In the end, however, it is difficult to separate over there 
from here. U.S. intelligence and Homeland Defense should focus 
particular attention on seam areas where the United States is 
attackable outside of U.S. soil, such as on airplanes 
transiting from airports overseas to airports in the United 
States.
    I thank you for this opportunity to testify, and I would 
welcome your questions.
    [The statement of Mr. Byman follows:]
                 Prepared Statement of Daniel L. Byman
                              June 3, 2011
    Chairman McCaul, Ranking Member Keating, Members of the 
subcommittee and subcommittee staff, thank you for this opportunity to 
present my views before you today.
    The death of bin Ladin poses a major setback for al-Qaeda. 
Nevertheless, the al-Qaeda core remains a danger to the United States, 
as do al-Qaeda affiliates. These organizations are capable of mounting 
attacks against the U.S. homeland in the years to come, and the danger 
they pose to U.S. allies in Europe and in the Muslim world is even 
greater. However, al-Qaeda and its allies suffer from many weaknesses, 
are fractious in the best of times, and in general are under 
considerable strain.
    I would urge this subcommittee to consider several recommendations 
as it strives to improve U.S. homeland security. Fighting the al-Qaeda 
core in Pakistan should remain at the center of U.S. counterterrorism 
policy, even after bin Ladin's death. With the death of bin Ladin there 
is an additional opportunity to weaken al-Qaeda's relationship with 
affiliate groups, one of the core's most important sources of strength. 
The aggressive U.S. drone campaign in Pakistan has played an important 
role in weakening al-Qaeda and should be continued. The drone campaign 
will not end the al-Qaeda presence in Pakistan, but it does keep the 
organization on the run and reduces its operational effectiveness.
    The ``Arab Spring'' also requires fundamental changes in U.S. 
counterterrorism policy. The change sweeping the Arab world undermines 
al-Qaeda's message but, at the same time, offers terrorists more 
operational freedom. The United States must exploit the threat to al-
Qaeda's message and encourage a smooth transition to democracy while 
continuing counterterrorism partnerships and building new ones.
    In addition to aggressive efforts abroad, U.S. officials must 
consider how American foreign policy can lead to domestic 
radicalization and ensure that U.S. policy does not unnecessarily 
alienate key domestic constituencies. At home the FBI and State 
officials should redouble efforts to know local Muslim communities and 
gain their trust.
    In the end, however, it is difficult to separate ``over there'' 
from ``here.'' U.S. intelligence and homeland defense should focus on 
``seam'' areas--where the United States is attackable outside of U.S. 
soil, such as on airplanes transiting from airports overseas to 
airports in the United States.
    My testimony will address several issues: 1. The danger from the 
al-Qaeda core in Pakistan after the death of bin Ladin; 2. The 
importance of the drone campaign; 3. The role of al-Qaeda-linked 
affiliate groups; 4. The nature of the threat to the U.S. homeland; 5. 
The impact of the ``Arab Spring'' on counterterrorism; and 6. Policy 
recommendations for increasing the security of the U.S. homeland.
                   i. the state of the al-qaeda core
    Despite claims that the al-Qaeda core became largely irrelevant 
after 9/11, in reality it remained active in proselytizing, plotting 
anti-Western terrorist attacks, and supporting insurgencies in the 
Muslim world.\1\ The al-Qaeda core revived after the collapse of the 
Taliban in 2001 and its loss of a haven in Afghanistan. Over time, the 
group became more entrenched in parts of Pakistan. While Islamabad had 
made fitful efforts to uproot it, some of the jihadist groups that the 
regime nurtured and tolerated to fight India and advance Pakistani 
interests in Afghanistan have turned against the regime. Al-Qaeda now 
has close ties to Laskkar-e Janghvi, Jaish-e Mohammed, and other groups 
that have tens of thousands of supporters in Pakistan, and its reach is 
considerable in non-tribal parts of the country.
---------------------------------------------------------------------------
    \1\ For a leading proponent of the view that al-Qaeda was weak and 
decentralized, see Marc Sageman, Leaderless Jihad: Terror Networks in 
the 21st Century (Philadelphia: University of Pennsylvania Press, 
2008). However, several official U.S. and U.K. government statements 
and documents support the assessment that the al-Qaeda core remains 
active. National Intelligence Council, ``National Intelligence 
Estimate: The Terrorist Threat to the U.S. Homeland,'' unclassified key 
judgments (July 2007), p. 1; Dennis C. Blair, ``Annual Threat 
Assessment of the Intelligence Community for the Senate Select 
Committee on Intelligence,'' February 12, 2009, pp. 5-6; ``Speech by 
the Director General of the Security Service,'' Queen Mary's College, 
London, November 9, 2006; and Jonathan Evans, ``Intelligence, Counter 
Terrorism and Trust,'' November 5, 2007. Available at: www.mi5.gov.uk.
---------------------------------------------------------------------------
    In this sanctuary al-Qaeda has planned, recruited, issued 
propaganda, and trained the next round of attackers. Al-Qaeda played a 
major role in the 2005 attacks on the transportation system in 
London.\2\ Writing in 2008, terrorism expert Peter Bergen describes the 
bombings as ``a classic al-Qaeda plot.''\3\ Al-Qaeda appears to have 
organized, coordinated, or otherwise played a major role in foiled 2004 
attacks in the United Kingdom on a nightclub or a shopping mall; plans 
to bomb economic targets in several American cities; and the 2006 plan 
to simultaneously blow up perhaps ten airplanes as they went from the 
United Kingdom to the United States.\4\ Press reporting indicates that 
operatives with links to Pakistan played a role in the spring 2009 
Manchester plot that British security services disrupted--all those 
alleged to be involved were of Pakistani origin.\5\ Terrorism expert 
Bruce Hoffman found that al-Qaeda was actively involved in virtually 
all major terrorist plots in the United Kingdom since 2003.\6\
---------------------------------------------------------------------------
    \2\ See ``Were They Directed from Abroad?'' Honourable House of 
Commons, Report of the Official Account of the Bombings in London on 
the July 2005 (London: The Stationary Office, May 2006), pp. 20-21; 
Robert Winnett and David Leppard, ``Leaked No 10 Dossier Reveals Al-
Qaeda's British Recruits,'' Sunday Times, July 10, 2005 available at: 
http://www.timesonline.co.uk/tol/news/uk/article542420.ece; Bruce 
Riedel, The Search for Al Qaeda (Brookings, 2008); Bruce Hoffman, 
``Challenges for the U.S. Special Operations Command Posed by the 
Global Terrorist Threat: Al Qaeda on the Run or on the March?'' written 
testimony submitted to the U.S. House of Representatives Committee on 
Armed Services Subcommittee on Terrorism, Unconventional Threats, and 
Capabilities, February 14, 2007,'' pp. 11-13; Bruce Hoffman, 
``Radicalization and Subversion: Al Qaeda and the 7 July 2005 Bombings 
and the 2006 Airline Bombing Plot,'' Studies in Conflict and Terrorism, 
32 (2009), p. 1102; and Bruce Hoffman, ``The 7 July 2005 Bombings,'' 
unpublished paper.
    \3\ Peter Bergen, ``Al Qaeda, the Organization: A Five Year 
Forecast,'' Annals of the American Association of Political Science 
(July 2008), p. 15.
    \4\ Hoffman, ``Challenges for the U.S. Special Operations 
Command,'' pp. 11, 13-14; Richard Greenberg, Paul Cruickshank, and 
Chris Hansen, ``Inside the Terror Plot that `Rivaled 9/11,' '' 
MSNBC.com, September 16, 2008.
    \5\ Sarah Laville, Richard Norton-Taylor, and Vikram Dodd, 
``Student visa link to terror raids as Gordon Brown points finger at 
Pakistan,'' Guardian, available at: http://www.guardian.co.uk/uk/2009/
apr/10/student-visa-terror-arrests-link; House of Commons, 
``Examination of Witnesses,'' statement of James Fergusson, available 
at: http://www.publications.parliament.uk/pa/cm200809/cmselect/cmfaff/
302/9042103.htm.
    \6\ Hoffman, ``Challenges for the U.S. Special Operations 
Command,'' p. 11.
---------------------------------------------------------------------------
    Outside of the United Kingdom, German government officials claimed 
that they disrupted a plot to attack U.S. and German targets in Germany 
in 2007 involving three men, none of whom were of Pakistani origin, who 
trained at camps in Pakistan.\7\ The Danish government also reported a 
disrupted plot linked to Pakistan in 2007. France and Italy have also 
reported al-Qaeda-linked plots.
---------------------------------------------------------------------------
    \7\ Craig Whitlock, ``Germany Says It Foiled Bomb Plot,'' 
Washington Post, September 6, 2007.
---------------------------------------------------------------------------
    Al-Qaeda has carried out numerous terrorist attacks in Pakistan 
today, working both on its own and with various Pakistani groups. It 
tried to kill former President Pervez Musharraf several times and 
probably was responsible for the assassination of Benazir Bhutto in 
2007.\8\
---------------------------------------------------------------------------
    \8\ Riedel, The Search for Al-Qaeda, p. 125.
---------------------------------------------------------------------------
    Al-Qaeda's own thinkers stress the importance of maintaining a 
haven and seem to have little faith in decentralized, bottom-up 
efforts. Al-Qaeda itself was consciously constituted as a vanguard. Bin 
Ladin's deputy and heir-apparent, Ayman al-Zawahiri contended even as 
his movement was being expelled from Afghanistan that, ``the mujahid 
[fighter for the faith] Islamic movement will not triumph against the 
world coalition unless it possesses a Islamist base in the heart of the 
Islamic world.''\9\
---------------------------------------------------------------------------
    \9\ Zawahiri, Knights under the Prophet's Banner. Serialized in Al-
Sharq al Awsat (London) 2-10 December 2001, trans. Foreign Broadcast 
Information Service, document FBIS-NES-2001-1202, maintained on-line by 
the Federation of American Scientists, http://fas.org/irp/world/para/
aymanh_bk.html.
---------------------------------------------------------------------------
    The al-Qaeda core issues propaganda to radicalize Muslims and helps 
recruit potential terrorists, trains them, and offers guidance for 
specific attacks. As a result, local individuals become far more 
dangerous when they are able to interact with al-Qaeda core members.
Impact of the Death of bin Ladin
    Bin Ladin's death is a significant blow to al-Qaeda. Bin Ladin, 
Hoffman notes, ``played an active role at every level of al-Qaeda 
operations: from planning to targeting and from networking to 
propaganda. ``\10\ Beyond his operational role, his survival was a form 
of successful defiance. The world's biggest military and most powerful 
country made him public enemy No. 1 for almost 10 years and failed to 
find him. To bin Ladin's supporters, only God's protection explained 
this mystery.
---------------------------------------------------------------------------
    \10\ Bruce Hoffman, ``The Leaderless Jihad's Leader,'' Foreign 
Affairs, May 13, 2011, http://www.foreignaffairs.com/articles/67851/
bruce-hoffman/the-leaderless-jihads-leader.
---------------------------------------------------------------------------
    Because of the successful U.S. attack, the aura of divine 
protection has diminished not only for bin Ladin, but by association 
his cause. A new leader like Zawahiri is an effective operator but has 
far less starpower than bin Ladin and is unlikely to inspire Muslims as 
effectively. More prosaically, but no less importantly, al-Qaeda will 
find it hard to recruit and fundraise without bin Ladin to lead their 
cause.
    Within the jihadist movement, bin Ladin often pushed back against 
the tendency toward slaughter that manifested in Iraq and Algeria. In 
such countries, so-called ``taqfiris'' (who saw other Muslims who did 
not adhere to their extreme views as apostates) made war on their own 
societies, killing other Muslims and often making civil strife a 
priority over striking U.S. or regime targets. Bin Ladin counseled 
against this tendency and tried to put his resources behind leaders who 
embraced his agenda rather than killed their co-religionists on a mass 
scale.
    In short, bin Ladin was both a symbol of the movement and an 
effective strategic and operational leader. It would be glib to assume 
his death means the movement is finished. At the same time, however, 
the organization has suffered a tremendous blow.
                ii. the importance of the drone campaign
    The U.S. drone campaign against al-Qaeda, begun under Bush and put 
on steroids under Obama, has taken out dozens of al-Qaeda figures, 
primarily in Pakistan. In 2010, the United States launched over 100 
drone attacks in Pakistan, according to the New America Foundation.\11\ 
Those killed were far less prominent than bin Ladin, but in many cases 
their skills were in short supply and difficult to replace. Al-Qaeda 
struggles to find seasoned and skilled new leaders, and even when it 
can it takes time to integrate them into the organization. Even more 
important, but even harder to see, al-Qaeda lieutenants must limit 
communications to stop U.S. eavesdropping that could lead to 
airstrikes, reduce their circle of associates to avoid spies, and avoid 
public exposure, all of which make them far less effective as leaders. 
This makes it harder, though not impossible, for them to pull off 
sophisticated attacks that require long-term planning.
---------------------------------------------------------------------------
    \11\ See data compiled by Peter Bergen and Katherine Tiedemann, 
``The Year of the Drone'' at http://counterterrorism.newamerica.net/
drones.
---------------------------------------------------------------------------
    Although innocent civilians do die in these attacks, the number of 
non-combatant deaths is often exaggerated and has been declining. 
According to Peter Bergen and Katherine Tiedemann, ``According to our 
estimates, the nonmilitant fatality rate since 2004 is approximately 25 
percent, and in 2010, the figure has been more like 6 percent--an 
improvement that is likely the result of increased numbers of U.S. 
spies in Pakistan's tribal areas, better targeting, more intelligence 
cooperation with the Pakistani military, and smaller missiles.''\12\ 
Such innocent deaths are still considerable, and errant strikes have 
the potential to worsen U.S.-Pakistan relations, but drone strikes are 
often far less bloody than alternatives such as Pakistani military 
attacks or U.S. attacks by manned fixed-wing aircraft. In addition, 
drone strikes involve no risk of U.S. personnel.
---------------------------------------------------------------------------
    \12\ Peter Bergen and Katherine Tiedemann, ``There Were More Drone 
Strikes--And Far Fewer Civilians Killed,'' Foreign Policy, December 22, 
2010, available at: http://newamerica.net/node/41927.
---------------------------------------------------------------------------
    Killing terrorist group lieutenants on a large scale can devastate 
a group. There may still be thousands of people who hate the United 
States and want to take up arms, but without bomb-makers, passport-
forgers, and leaders to direct their actions they are often reduced to 
menacing bumblers, easier to disrupt and often more a danger to 
themselves than to their enemies.
                        iii. al-qaeda affiliates
    Because of the blows the al-Qaeda core has suffered, attention is 
increasingly focused on al-Qaeda affiliates. The most notable of these 
affiliates include al-Qaeda in the Arabian Peninsula (AQAP), al-Qaeda 
of Iraq (AQI), al-Qaeda of the Islamic Maghreb (AQIM), and al-Shabaab 
in Somalia. Al-Qaeda also has ties to a range of other salafi-jihadist 
groups, at times working with them against U.S. or allied interests and 
in other cases simply supporting the local groups' struggles against 
various regimes.\13\
---------------------------------------------------------------------------
    \13\ AQIM remains focused on the greater Maghreb area, but it is 
more anti-Western in its operations than in the past. On the road to 
becoming AQIM the GPSC expanded its primary focus to include France as 
well as the Algerian regime. The group also began to strike U.N. and 
Israeli targets and go after Algeria's energy infrastructure, none of 
which were a priority in the past. Suicide bombings, hitherto one of 
the few horrors the GSPC did not inflict, grew more frequent, along 
with Iraq-style car bombs. In addition, with the NATO intervention in 
Libya AQIM should be a concern to Western officials. In Pakistan, where 
al-Qaeda's influence has spread since 9/11, there were two suicide 
attacks in 2002; by 2010 there were over 50, which killed over 1,000 
people. Al-Qaeda allies in Pakistan attack both the Pakistani state and 
support anti-U.S. forces in Afghanistan. And AQI, of course, attacks 
U.S. forces in Iraq. See Lianne Kennedy Boudali, ``The GSCP: Newest 
Franchise in Al-Qa'ida's Global Jihad,'' April 2, 2007, available at: 
http://www.ctc.usma.edu/posts/the-gspc-newest-franchise-in-al-qaidas-
global-jihad; ``2010 bloodiest year in Pakistan since 2001,'' The 
Economic Times Online, December 24, 2010, available at http://
articles.economictimes.indiatimes.com/2010-12-24/news/
27599872_1_suicide-khyber-pakhtunkhwa-province-personnel.
---------------------------------------------------------------------------
    The Yemen-based AQAP began to receive far more attention from U.S. 
homeland security officials after the 2009 Christmas day bombing plot, 
in which a Nigerian recruit almost blew up a passenger airplane landing 
in Detroit. Al-Qaeda has long had operatives and associates in Yemen, 
but for most of the last decade they focused on targets in Yemen or in 
the region. The Yemeni regime effectively crushed the threat after 9/
11, but a 2006 jailbreak and a lapse in U.S. and Yemeni attention 
reinvigorated the jihadists.\14\ At the same time the Saudi government 
successfully suppressed what had briefly seemed to be a serious 
jihadist threat to the regime, and many Saudi fighters fled to Yemen. 
In 2009 the Saudi and Yemeni branches claimed to merge under the AQAP 
banner and took a more global focus, attacking not just Yemeni and 
Western targets in the region but also conducting international 
terrorism such as the Christmas bombing plot and the October 2010 plan 
to blow up two cargo planes as they neared U.S. cities.\15\ Some U.S. 
officials claim that AQAP is more dangerous than al-Qaeda.
---------------------------------------------------------------------------
    \14\ See in particular ``Testimony of Gregory D. Johnsen,'' before 
the Senate Foreign Relations Committee, January 20, 2010.
    \15\ For an overview of this danger, see Christopher Boucek, 
``Terrorist Threat to the U.S. Homeland--Al-Qaeda in the Arabian 
Peninsula (AQAP),'' Testimony before the House Committee on Homeland 
Security Subcommittee on Counterterrorism and Intelligence, March 2, 
2011.
---------------------------------------------------------------------------
    It is difficult to come to firm conclusions about how to view al-
Qaeda affiliates.\16\ There is no single way to join al-Qaeda, nor is 
it always clear when a group should be viewed as under the al-Qaeda 
core's control. Al-Qaeda does not demand sole allegiance: it supports 
local struggles even as it pursues its own war against the United 
States and its allies. So group members can be part of al-Qaeda's ranks 
and loyal fighters in their local organizations.
---------------------------------------------------------------------------
    \16\ For an excellent recent review of how al-Qaeda views 
affiliation, see Barak Mendelsohn, ``Al-Qaeda's Franchising Strategy,'' 
Survival (Summer 2011), http://www.iiss.org/publications/survival/
survival-2011/year-2011-issue-3/al-qaedas-franchising-strategy/.
---------------------------------------------------------------------------
    Groups often straddle their old and new identities, trying to keep 
up their local activities while also attacking more global targets. 
Often this is a time of infighting within a group, with key leaders 
pulling in different directions. Somalia's al-Shabaab, for instance, 
appears to be in such a phase today.\17\ Some parts of the organization 
cooperate with al-Qaeda, with foreign jihadis playing leading roles in 
tactics and operations. But others within the movement--probably the 
majority, in fact--oppose the control of the foreigners, with some even 
publicly condemning terrorism and even working with international 
humanitarian relief efforts. Al-Shabaab could become ``al-Qaeda of the 
Horn of Africa,'' but this is not yet a done deal. And if it happens, 
it could split the group.\18\
---------------------------------------------------------------------------
    \17\ International Crisis Group, ``Somalia's Divided Islamists,'' 
May 18, 2010.
    \18\ See Bronwyn Burton, ``In the Quicksands of Somalia,'' Foreign 
Affairs (November/December 2009), available at http://
www.foreignaffairs.com/articles/65462/bronwyn-bruton/in-the-quicksands-
of-somalia.
---------------------------------------------------------------------------
The Benefits and Risks of Affiliation
    Al-Qaeda seeks not only to change the Islamic world, but also to 
shift the orientation of jihad from the local to the global--and here 
affiliates play a crucial role. Historically, most jihadist resistance 
movements have focused on their own territory or on throwing out 
foreign troops, but bin Ladin successfully convinced groups that 
striking the United States and its allies is more important to this 
victory than fighting more proximate enemies.
    For the al-Qaeda core, affiliates provide hundreds or even 
thousands of fighters, donors, smuggling networks, and sympathetic 
preachers who offer religious legitimacy. For example, when al-Qaeda 
needed to get its fighters out of Afghanistan after the fall of the 
Taliban, they relied on the logistical assistance of Sunni radicals in 
Pakistan; the Libyan Islamic Fighting Group helped them obtain false 
travel documents.
    Al-Qaeda affiliates also offer access to immigrant and diaspora 
communities--a group like Somalia's al-Shabaab, with its connections to 
the Somali-American population, would be a prize asset. In 2010 a 
Somali-American from Portland was arrested for planning to bomb a 
Christmas tree lighting ceremony in Portland.\19\ (There is no 
indication I have seen, however, that the individual was linked to the 
al-Qaeda core).
---------------------------------------------------------------------------
    \19\ See ``Somali-American accused of plotting to bomb Oregon tree-
lighting event,'' November 27, 2010. http://articles.cnn.com/2010-11-
27/justice/oregon.bomb.plot_1_tree-lighting-justice-department-
portland-resident?_s=PM:CRIME.
---------------------------------------------------------------------------
    Al-Qaeda franchises, in turn, often get money from the al-Qaeda 
core or others in its fundraising network. Al-Qaeda also has web and 
media specialists, recruiters, trainers, and other experts in its 
global rolodex, all available to help a local franchise.
    In the past, an al-Qaeda label is also a potential recruiting 
boon--it may help a group attract new members who hate the West and the 
United States but were not motivated by the group's past, more local, 
rhetoric. Less tangibly, the al-Qaeda brand also can give credibility 
to groups struggling at home. Groups like al-Shabaab often have an 
inchoate ideology; al-Qaeda offers them a coherent alternative. The 
death of bin Ladin, for now at least, diminishes the attractiveness of 
the al-Qaeda brand.
    Gaining affiliates may raise al-Qaeda's profile and extend its 
reach, but it also poses risks for the core. The biggest is the lack of 
control. Nowhere was this more apparent than Iraq. Beginning at least 
in 2005, al-Qaeda core leaders tried to push Iraqi fighters waging 
guerrilla war under the banner of al-Qaeda in Iraq not to slaughter 
Shi'a Muslims, and especially not Sunni civilians, but to no avail. As 
the bloodshed rose, al-Qaeda funders and supporters pointed their 
fingers not only at AQI leaders, but also at the al-Qaeda core.
    The risk is even greater for affiliates. When they take on the al-
Qaeda label, they also take on al-Qaeda enemies. The United States not 
only conducts direct attacks on al-Qaeda-related individuals and 
targets their recruiting and financial infrastructure, but Washington 
also can offer its allies intelligence, financial support, paramilitary 
capabilities, and other vital forms of assistance, creating new 
headaches for groups that are already beleaguered. They also move 
farther away from their original goal of fighting the local regime. 
Because of these risks, the decision to join al-Qaeda's ranks often 
angers more sensible group members who retain local ambitions.
           iv. the nature of the threat to the u.s. homeland
    The U.S. homeland is safer than it was in the months before 9/11, 
and the death of bin Ladin is a further blow to al-Qaeda. Yet the 
danger of terrorism remains real. As I and others have noted, there is 
a real chance that in revenge an al-Qaeda sympathizer or member will 
attack a U.S. target, ideally (from the terrorists' point of view) in 
the U.S. homeland but also, primarily for operational reasons, on U.S. 
persons and facilities overseas. Al-Qaeda itself also has a strong 
incentive to conduct an attack in order to prove its relevance at a 
time when many question whether it can continue after bin Ladin's 
death.
    There have been few attacks on the U.S. homeland since 9/11, and 
one only serious terrorist success--Major Nidal Malik Hasan's shooting 
of 13 Americans at Fort Hood in Texas. Hasan does not appear to have 
any direct linkages to the al-Qaeda core, but he was in email contact 
with AQAP member, and U.S. citizen, Anwar al-Awlaki, the ideologue and 
operator who was also linked to AQAP's attempted attacks on U.S. 
aviation targets in 2009 and 2010.
    Despite Hasan's action, in general the U.S. homeland has enjoyed 
far more freedom from terrorism than I and many experts predicted in 
the months after 9/11. I believe this good fortune stems from several 
factors. The destruction of al-Qaeda's haven in Afghanistan and the 
global intelligence and law enforcement hunt for group members and 
supporters dealt major blows to the core's operational capability and 
global reach. At home, the FBI and other organizations focused 
intensely on al-Qaeda, making it harder for the terrorists to pass 
unnoticed. Although there are individual exceptions, the U.S. Muslim 
community is not radicalized. Indeed, in several important terrorism 
cases community members have worked with U.S. law enforcement, 
providing invaluable tips.
    Ironically, the terrorism charges levied against various Americans 
in the years immediately after 9/11 seemed to confirm how much safer 
our country was. The FBI would often announce arrests of suspects with 
great drama, but those charged were often common criminals or unskilled 
dreamers, talking big but with little ability to carry out their 
schemes. Those arrested had little or no training, and--just as 
importantly--they did not seem to know how to get in touch with the al-
Qaeda core. In the end, the Government would often charge them with 
minor, non-terrorism related crimes such as fraud or violating their 
immigration status.
    Yet there is reason to believe that all these factors are changing 
for the worse in recent years. As discussed above, al-Qaeda has revived 
somewhat in Pakistan, enabling it to plan and train more effectively 
than it could in the years after losing its base in Afghanistan. This 
revival is why the September 19, 2009, arrest of Najibullah Zazi is so 
disturbing to homeland defense officials. Zazi, a legal Afghan resident 
of the United States for many years, pled guilty in 2010 to planning to 
bomb several targets in New York. Unlike the unskilled attackers who 
were arrested in the past, Zazi admitted he was trained in Pakistan 
where he was instructed to carry out a suicide bombing.\20\
---------------------------------------------------------------------------
    \20\ United States Department of Justice, ``Najibullah Zazi Pleads 
Guilty to Conspiracy to Use Explosives Against Persons or Property in 
U.S., Conspiracy to Murder Abroad, and Providing Material Support to 
Al-Qaeda,'' February 22, 2010.
---------------------------------------------------------------------------
    Nor is Pakistan the only problem. On October 28, 2008, Shirwa Ahmed 
became the first American suicide bomber, killing himself in Somalia's 
civil war on behalf of the Islamist group al-Shabaab.\21\ Ahmed was 
part of two groups of perhaps 20 Somali-Americans who grew up in 
Minneapolis and became radicalized after the Ethiopian invasion of 
Somalia in 2006. The Somali-American community from which he came has 
more in common with the Algerians in the banlieues in Paris than the 
affluent Arab Muslim community of the United States. By one estimate 60 
percent of the Somalis in the United States, a community estimated as 
high as 200,000 people, live in poverty, and many young men drop out of 
school and turn to crime.
---------------------------------------------------------------------------
    \21\ In 2009, al-Qaeda's No. 2 Zawahiri called Shabaab advances in 
Somalia ``a step on the path of victory of Islam,'' while Shabaab would 
pledge allegiance to bin Laden. The group even used Alabama native Omar 
Hammani, who spoke under the name Abu Mansoor al-Amriki (``the 
American''), to do a video critique of President Barack Obama's speech 
in Cairo earlier in the year.
---------------------------------------------------------------------------
    While the conflict in Somalia may seem distant to most Americans, 
the U.S. role there is considerable--and Somali-Americans know it well. 
In the minds of many Somalis, the 2008 U.S. airstrike that killed Aden 
Hashi Ayro, a Shabaab leader, fused Somalia's historic enemy Ethiopia 
and the United States. The result, in Somalia expert Ken Menkhaus' 
words, was that ``fierce levels of anti-Americanism took root among 
many Somalis at home and abroad.''\22\ In September 2009, the United 
States struck again, killing another al-Qaeda figure there, Saleh Ali 
Saleh Nabhan. So far, none of the Somali-Americans who went overseas 
have planned to return home and attack, but the Shabaab's move toward 
al-Qaeda and the anger at U.S. policy are a disturbing combination.
---------------------------------------------------------------------------
    \22\ Testimony of Ken Menkhaus, ``Violent Islamic Extremism: Al-
Shabaab Recruitment in America,'' before the Committee on Homeland 
Security and Governmental Affairs, United States Senate, March 11, 
2009.
---------------------------------------------------------------------------
    One of the biggest dangers involves ``seam'' areas that involve 
borders, airspace, and other security spots that are the responsibility 
of multiple countries--areas where homeland security meets foreign 
policy. Al-Qaeda and affiliate groups have far more sympathizers in 
foreign countries and better logistics networks there as well, making 
it easier for them to launch attacks from there rather than in the 
United States. Several of the most deadly terrorist plots in the last 
decade--the 2003 ``shoebomber'' attempt to blow up American Airlines 
flight 63 in 2001, the 2009 and 2010 AQAP attempts on civil and 
commercial aviation, a United Kingdom cell's 2006 plan to bomb as many 
as ten transatlantic flights--would have had devastating effects on the 
U.S. homeland but were not based in the United States. Instead, these 
involved the al-Qaeda core in Pakistan working with members and 
sympathizers, usually in Europe, to attack the U.S. homeland.\23\
---------------------------------------------------------------------------
    \23\ BBC News, `` `Airliners Plot': The Allegations,'' April 3, 
2008, available at: http://news.bbc.co.uk/2/hi/uk_news/7329221.stm; 
Riedel, The Search for Al-Qaeda, p. 131.
---------------------------------------------------------------------------
    Radicalization from abroad is another homeland security problem. 
Anwar al-Awlaki left the United States in 2002 and went to Yemen in 
2004. From there, his fluent English and comprehensive understanding of 
U.S. culture enabled him to radicalize individuals like Major Hasan and 
perhaps others--activities that would have led to his arrest had he 
remained in the United States.
                v. counterterrorism and the arab spring
    Al-Qaeda is dangerous not just because it has hundreds of skilled 
fighters under arms, but also because tens of thousands of Muslims have 
found its calls for violent change compelling. When dictators reigned 
supreme in Arab lands, al-Qaeda could score points by emphasizing its 
struggle against despotism. When dictators like Mubarak fall, however, 
al-Qaeda loses one of its best recruiting pitches: the repression Arab 
governments inflict on their citizens and the stagnant societies that 
result. The possible emergence of less repressive and more dynamic 
leaders would remove a popular issue from al-Qaeda propagandists.
    Although the word democracy itself often means different things to 
different audiences, polls suggest that the generic concept is quite 
popular in the Arab world, as befits a region that knows first-hand how 
brutal autocracy can be.\24\ In contrast, al-Qaeda believes that 
democracy is blasphemous because it places man's word above God's.
---------------------------------------------------------------------------
    \24\ See for example http://pewresearch.org/pubs/1874/egypt-
protests-democracy-islam-influence-politics-islamic-extremism.
---------------------------------------------------------------------------
    Even more ominous for al-Qaeda is the way in which Mubarak and Ben 
Ali fell. Al-Qaeda's narrative is that violence carried out in the name 
of God is the only way to force change. Further damaging al-Qaeda's 
message, change occurred without blows being struck first at the United 
States. Al-Qaeda has long insisted that you must first destroy the 
region's supposed puppetmaster in Washington (or Jerusalem) before 
change will come to Cairo or Tripoli. Events have shown idealistic 
young people dreaming of a new order--in, say, Jordan or Morocco--that 
you do not need to strike at Westerners and that peaceful change is 
possible.
    Finally, bin Ladin must also have lamented that the youth of 
various Arab countries are leading the revolution. Young people, 
especially young men, are al-Qaeda's key demographic, the ones al-Qaeda 
propagandists expect to take up arms. For over a decade, al-Qaeda 
portrayed it fighters as audacious and honorable defenders of Muslim 
lands. In some circles they are cool. Now youth in the Arab world are 
afire with ideas of freedom and non-violent action.
    Though the revolutions make al-Qaeda's message less compelling, it 
may still gain traction in the Arab world through greater freedom of 
operation. Arab tyranny often served U.S. purposes. U.S. 
counterterrorism officials have long praised countries like Egypt for 
their aggressive efforts against terrorism and their cooperation with 
the United States. Even Qaddafi--long derided as the ``Mad Dog of the 
Middle East''--since 9/11 has been valued as a partner against al-
Qaeda.
    New governments in the Arab world will not necessarily be anti-
American, but if they take popular opinion into account, cooperation 
will not be as close as it had been with governments like Mubarak's. 
The security services that have fought al-Qaeda and its affiliates have 
also imprisoned peaceful bloggers, beat up Islamist organizers to 
intimidate them, and censored pro-democracy newspapers. Indeed, one 
measure of how much progress the Arab regimes are making toward 
democracy will be how much these services are purged. New security 
officials will be inexperienced, and conspiracy theories about U.S. 
intelligence have run amok in the Arab world. U.S. intelligence 
officers would probably be seen as coup plotters rather than partners. 
Islamists are likely to be particularly suspicious of intelligence 
cooperation.
    In addition, during the unrest some jails in Libya and Egypt have 
emptied, and the ranks of newly-freed jihadists multiplied. In both 
countries, many of the jailed jihadists turned away from violence in 
the last decade, producing bitter polemics against al-Qaeda (and an 
even more vitriolic al-Qaeda response) in recent years. Nevertheless, 
among those released are some true believers in jihad who are willing 
to wreak havoc upon their perceived enemies.
    Even in countries where the autocrats cling to power, security 
services are likely to be less effective against jihadists. At the very 
least, the security services of Morocco, Algeria, and other countries 
that have seen protests will make the democratic dissenters their top 
priority, not suspected terrorists.
    For now, there is reason to hope that revolutions in the Arab world 
will end up a net plus for counterterrorism. But hope should be 
balanced with the recognition that in the short-term al-Qaeda will gain 
operational freedom and that the United States and its allies need to 
act now if they are to prevent al-Qaeda from reaping long-term benefits 
from the upheavals.
                       vi. policy recommendations
    I would urge this subcommittee to consider several recommendations 
as it strives to improve U.S. homeland security. First, fighting the 
al-Qaeda core in Pakistan should remain at the center of U.S. 
counterterrorism policy, even after bin Ladin's death. Having a secure 
haven is often a make or break issue for terrorist groups, and al-
Qaeda's strength there is a deadly danger. Because of the danger this 
haven presents, and because Pakistan is at best a fitful 
counterterrorism partner, the United States must continue an aggressive 
drone campaign. Drone strikes, however, are not a substitute for 
forcing Pakistan to crack down on terrorist groups and secure its own 
territory. Zazi, for example, managed to receive training after the 
drone strikes began in earnest, and other terrorist recruits can do so 
too.
    Second, we need to consider how American foreign policy can lead to 
domestic radicalization. Killing an al-Qaeda leader in Somalia can be a 
blow to the organization there, but the decision on whether to pull the 
trigger or not should also factor in the risk of radicalizing an 
immigrant group here at home, not just the operational benefit of 
removing one leader from the organization.
    Third, bin Ladin's death also offers a further opportunity to 
reduce links between the al-Qaeda core and al-Qaeda affiliates. 
Zawahiri does not have bin Ladin's charisma, and in the past his 
leadership has been more polemical and divisive. Affiliates may be more 
reluctant to follow him, particularly if al-Qaeda core fundraising 
efforts suffer after bin Ladin's death and the drone campaign makes it 
difficult for Zawahiri to communicate regularly with affiliate leaders. 
Conversely, atrocities by one branch of al-Qaeda discredit the core, as 
has happened with AQI.
    Fourth, the United States needs to prepare for low-end threats as 
well as high-level dangers. For homeland defense purposes, the al-Qaeda 
core represents an unusual set of leaders and operatives: Most are 
highly skilled and dedicated, well-trained, and meticulous about 
operational security. Affiliate members, however, are often less 
careful--their organizations grew up amidst a civil war, and 
accordingly focused more on maintaining an insurgency as opposed to a 
limited number of high-profile terrorist attacks.
    A vexing dilemma for U.S. policy concerns groups that may be moving 
toward al-Qaeda but have not yet made the leap. Many al-Qaeda 
affiliates always hated the United States and its allies and, even 
before they took on the al-Qaeda label, had members who trained or 
worked with al-Qaeda in a limited way. Their focus, however, was 
primarily on local issues. Because their groups had some ties to al-
Qaeda, the Bush and Obama administrations began to target them and 
encourage others to do so. As a result, the groups became more anti-
American, creating a vicious circle. Administrations are damned either 
way: ignoring the group allows potential threat to grow worse and risks 
an attack from out of the blue. But taking them on may mean driving 
some deeper into al-Qaeda's fold.
    Fourth, U.S. intelligence and homeland defense should focus on 
``seam'' areas--where the U.S. homeland is attackable from outside the 
country, such as on airplanes transiting from airports overseas to U.S. 
soil. U.S. officials should continue to try to improve integration 
between domestic and foreign-focused agencies and, at the same time, 
ensure that domestic-focused agencies are in touch with the relevant 
non-U.S. agencies in key countries.
    Fifth, at home the FBI and State officials should redouble efforts 
to know local Muslim communities and gain their trust. Counterterrorism 
involves not only drone attacks, but also social services for immigrant 
communities and courtesy calls to local religious leaders to hear their 
concerns and assure them that the United States continues to welcome 
them. Whether it be concerns over radicalization of Somali-Americans or 
other recent immigrant groups, outreach and successful immigration is 
vital for counterterrorism.
    Finally, U.S. counterterrorism policy must incorporate the ``Arab 
Spring'' into its strategic planning, and U.S. regional policy toward 
the new regimes (and surviving old ones) must continue to emphasize 
counterterrorism. U.S. public diplomacy efforts should relentlessly 
highlight al-Qaeda's criticisms of democracy and emphasize the now-
credible argument that reform can come through peaceful change. The 
message should be spread by television and radio, as always, but 
specific attention should be given to the internet given the importance 
of reaching young men in particular.
    Washington also needs a new policy towards Islamists. Ignoring the 
Muslim Brotherhood and other Islamist movements seemed prudent to both 
Republican and Democratic administrations when they had little chance 
of gaining power. In particular, the United States should make it clear 
that it does not want these movements frozen out of government, but 
rather wants them to participate. The price for this participation is 
more moderate policies at home and abroad. Inevitably, this will lead 
to tension, as these Islamist groups seek policies that do not jibe 
with U.S. preferences, but their alienation could be a disaster for 
U.S. counterterrorism.
    More quietly, the United States should renew efforts to train the 
intelligence and security forces of new regimes, particularly if there 
are widespread purges. The first step is simply to gain their trust, as 
the new leaders are likely to see their U.S. counterparts as bulwarks 
of the old order and a possible source of counterrevolution. Many of 
the security services' leaders will be new to counterterrorism. Even 
more important, they will be unaccustomed to the difficult task of 
balancing civil liberties and aggressive efforts against terrorism. 
Here the FBI and Western domestic intelligence services have much to 
offer.
    Recognizing these dilemmas and implementing (or continuing to 
implement) these policy recommendations will not end the threat from 
terrorism. However, they can make the United States more secure as the 
terrorism threat continues to evolve.

    Mr. McCaul. Thank you, Professor Byman.
    Let me start out with just a personal experience I had.
    A couple of years ago I visited Afghanistan and Pakistan, 
and in Afghanistan I visited our troops around the 4th of July 
on the border of Afghanistan and Pakistan. At that time, they 
told me at one of the bases three of their soldiers had been 
killed the day before we arrived, and they are very barbaric in 
the way they kill our soldiers. But they said to me, 
Congressman, they are coming out of there--and they point at 
Pakistan--and they are coming over here, and they are killing 
us.
    I remember coming back here and met with the President, 
then President Bush, and talked to him about the threat of the 
tribal area in Pakistan, in the Fattah, that they were breeding 
there, they were training in the tribal area. He recognized 
that that was a serious concern, and I think not too long after 
that conversation we had the drone project that you mentioned, 
Professor Byman, which I think has been very successful in 
terms of taking out high-value targets, and I think their 
command-and-control structure has been greatly damaged by the 
drone project.
    But the question I wanted to ask before I go on about that 
issue is, just Pakistan in general, Mr. Coll, I think all of 
you are experts, but I wanted to ask you particularly, when I 
visited them, they would talk about Madiyar, for instance, and 
they would study his battle plans from the Soviet days and how 
can we battle with him.
    But the ISI continues to be a troubling issue for the 
American people and the Congress in the sense that they always 
play this double game, if you will, or they like to play both 
sides of the fence, while on the one hand cooperating with us 
on some high-value targets and on the other hand protecting 
extremists when it is in their best interests, like for 
interest in the Kashmir area where you mentioned the issue with 
India. Cooperation with India I think would go a long ways.
    But this double game I think really came to a head when we 
saw the killing of bin Laden and we saw where he was living for 
quite a few years. It is very troubling to me, because if you 
look, there is a diagram up there about the compound, the 
location. As I mentioned in my opening statement, it is less 
than a mile away, which is half the distance between here and 
the Washington Monument, to what is the equivalent of 
Pakistan's West Point Academy. You have retired military in 
this community surrounding this compound; and you have ISI 
agents, as I understand, in the area as well. This is not a 
normal house. It really was a large compound, very heavily 
fortified, very suspicious looking in a sort of military area.
    It leads me to the question of our relationship with 
Pakistan and where do we go from here. Because, in my judgment, 
it is hard for anybody to believe that they didn't know he was 
there, and the question is at what level did the Pakistani 
government know about this. I believe that either they are 
complicit or they are incompetent. Either they are complicit in 
providing material support to the most wanted terrorist by 
providing him a safe haven, or they are totally incompetent to 
not know he was there.
    So, with that, let me just throw that question out first to 
you, Mr. Coll, in terms of what is your assessment of this 
picture and how does this affect and impact our relationship 
with a very dicey country, Pakistan, who has been known to 
proliferate nuclear weapons?
    Mr. Coll. Well, thank you, Mr. Chairman.
    First, I would associate myself with your observations and 
analysis. I think you described the picture well.
    The circumstantial evidence about the house in Abbottabad 
raises very disturbing questions about the knowledge that 
almost certainly must have been present in at least some 
sections of the Pakistani government about this unusual 
compound. I hope that over time we will discover more about how 
far up the chain of command in Pakistan such knowledge might 
have gone.
    Just a couple of quick observations about the compound.
    Pakistan has one of the lowest rates of tax participation 
in the world, even for a poor country. One of the reasons why 
official tax participation is so low is that if you build a 
million dollar house in the middle of a security town, someone 
knocks on your door and says, I have a way for you to avoid 
taxes, and that is put me on your payroll.
    The person who knocks on the door is almost always at least 
a regional official of the government, the police. In a town 
like Abbottabad, it certainly raises the question of whether 
ISI wouldn't have been involved in such a racket. ISI is best 
understood as a criminal enterprise as well as a security 
agency. It is involved in many rackets around the country.
    Second, it is important for Americans to understand I think 
that the ambiguity and the nature of the haven that bin Laden 
found in Pakistan is not by itself unusual in the country. From 
India's perspective, there are five or six listed terrorists 
living around the country in similar circumstances. Sometimes 
they are judged to be under house arrest. Sometimes they are 
notional fugitives. Sometimes they really are difficult to 
find. But many of these people have either admitted to or been 
credibly charged with mass killings on Indian soil.
    So these patterns look outrageous to the United States when 
the personality is somebody like Osama bin Laden, but in the 
context of the way Pakistan has evolved over the last 10 years, 
his circumstances were not by themselves unusual.
    Just on the question of what it poses by way of challenge 
to the United States and Pakistan, I think it is a useful wake-
up call to both sides. The fundamental problem, as you point 
out, is that the Pakistani military and intelligence service 
has not been held accountable over a long period of time 
adequately by its partners or by its own people. It has made it 
difficult for its own people to hold the services accountable 
by often ruling directly or suppressing those who question the 
military's supremacy.
    But I think for the United States this is an opportunity to 
come to a more effective grip with the fact that the United 
States and Pakistan do not always see these very important 
security questions the same way and to try to hold Pakistan's 
military to greater account, even while acknowledging the 
sacrifices that its soldiers have made in their own war on 
terrorism and the shared interests that will endure between the 
two countries.
    Mr. McCaul. Thank you.
    I think it also calls into question as we go into the 
appropriations cycle the billions of dollars we provide to 
Pakistan in foreign aid. We have known they have played this 
game for quite some time. Like you, boy, they need to be held 
accountable; and we need some answers as to whether they are 
complicit with us or not.
    Professor Hoffman and Professor Byman, do you have any 
observations?
    Mr. Hoffman. Thank you, sir.
    I agree with your remarks and also Mr. Coll's. But I would 
suggest there may even be a third explanation that goes beyond 
complicity or incompetence but rather willful ignorance, is 
that it was simply better and preferable not to ask.
    But I think on this question of the double game you talk 
about, it extends even beyond whatever protection may have been 
afforded to Osama bin Laden. As I am sure you know, right now 
in Federal District Court in Chicago there is a trial of 
someone named Tahawwur Rana, and testimony is being made by 
David Headley, who is an agent of the ISI, to the effect that 
one of his ISI handlers, someone named Major Iqbal, not only 
knew of the Mumbai plot but also made absolutely no effort to 
stop the plans of LeT to target American citizens, both at the 
Jewish Chabat House but also at the hotel. Yet we haven't seen 
any convincing denials from Pakistan. We haven't seen any, at 
least to my knowledge, any investigations about who this Major 
Iqbal is and what his role is, and I think this is another area 
where we need to hold Pakistan very accountable.
    Mr. McCaul. That is a great point. How many other of these 
wanted terrorists are being provided with safe haven by 
Pakistan, who we provide so much aid to and purportedly work 
together with to eradicate the terrorists?
    Professor Byman, do you have any comments?
    Mr. Byman. To briefly add, Pakistan has long had what it 
feels are strategic interests in both Afghanistan and India in 
terms of ensuring a friendly government to Afghanistan and I 
would say one dominated by Pakistan and India in preventing 
Kashmir from becoming I will say a normal part of the Indian 
union and, as a result, its work with a range of militant 
groups.
    We think of al-Qaeda, of course, as a terrorist group, but 
it is also an organization that has put a tremendous amount of 
energy into working with insurgencies around the region. In 
this capacity, I will say it is hard to say where al-Qaeda 
begins and where some of the components of its network begin. 
But certainly components of the network have been extremely 
useful to Pakistan and India and in Afghanistan. So it is very 
hard for us to make progress on the counterterrorism front 
without making progress on Afghanistan and Kashmir, which makes 
this exceptionally difficult.
    Mr. McCaul. I think you and Mr. Coll have raised that same 
issue, and I think it is a very good point.
    My time has now expired. I recognize the Ranking Member, 
Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman. I want to thank Ms. 
Clarke, too. I appreciate that.
    I think the greatest concern we have right now is the 
possibility of terrorists getting hold of nuclear weapons, and 
that brings Pakistan front and center in that regard, the way 
we are proceeding with Pakistan, I think clearly some of the 
issues about weak governance and some of the strong anti-
American sentiment that exists there and the limited ability we 
have to really monitor the programs.
    Now, the President has said he is going to call forth now 
to really measure accountability in metrics, in real metrics. 
For the entire panel, could you comment on what kind of metrics 
this could be measured in? How can this be tangibly monitored 
and how can we hold Pakistan accountable?
    Most everyone now, I think Senator Kerry when he returned 
from a meeting in Pakistan, had said that it is going to be 
more what you do, not what you say. So it seems like Senator 
Kerry and the President are on the same page. They are looking 
for tangible metrics that can be measured.
    So if you can comment on how you think we could measure 
what those metrics should consist of, I would be appreciative.
    Mr. Coll. I think that is an excellent question and subject 
and a very important direction for U.S. policy.
    You can start with the observations that the Chairman made 
about these compounds in Pakistan. The first metric would be 
the status under the law of listed terrorists known to be 
residing in Pakistan. There is a substantial body of open-
source evidence about a number of listed terrorists, a U.N. 
list of terrorist, so it doesn't even have to be something 
coming directly from the United States, whose status under the 
law is confused or unsatisfactory.
    I think there are two other important areas where the 
United States has the capacity itself to monitor the conduct of 
Pakistani security services in its relations with militant 
groups. There is always a debate about what the true capacity 
of the Pakistani state is to do more.
    The Pakistanis use their own weakness as a defense against 
accountability, but there are some areas where the state's 
capacity to control terrorist activity is clear. One of those 
is in the cross-border movements of militants from Pakistani 
territory into Indian-held Kashmir, for example.
    That border is essentially a military zone. Nobody moves 
across that border without the Pakistan Army's permission. The 
Indians have been watching the Army send armed young men with 
groups like Lashkar across that border with impunity for years, 
and the United States has not made a priority of holding 
Pakistan to account for the rates of infiltration. It would be 
unreasonable to say you should have zero infiltration in this 
complex territory, big mountains, but the rates of infiltration 
that Pakistan has allowed suggests state policy.
    Similarly, on the Afghan border where American lives and 
security interests are even more directly at stake, surely 
there are metrics to monitor the actual conduct of Pakistani 
security services to prevent cross-border infiltration, 
applying some rule of reason as to what the state's capacity 
really is and then holding the state to that account.
    Mr. Keating. Do any of the other panelists wish to comment 
on that?
    Mr. Hoffman. Well, I agree completely with what Mr. Coll 
has said. I would only add that I think some of the metrics are 
the degree of cooperation, and I think now at least publicly 
cooperation is flattening rather than increasing. The number 
of, for instance, U.S. military trainers in Pakistan has 
decreased. The number of CIA intelligence operatives has also 
decreased. So I think it is really the strength of cooperation.
    Some of these things, the metrics may be able to be 
publicly stated but the reporting of them may have to remain 
classified. But I think these are enormously illustrative of 
the degree and extent that Pakistan is sincere about 
cooperation against terrorism.
    Mr. Keating. I just have a few seconds left, so I apologize 
for giving a difficult question so quickly. But how would you 
suggest and what would be some of the benefits or dangers of 
linking our foreign aid to these measurable metrics? Do you 
think there is a way to do that? Do you think there is a danger 
in doing it too closely, or do you think there is a benefit?
    Mr. Hoffman. I don't think we have much choice. I think 
that the problem is that from the Pakistani perspective, they 
believe in essence they have us over the barrel. They know that 
we require their cooperation. Yet I think it has been either a 
blank check during the Musharraf time, or now what they see as 
an open checkbook. So I think it is our only leverage that we 
can exert over them.
    Mr. Keating. Do any of you think that that could be 
measured so that there is some accountability for their own 
actions?
    Mr. Coll. I think there has always been or there has often 
been from Congress sources of conditionality attached to U.S. 
aid to Pakistan. But it has often been the Executive branch's 
prerogative to judge Pakistan's performance and the criteria 
have often been general or abstract. Whatever the degree of 
sort of automatic trigger that such accountability might 
involve, I think it would be a helpful change to attach 
specific metrics of the sort we are talking about to that 
finding. Even if the Executive branch retains some discretion, 
our Executive branch ought to be held accountable around some 
of these same specific issues, rather than just a generalized 
sense that things are good enough.
    Mr. Keating. I just want to thank you. I couldn't agree 
with you more. I think that some countries use their own 
weaknesses as an excuse. So thank you very much.
    I yield back my time.
    Mr. McCaul. Thank you. I agree. This is excellent testimony 
as we go into the foreign aid appropriations cycle that we need 
to use these metrics, because clearly the location of the bin 
Laden compound I think calls into serious question Pakistan's 
cooperation with the United States.
    With that, I recognize the gentleman from Missouri, Mr. 
Long.
    Mr. Long. Thank you, Mr. Chairman.
    A question for all three of you, I guess, however you can 
best answer it. But it has been said that al-Qaeda on the 
Arabian Peninsula has put its American supporters on a noble 
quest to vanquish injustice and save the world from invading 
evil. However, we know that al-Qaeda has killed far more 
Muslims than it has Americans.
    So how do we as the U.S. Government go about debunking and 
countering this message?
    Mr. Byman. Mr. Long, I will take the first shot at this 
one. To me this is the great weakness of al-Qaeda, and it is 
something that Muslim thinkers and commentators have noticed 
and repeatedly mentioned and it has caused tremendous dissent 
within the broader, certainly Islamist, but even within the 
jihadist community, the question of killing Muslims, especially 
Muslim noncombatants.
    To me, I would recommend several things to emphasize this. 
One is that when the United States does public diplomacy we not 
make it about the United States. I think if we end up trying to 
sell our policies, whether it is in Iraq or Israel-Palestine, 
we are not going to win on that one. But we do put it in their 
court when we make it about the killing of Muslim 
noncombatants.
    Also, we should be elevating credible voices that make 
these statements that condemn al-Qaeda. Here I would say this 
is a particularly difficult issue for Congress, however, 
because many of these credible voices are actually quite anti-
American on a number of other things. So you might have a quite 
eminent sheikh who says you should not kill Muslim women and 
children, al-Qaeda is wrong and evil, but you should go to Iraq 
and kill American soldiers there.
    Of course, I understand why we do not want to support 
anyone making that statement. But if you are trying to reach 
into the radical community, someone who is on the other extreme 
is not going to have any resonance there. So people with 
credibility to condemn al-Qaeda are going to have views that we 
often disagree with, at times quite strongly.
    Mr. Long. When you say public diplomacy, walk me through 
that again. Our public diplomacy should what?
    Mr. Byman. I am sorry, in my view often our public 
diplomacy emphasizes how good it is to be a Muslim in the 
United States, the validity and justice of U.S. policies, and 
these are legitimate activities. But to me it is far more 
credible, given the unpopularity of al-Qaeda's message, when we 
make the public diplomacy about their message, in a way this is 
negative campaigning. They have done many things and stand for 
many things that are extremely unpopular in the Muslim world 
and have been criticized even by elements within the radical 
fringe, and we need to amplify those voices and make that what 
the debate is about rather than trying to insert ourselves into 
this, which I think backfires.
    Mr. Long. Okay. Professor Hoffman.
    Mr. Hoffman. I think this question of al-Qaeda and its 
affiliates claiming far more Muslim lives than its enemies is a 
very important one and an unexploited one, but I would say 
generally we do a very bad job in countering the al-Qaeda 
narrative and countering their message of radicalization and 
recruitment.
    First, I think within the United States Government these 
types of activities are both poorly resourced and have a very 
low priority. I think we also tend to look at the world through 
our own eyes, not through the eyes of the audience we have to 
communicate with. For example----
    Mr. Long. How do we change that attitude? How do we change 
that?
    Mr. Hoffman. Well, I think we have to understand our enemy 
and understand our target audience much better than we do. I 
think just as Professor Byman was saying, that too often it is 
either directed from an American prison or through an American 
lens.
    I will give you a specific example. Much has been made in 
recent weeks about the videotape of Osama bin Laden sitting on 
the floor with the blanket around him in very austere 
surroundings wearing a wool cap. It almost gives the sense that 
this is some broken pathetic old man watching old films of 
himself. But yet we haven't thought of what that image actually 
portrays to Muslims elsewhere, to the Muslim world.
    For example, they see a man who lived until the end, who 
was true to his own commitment to forsake a life of comfort and 
luxury to wage jihad. Someone who lived simply, who like the 
prophet cloaked himself in a blanket as a pious Muslim, wore a 
head covering. So we see this as someone sitting there 
humiliated in essence, but that is not necessarily the image 
that other people, especially the audience that we need to 
reach, sees him as.
    In terms of how we can better counter this narrative than 
we have done, the victims of terrorism, especially the Muslim 
victims of terrorism, a young woman in Washington named Carie 
Lemack literally on her own with a very small network has 
created a survivor's group that has been motivated, and their 
mission basically is to better illuminate the role that victims 
and survivors of terrorism can play in countering this message. 
Of course, the documentary that she made on a shoestring 
``Killing in the Name'' was nominated for an Academy Award. But 
this is an important message that I think we have really under-
exploited and under-used.
    Mr. Long. Mr. Coll.
    Mr. Coll. Well, I agree entirely with Professor Byman and 
Professor Hoffman. I guess the only thought I would add is that 
the Arab Spring does offer an opportunity to advance the 
recommendations that both of the previous speakers have 
outlined. There is going to be an opportunity for the United 
States and many other countries around the world, wishing well 
to the nascent democracies forming in countries like Egypt and 
Tunisia to support civil society groups, credible voices, to 
strengthen speech and to bring forward the underlying opinion 
in many of these societies that al-Qaeda does not represent 
their ambitions and is in fact an evil in their midst. So that 
indirect opportunity speaks to the strategies that they have 
both outlined.
    Mr. Long. Thank you all for being here today. I have no 
time to yield back, but if I did, I would.
    Mr. McCaul. Thank you for your generosity.
    The Chairman now recognizes the gentleman from South 
Carolina, Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman, and thank you 
gentleman for being here. The little bit of time I have been in 
here has been very enlightening.
    I will direct this question to Dr. Hoffman. I am just 
trying to understand some of the relationships on the Arabian 
Peninsula and North Africa. What is the relationship, if any, 
between al-Qaeda and the Muslim Brotherhood?
    Mr. Hoffman. Well, it is a relationship that perhaps at one 
time in history ideologically was similar, but I think in 
recent years really they have been two inimical forces, where 
Ayman al-Zawahri, I suppose the titular leader of al-Qaeda now, 
but until recently bin Laden's deputy, certainly in recent 
months has attacked the Muslim Brotherhood in Egypt, also 
Hamas, which is part of the Muslim Brotherhood network in Gaza, 
for even attempting to make peace, for instance, with Israel or 
enter into any kind of negotiations in Egypt, for deigning to 
participate in any kind of a democratic process.
    So I think we are actually talking about phenomena that, as 
I said at one time, had some ideological similarities, but 
really now is quite separate and different.
    Mr. Duncan. Any other gentlemen have anything to add to 
that?
    Mr. Byman. Zawahri managed to write a book denouncing the 
Muslim Brotherhood essentially while on the run and being 
hunted. I have difficulty writing a book sitting in my office 
for years on end without such interruptions. So the fact that 
he put such effort into it. He has also had quite bitter 
relations with Hamas, the Palestinian terrorist group that is 
also a Muslim Brotherhood offshoot. So I think it is what the 
people refer to as the narcissism of little differences, where 
they were close enough ideologically that their subsequent 
split in terms of where they have gone, where they moved to, 
grates all the more.
    With the Muslim Brotherhood in Egypt now, you have an 
alternative, you have a political alternative. This is a group 
that is, so far, and we should perhaps knock wood here, is so 
far moving on the path to being part of regular elections in a 
democratic society. If that is a success, that is quite a 
different message and quite a different hope that should be 
encouraged. It will come with a lot of bumps, even if it is a 
success, but that in itself could be a blow to al-Qaeda.
    Conversely, if the Muslim Brotherhood is excluded from 
power, that will send a message to many young members that the 
world will not allow them to take power peacefully, so that 
exclusion could be quite dangerous and radicalizing to a small 
group of these people.
    Mr. Duncan. Just kind of a follow-up about al-Qaeda. What 
is the relationship between al-Qaeda and the Iranian 
Revolutionary Guard Corps, is that the Qods Force? Can you talk 
about that, because I am reading a lot about that now and I 
really would love to hear some testimony on that.
    Mr. Byman. Congressman, I would urge you to try to get a 
classified briefing on this, because the unclassified material, 
which I have studied extensively, is actually noticeable by its 
absence. There is clearly significant things going on. We have 
had senior al-Qaeda members transit Iran. Some have found haven 
in Iran, but perhaps under different degrees of house arrest. 
Iran has a history of working with a wide range of groups that 
it actually does not see eye-to-eye to, and certainly in this 
case they are often violently in disagreement. But Iran is 
quite pragmatic.
    So we have seen cooperation in the past. We have seen some 
degree of cooperation since 9/11. But in my judgment it is a 
very fraught relationship. There are ideological differences. 
Iran is much more cautious in its use of terrorism than al-
Qaeda. These groups in the end strongly, I would say, even hate 
one another is the right word, but they have other problems as 
well.
    But this is an area I think where both Iran and al-Qaeda 
for their own reasons have been trying to keep any relationship 
as secret as possible. It is politically damaging to both of 
them.
    Mr. Duncan. Clearly al-Qaeda is in Iran, the CIA just 
canceled a program over there tracking those individuals. I was 
going to ask a question how you feel about the CIA canceling 
that tracking program.
    Mr. Byman. In my view, tracking where al-Qaeda individuals 
are should always be a priority. I cannot speak to this 
particular program though. I don't know its strength and 
weaknesses.
    Mr. Duncan. A news report just came out today. I read it 
this morning.
    So thank you very much. I yield back the balance of my 
time.
    Mr. McCaul. Just in closing, I want to make a couple of 
comments. When we heard from the previous panel that the 
administration is not providing a complete and accurate picture 
of the threat assessment, specifically as it relates to 
proliferation of weapons of mass destruction, so when we look 
at countries like Pakistan and others that have nuclear 
capability, I think that is absolutely essential that they come 
forward as required by law and report these findings to the 
Congress. I would assume you would all agree with that 
assessment as well.
    AQAP, Awlaki has troubled me for the last 2 years, almost 
more so than bin Laden did, because of his ability to impact 
Muslim youth in the United States and radicalize them. As the 
Ranking Member talked about, this is a virtual safe haven, and 
he is in a safe haven in Yemen, a failed state. But his ability 
to use the internet very deceptively to radicalize remains--I 
think the testimony I have heard, you probably agree that 
Awlaki is emerging as one of the top leaders of al-Qaeda and 
one of the biggest threats.
    My last question, and if anybody else would like to ask a 
question, I will recognize them. We talked about the Predator 
drones, Professor Byman. I believe they have been very 
effective, the surgical strikes, but they have had some 
controversy obviously within Pakistan and Yemen as well. How 
effective are these drone strikes?
    Mr. Byman. Thank you, Mr. Chairman. In my view, the drone 
strikes are effective. But let me begin with three caveats: 
When you bomb people, at times you miss or at times you kill 
innocent people nearby. The drones are far more surgical than 
our traditional fixed-wing aircraft that are manned, and, of 
course, they are far more surgical than Pakistani military 
range. But nevertheless, we have to accept innocent death as 
part of this.
    Second, the drones are unpopular in Pakistan. When you are 
conducting military operations on the soil of another country, 
that is understandable. Often they are less popular farther 
away from the areas where the drones are operating. I think 
that in some ways people are farther away, it is easier to take 
offense when you don't have to deal with the militants nearby.
    The third caveat is the drone itself is not a strategy that 
solves the problem. In my view, it reduces the problem, but 
this is something that will be solved more fundamentally or not 
by the actions of the Pakistani state.
    But the drones do reduce the skilled number of al-Qaeda 
leaders, and their bench, while deep, is not infinite. I think 
even more important, it forces them to operate in a different 
way. They spend much of their time playing defense. It is very 
hard to quantify, but if instead of spending 12 hours a day 
organizing, planning and training, they spend 2 because the 
other remaining 10 are spent moving from place to place, 
avoiding dangerous communications, that is a huge impact on an 
organization, and I will say especially given the leadership 
transition going on.
    With the death of bin Laden, Zawahri needs to lead. He 
needs to be out there, he needs to be communicating, he needs 
to be showing that he is taking over, and that is much harder 
because he risks exposing himself to U.S. intelligence and the 
U.S. military if he does, and his death in a short period of 
time would be an extreme blow to this organization, reducing 
continuity.
    Mr. McCaul. Mr. Coll and Professor Hoffman, do you agree 
with that assessment?
    Mr. Hoffman. I do. I would just add a couple of points. I 
think it has been a highly effective tactic. I think though we 
have run the risk of confusing an effective tactic with an 
overall strategy, and I think this is just one arm of the war 
on terrorism.
    But I think what concerns me the most is I predict we are 
going to see diminishing returns from the drone program. I 
think we already are. When we see the publicly-released lists 
of targets that have been killed, the 130 or so people, you 
look at that list, there is a diminishing number of actual high 
value targets of the senior leaders of al-Qaeda. There is 
nothing wrong with disrupting the mid-level as well, but I 
think as a means of decapitation, we are going to find it that 
it pays fewer dividends. I think also that our opponents will 
take increasing countermeasures to frustrate the drones and to 
make sure that they are not the victims.
    But I would end with the point that one of the lessons or 
messages we should take from the highly successful SEAL 
operation in Abbottabad is that we also have the capacity 
perhaps in the future not just to take out and kill high-value 
targets, but also to use that capability to capture them and 
therefore gain the necessary intelligence, both tactically and 
also strategically, that often high-value targeted killings 
don't enable us to obtain.
    Mr. McCaul. That is a great point. The treasure trove we 
found in the compound, do you believe Pakistan is fully 
cooperating with us on getting that information?
    Mr. Hoffman. One hopes so, but it is difficult to say. At 
least publicly it is not clear. I mean, they did of course let 
the CIA--there was one important development. They did let the 
CIA team into the compound to do their forensic scans with 
equipment and with capabilities that the Pakistanis don't have. 
But beyond that, how the treasure trove of information is 
actively being applied in terms of actionable intelligence, it 
is just not clear. It may be happening, but I am not aware of 
it.
    Mr. McCaul. Mr. Coll.
    Mr. Coll. Just on that last point, it is my understanding 
that the access to the wives and other civilians who were in 
the compound and who were left behind was difficult for the 
United States to obtain in the early days and the circumstances 
in which those individuals were held by Pakistan raised 
questions about the Pakistani government's intent in terms of 
maximizing cooperation. So it does seem as if from the open 
source evidence things have improved, but certainly in the 
first 48 hours or 72 hours there were some real breaches in 
cooperation, I think.
    On the larger subject, I agree very much with both of the 
previous speakers. I do think that, to Professor Hoffman's 
points about the diminishing returns, I think the open source 
evidence makes clear what he asserts, and also bin Laden's own 
circumstances suggest what life is like if you are on the run 
from a world of drones. You do not sit in the spaces that you 
know the drones will be actively patrolling.
    Mr. McCaul. I would say that is a great point.
    Okay, with that, I want to thank the witnesses for an 
excellent discussion here today.
    Members have 10 days to submit questions in writing. If 
they do so, I would hope you would answer those. Thank you so 
much again for appearing here today.
    With that, this hearing is adjourned.
    [Whereupon, at 12:20 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
